Report No. DODIG-2012-067                 March 30, 2012




               Special Plans and Operations



      Assessment of DoD Wounded Warrior Matters -
                     Camp Lejeune
                                      INSPECTOR GENERAL
                                       DEPARTMENT OF DEFENSE
                                       4800 MARK CENTER ORIVE
                                    ALEXANDRIA, VIRGINIA 22350-1500




                                                                                      March 30. 20 12

MEMORANDUM FOR DISTRIB UTION

SURJ F:CT: Assessment or DoD Wounded Warrior Mallers Camp Lejeune!
           (Report No. DODTG-20 12-067)

       This report discusses the U.S. Marine COLv's Warrior Care and Transition Programs at
Camp Lejeune, North Carolina, and is the thi rd in a series of site repot'ls that wil l discuss the
care. management, and transition or recovering Service members.

       We arc providing this repoti for review and comment. We considered management
comments on a draft or this repol'l when preparing the final report. Some of these comments
were partially responsive. and we have revised one recommendation.

           We request additional comments on recommendations by April 30. 2012 as fo llows:

       •     Secretary of the Navy: We request add itiona l comments on Recommendation D.2.

       •     Undersecretary of Defcnse for Pt::rstlnncl and Readiness: We requesl additional
             comments on Recommendation 0.3.

       •     Oftice of the Secretary of Defense, llealth Affairs: We request notilicalion be
             provided as progress is made towards updates in Recommendation 0.4.1.

       •     Surgeon General of the Navy and Chief, Bureau of Medicine and Surgery: We
             request additional comments on Recommendations 0.1.1. a., 0.4.2. (a)-( b), and
             0.4.3.

         DOD Directive 7650.3 t·equires that recommendations be resolved promptly. lf possible,
send a .pJl' tile containing your comments in electronic formal (Adobe Acrobat file on ly) to
spo(ft;Jotlig.mil. Copies of your comments must have the actual signature of the authorizing
oiTicial for your organization. We are unable to accept the /Signed/ symbol ir1 place of the actual
signature. lf you arrange to send classified comments electronically, you must semllhem over
I he SEC RET Internet Protocol Router Network (ST PRNET).




                                             A~b~].d~=t&~:~~:eld
                                               Deputy Jnspeetot General
                                                 Department of Dcf'ense
DISTRIBUTION:

UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS
  DEPUTY UNDER SECRETARY OF DEFENSE FOR WOUNDED WARRIOR CARE
     AND TRANSITION POLICY
  ASSISTANT SECRETARY OF DEFENSE FOR HEALTH AFFAIRS
  ASSISTANT SECRETARY OF DEFENSE FOR RESERVE AFFAIRS
DIRECTOR, JOINT STAFF
   JOINT STAFF SURGEON
COMMANDER, U.S. CENTRAL COMMAND
COMMANDER, U.S. EUROPEAN COMMAND
COMMANDANT OF THE MARINE CORPS
  DEPUTY COMMANDANT FOR MANPOWER AND RESERVE AFFAIRS
  COMMANDER, WOUNDED WARRIOR REGIMENT
  MEDICAL OFFICER OF THE MARINE CORPS
  COMMANDING OFFICER, WOUNDED WARRIOR BATTALION – EAST
  COMMANDING OFFICER, WOUNDED WARRIOR BATTALION – WEST
COMMANDER WARRIOR TRANSITION COMMAND
SECRETARY OF THE NAVY
SURGEON GENERAL OF THE NAVY AND CHIEF, BUREAU OF MEDICINE AND
SURGERY
   COMMANDER, NAVY MEDICINE EAST
   COMMANDER, NAVY MEDICINE WEST
   COMMANDING OFFICER, NAVAL HOSPITAL CAMP LEJEUNE
   COMMANDING OFFICER, NAVAL HOSPITAL CAMP PENDLETON
   COMMANDING OFFICER, NAVAL HOSPITAL TWENTY-NINE PALMS
   COMMANDING OFFICER, NAVAL MEDICAL CENTER SAN DIEGO
   NAVAL MEDICAL INSPECTOR GENERAL
ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL MANAGEMENT AND
   COMPTROLLER)
AUDITOR GENERAL, DEPARTMENT OF THE ARMY
INSPECTOR GENERAL, DEPARTMENT OF THE ARMY
NAVAL INSPECTOR GENERAL
MARINE CORPS INSPECTOR GENERAL
INSPECTOR GENERAL, OFFICE OF THE SECRETARY OF VETERANS AFFAIRS
GOVERNMENT ACCOUNTABILITY OFFICE

SENATE COMMITTEE ON APPROPRIATIONS, SUBCOMMITTEE ON DEFENSE
SENATE COMMITTEE ON ARMED SERVICES
SENATE COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
HOUSE COMMITTEE ON APPROPRIATIONS, SUBCOMMITTEE ON DEFENSE
HOUSE COMMITTEE ON ARMED SERVICES
HOUSE COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM
Report No. DODIG-2012-067 (Project No. D2010-D00SPO-0209.002)                         March 30, 2012



                 Results in Brief: Assessment of DoD
                 Wounded Warrior Matters – Camp
                 Lejeune
What We Did                                               What We Recommend
We assessed whether the programs for the care,            We recommend that the WWBn-East and the
management, and transition of Wounded                     Naval Hospital Camp Lejeune management:
Warriors (who include Wounded, Ill, or Injured              • Develop procedures to ensure Warriors
Marines, hereafter, “Warriors”) located at the                  are active participants in the development
Camp Lejeune, Wounded Warrior Battalion -                       of their Comprehensive Training Plans
East (hereafter, “WWBn-East”) were managed                  • Develop comprehensive training program
effectively and efficiently. Specifically, we                   for recovery team members to help
evaluated the missions, policies, and processes                 Warriors heal, recover and transition
in place to assist Warriors in their return to duty         • Update and implement policies and
status or transition to civilian life, and the DoD              procedures for medication management,
programs for Warriors affected with Traumatic                   polypharmacy and medication
Brain Injury and Post Traumatic Stress Disorder.                reconciliation
                                                            • Establish procedures for the disposal of
What We Found                                                   prescription medications no longer
We identified several initiatives implemented at                needed by the Wounded Warrior
both WWBn-East and the Naval Hospital Camp                  • Ensure timely access to specialty medical
Lejeune that we believed to be noteworthy                       care
practices for supporting the comprehensive care,            • Ensure there are dedicated primary care
healing, and transition of Warriors. Further, we                managers throughout all Marine
observed that the WWBn-East and Naval                           Wounded Warrior sites to ensure primary
Hospital Camp Lejeune management and staff                      care oversight and continuity
were fully dedicated to providing the best
available care and services for helping Warriors          Management Comments
heal and transition.                                      and Our Response
We also identified a number of significant                Those offices listed on the recommendations
challenges that we recommend the WWBn-East                table on the back of this page either concurred or
and Naval Hospital Camp Lejeune management                non-concurred with comments to our
address, which if resolved, we believe will               recommendations. However, there are several
increase program effectiveness in providing               recommendations that require additional
quality and timely care and services in support           comments. Therefore, we request that the
of the Warriors healing and transition.                   Secretary of the Navy, Undersecretary of
                                                          Defense for Personnel and Readiness, and the
Finally, we recognized as a result of this                Surgeon General of the Navy and Chief, Bureau
assessment, that it was important to give a voice         of Medicine and Surgery provide additional
to the Warriors themselves. We suggest that the           comments to the final report by April 30, 2012.
WWBn-East and Naval Hospital Camp Lejeune
management and staff consider Warrior
comments, as discussed in this report, so they
are cognizant of the Warriors’ views and
concerns and can take appropriate action.




                                                      i
Report No. DODIG-2012-067 (Project No. D2010-D00SPO-0209.002)                 March 30, 2012



Recommendations Table
         Management                    Recommendations            No Additional Comments
                                     Requiring Comment                  Required
Undersecretary of Defense for     D.3.
Personnel and Readiness
Office of the Secretary of        D.4.1.
Defense, Health Affairs
Secretary of the Navy             D.2.
Surgeon General of the Navy and   D.1.1.a., D.1.1.b., D.4.2.a.,   D.1.1.c.,
Chief, Bureau of Medicine and     D.4.2.b., D.4.3.
Surgery
Commanding Officer, Navy                                          D.4.3.
Medicine East
Commanding Officer, Wounded                                       D.2.1.a., D.2.1.b., D.2.1.c.,
Warrior Regiment                                                  D.2.1.d., D.2.1.e.
Commanding Officer, Wounded                                       C.1., C.2., C.3.1. a.,
Warrior Battalion – East                                          C.3.1.b., C.3.1.c.,
Commanding Officer, Naval                                         D.1.2., D.4.4.a., D.4.4.b.
Hospital Camp Lejeune
Please provide comments by April 30, 2012.




                                             ii
Table of Contents

RESULTS IN BRIEF                                                           I
INTRODUCTION                                                               1
 Objectives                                                                1
 Background                                                                2
PART I - NOTEWORTHY PRACTICES                                             11
 Observation A. Noteworthy Practices - Wounded Warrior Battalion - East   13
 Observation B. Noteworthy Practices - Naval Hospital Camp Lejeune        24
PART II - CHALLENGES                                                      35
 Observation C. Challenges – Wounded Warrior Battalion - East             37
 Observation D. Challenges – Naval Hospital Camp Lejeune                  49
PART III - WARRIORS SPEAK                                                 75
APPENDIX A. SCOPE, METHODOLOGY, AND ACRONYMS                              93
APPENDIX B. SUMMARY OF PRIOR COVERAGE                                     96
APPENDIX C. REPORTING OTHER ISSUES                                        98
APPENDIX D. MANAGEMENT COMMENTS                                           99
This Page Intentionally Left Blank
Introduction
Objectives
The broad objective of this ongoing assessment is to determine whether the DoD programs for
the care, management, and transition of recovering Service members wounded during
deployment in Operation Iraqi Freedom or Operation Enduring Freedom were managed
effectively and efficiently. 1

Specific Objectives
Our specific objectives were to evaluate the missions, the policies, and processes of:
    •   Military units, beginning with the Army and Marine Corps, established to support the
        recovery of Service members and their transition to duty status (Active or Reserve
        Components) 2 or to civilian life; and
    •   DOD programs for Service members affected with Traumatic Brain Injury (TBI) and Post
        Traumatic Stress Disorder (PTSD).

Assessment Approach
We conducted this assessment in response to a request to the DoD IG made by Congressman
Walter B. Jones (R-NC) in February 2009. Congressman Jones received complaints from
constituents about incidents that allegedly occurred at the Wounded Warrior Battalion-East
(WWBn-East) at Camp Lejeune, North Carolina. As a result of a meeting with Congressman
Jones and his staff, we agreed to assess Wounded Warrior matters in a systemic approach across
DoD, beginning with the Army and the Marine Corps.

We interviewed several of Congressman Jones’ constituents both prior to and during our site
visit to Camp Lejeune to obtain information about the program and the alleged concerns;
however, because those constituents were no longer part of the WWBn-East at the time of our
site visit, the information they provided was not directly used in support of the observations and
conclusions in this report. Rather, this information was used to help frame the interview
questions we used during our visit to Camp Lejeune in the fall of 2010.

This is the third of multiple assessments that will be conducted at Army and Marine Corps
Warrior transition units. To obtain unbiased data, not unduly reflecting the views of either the
supporters or detractors of the program, we used a two-pronged approach to select our
respondents. First, we determined how many Service members were required to be interviewed,
then we applied a simple random sample approach to determine the Service members we should


1
  The Marines referred to in this assessment were wounded, ill and injured personnel who were under the
responsibility of the Wounded Warrior Battalion-East in Camp Lejeune, North Carolina. The Wounded Warrior
Regiment estimates that approximately 60 percent of Marines in the Wounded Warrior Battalions were combat
wounded.
2
  The Marine Corps is a branch of the United States Armed Forces and is comprised of Active Duty Marines and
Reserve Marines; the Army is comprised of two distinct and equally important components, the Regular Army (the
Active Component), and the Army National Guard and the Reserve (the Reserve Components).



                                                       1
interview, as described in Appendix A. We subsequently performed interviews with Marine
Corps wounded, ill, and injured personnel (hereafter referred to as Warriors), to include 64
individual interviews with Marines, and 24 additional Marines in 4 group interviews.

Second, we interviewed all available members of the key groups responsible for the Warriors’
care. Specifically, we conducted meetings and interviews during our 2-week visit at Camp
Lejeune that included unit commanders, staff officers, and WWBn-East military staff, as well as
civilian staff and contractors. A list of the meetings and interviews conducted at the Naval
Hospital Camp Lejeune and WWBn-East is in Appendix A, along with the scope, methodology,
and acronyms of this assessment. The prior coverage of this subject area is discussed in
Appendix B.

The observations and corresponding recommendations in this report focus on what we learned at
Camp Lejeune, but we believe that some of our findings may have implications for other
Wounded Warrior units and should be called to the attention of higher headquarters responsible
for these programs.

Additional reports and/or assessments may be subsequently performed by the DoD Office of the
Inspector General on DoD Wounded Warrior matters or other related issues as they are
identified. A current list of specific issues, concerns, and challenges that we identified at the
WWBn-East that may be addressed in future assessments and/or reports to organizations other
than those located at the Army and Marine Corps installations we visited are discussed in
Appendix C.

Background
U.S. Marine Corps Wounded Warrior Regiment
The 34th Commandant of the Marine Corps, Gen. James T. Conway, in his 2006 Planning
Guidance, highlighted his vision of taking care of Wounded Warriors and their families.
Consequently, the U.S. Marine Corps Wounded Warrior Regiment (WWR), was established in
2007 to provide and facilitate non-medical care to combat and non-combat wounded, ill and
injured Marines, and Sailors attached to or in direct support of Marine units and their family
members in order to assist them to return to active duty or transition successfully to civilian life.

The Regimental Headquarters element, located in Quantico, Virginia, maintains administrative
and operational control of two Wounded Warrior Battalions located at Camp Lejeune, North
Carolina (WWBn-East) and Camp Pendleton, California (WWBn-West). The Regimental
Headquarters provides unity of command and unity of effort through a single Commander who
provides guidance, direction, and oversight to the Marine Corps Warriors non-medical care
process and ensures continuous improvements to care management and the seamless transition of
recovering Marines. The Regiment’s nerve center is the Wounded Warrior Operations Center,
which serves as the central point of contact for all non-medical care management issues.




                                                  2
The mission of the WWR, according to their Promulgation Statement, is the following:
                 The Wounded Warrior Regiment will provide and facilitate
                 assistance to ill/injured Marines, Sailors attached to or in support
                 of Marine units, and their family members, throughout the phases
                 of recovery.

The WWR’s motto is “Still in the fight” which helps to focus a recovering Marine on “ability”
versus “disability.” The WWR strives to focus the mindset of these Warriors on their ability to
overcome their disabilities and personal challenges to thrive in all areas of their lives. Focusing
on ability provides the psychological and emotional support to encourage healing and a quicker
adaptation to injury and leads to an increased ability for these Warriors to thrive within their new
normal. 3

Since the WWR stood up in April 2007 it has provided support to nearly 27,377 wounded, ill,
and injured Marines. Support may include Call Center contact, administrative support (benefits
and compensation), psychological health referral, and family support, among others.
Approximately 60 percent of these Marines were wounded in combat, and 40 percent had
suffered injuries not associated with combat.

As written in the Wounded Warrior Regiment Handbook, December 2010, “Once a Marine,
always a Marine” is an enduring commitment the WWR upholds. Whether Marines are
wounded in combat, fall ill, or are injured in the line of duty, the WWR stands steadfast to serve
the total Wounded, Ill and Injured (WII) force: active duty, reserve, retired, and veteran
Marines.”

Wounded Warrior Battalions
The WWBn-East is located in Camp Lejeune, North Carolina, while the WWBn-West is in
Camp Pendleton, California. These battalions have Detachments located at Military Treatment
Facilities (MTF) and at Department of Veterans Affairs (VA) Polytrauma 4 Rehabilitation
Centers. Table 1. shows the locations of Wounded Warrior Battalions. 5




3
  Reference to Focus on Ability taken from Wounded Warrior Regiment Handbook, December 2010, page 38.
4
  “Polytrauma” was termed by VA to describe injuries to multiple body parts and organs occurring as a result of
blast-related wounds seen in Operation Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF). Traumatic
brain injury (TBI) frequently occurs in polytrauma in combination with other disabling conditions, such as
amputation, auditory and visual impairments, spinal cord injury (SCI), post-traumatic stress disorder (PTSD), and
other medical conditions. Due to the severity and complexity of their injuries, Veterans and Servicemembers with
polytrauma can require an extraordinary level of coordinated and integrated clinical and other support services.
5
  Wounded Warrior Battalion Locations are broken out by East and West sites as shown on the Wounded Warrior
Battalion Detachments Fact Sheet at www.woundedwarriorregiment.org.



                                                         3
                         Table 1. Wounded Warrior Battalion Locations

    Wounded Warrior Battalion – East Sites            Wounded Warrior Battalion – West Sites
    Landstuhl Regional Medical Center, GE            Naval Hospital 29 Palms, CA
    Walter Reed National Military Medical            VA Polytrauma Center, Palo Alto, CA
    Center, Bethesda, MD 6
    Naval Hospital Portsmouth, VA                    Naval Hospital Camp Pendleton, CA
    Naval Hospital Camp Lejeune, NC                  Balboa Naval Hospital San Diego, CA
    San Antonio Military Medical Center, San         Tripler Army Medical Center, Honolulu, HI
    Antonio, TX
    VA Polytrauma Center, Minneapolis, MN            Naval Hospital Okinawa, Japan
    VA Polytrauma Center, Tampa Bay, FL
    Andrews Air Force Base, MD

Active and Reserve Marines at the detachment sites are the primary interface with Warriors and
their families. Specifically, through ongoing and personal interactions, they assist families with
non-medical issues (e.g. pay, entitlements, travel and transportation, temporary lodging, etc.)
allowing families to focus on their Warriors’ recovery. Additionally, they coordinate care and
resources provided by governmental agencies and non-governmental benevolent organizations
including the scheduling of special event and educational opportunities.

Each detachment commander reports directly to their respective battalion commander (e.g.
WWBn – East or West.) The battalion commander reports to the Wounded Warrior Regiment
commander. The U.S. Marine Corps relies on the other military services, the VA, or the civilian
healthcare network to provide for the medical needs of Warriors. Specifically, the health care
provided to each Warrior is coordinated by the closest MTF or VA. These MTF or VA care
teams consist of, but are not limited to, military personnel, physicians, nurses, medics/corpsmen,
medical case managers, and specialty providers such as TBI and behavioral health specialists
(e.g. psychiatrists, psychologists, social workers, and family counselors) and a myriad of outside
organizations offering resources to the Warriors.

The WWBn detachments and MTFs provide this critical support to Warriors who are referred
and meet the eligibility criteria for entrance in the WWBn, which generally require that a
wounded, ill, or injured Marine has a medical condition that will require 90 or more days of
medical treatment and/or rehabilitation. Other considerations a commander can use to determine
whether a Marine should be referred to a WWBn include the following: 1) Three or more
medical appointments required per week; 2) Command cannot support transportation to and from



6
 The 2005 Defense Base Realignment and Closure (BRAC) Commission recommended that DOD establish a new
Walter Reed National Military Medical Center (WRNMMC) on the site of the current National Naval Medical
Center (NNMC) in Bethesda, Maryland. The last patients at Walter Reed Army Medical Center were transported
August 27, 2011 to the new location at WRNMMC.



                                                     4
appointments; and 3) the Marine cannot serve a function in their parent command due to his or
her injuries or illness.

Personnel Support of the Wounded Warrior Battalions
There are several members of the team that support individual Warrior recovery and transition
including, among others, the Warrior’s Section Leader (also referred to as Platoon Leader),
Medical Case Manager, Primary Care Manager and Recovery Care Coordinator.

Specifically, the following is a brief description of each member’s roles and responsibilities.
    •   Section (Platoon) Leader – is a military Service member (senior non-commissioned
        officer) 7 who plays a key leadership role in supporting the Marine through the recovery
        process and helps them complete actions necessary to meet their transition goals as
        outlined in their Comprehensive Transition Plan (CTP) 8. The Section Leader combines
        the discipline and standards of the Marine Corps with an understanding of the obstacles
        Warrior Marines face while serving as their advocate to ensure coordinated medical and
        non-medical recovery efforts. WWR guidelines indicate that Section Leaders support
        their wounded, ill and injured Marines on a 1:10 ratio.
    •   Medical Case Manager – is usually a civilian employee who “assesses, plans,
        implements, coordinates, monitors and evaluates options and services” to meet the
        Warriors’ complex health needs. The medical case manager helps to coordinate medical
        appointment schedules and other medical related activities.
    •   Primary Care Manager – is either a military or civilian health care provider (e.g.
        physician, physician’s assistant, or nurse practitioner) who is the medical point of contact
        and healthcare advocate for the Warrior. They provide primary oversight and continuity
        of healthcare and are to ensure the level of care provided is of the highest quality. They
        are the gateway to all specialty care (such as behavioral health specialists or orthopedic
        surgeons) and they coordinate with other physicians to ensure that the Warriors are
        getting the treatment that they need.
    •   Recovery Care Coordinator (RCC) – is usually a civilian employee who serves as the
        Warrior’s primary point of contact to help them define their individual goals for recovery,
        rehabilitation, and community reintegration. Additionally, the RCC identifies the
        services and resources needed to achieve these goals and develops the CTP that guides
        the Warrior during their transition.




7
  A senior non-commissioned officer is an enlisted member of the armed forces, appointed to a rank conferring
leadership over other enlisted personnel.
8
  The primary tool used to coordinate a recovering Marine’s and their family’s care is the Comprehensive Transition
Plan (CTP). This plan is based on information from the Marine’s recovering needs assessment, which takes into
consideration various components such as employment, housing, financing, counseling, family support, disability
evaluation process, among others. The CTP is referred to as a “life map” for the recovering Marine and their family
and reflects their medical and non-medical goals and milestones from recovery and rehabilitation to community
reintegration.



                                                         5
Camp Lejeune, North Carolina
Camp Lejeune is located on the Eastern Coast near Jacksonville, NC. The base and surrounding
community is home to an active duty, dependent, retiree and civilian employee population of
approximately 180,000. The nearest large city (Raleigh, NC) is approximately 100 miles away
and has a population of approximately 276,093.

Camp Lejeune's mission is to maintain combat-ready units for expeditionary deployment. Camp
Lejeune is the home base for the II Marine Expeditionary Force, 2nd Marine Division, 2nd
Marine Logistics Group and other combat units and support commands. There are several major
Marine Corps commands and one Navy command aboard Camp Lejeune and several tenant
commands which include the Naval Hospital and the Wounded Warrior Battalion-East. The
Naval Hospital provides primary medical care to service members and their families stationed at
Camp Lejeune and Marine Corps Air Station New River. The Naval Hospital Commander does
not exercise command and control over the Wounded Warrior Battalion-East. Rather, the Naval
Hospital Commander provides direct medical support to the Wounded Warrior Battalion-East as
he does to all other units at Camp Lejeune and Marine Corps Air Station New River.

The Wounded Warrior Battalion-East organizational structure that supported the Warriors in the
battalion is shown in Figure 1.


                                    Figure 1. Wounded Warrior Battalion – East


                                              WWBn-E Task Organization

                                                              Wounded Warrior Bn East                                SUPPORTING
             Command Advisor           SgtMaj
              Executive Officer        Chaplain                                                                                   Medical Case
                                                                                                                                   Managers


                                                        Warrior Athlete                                       Career Retention        IPAC
            S-1       S-3     S-4     Transition                           Recovery Care
                                                        Reconditioning                                           Specialist       (Base Admin)
                                        Center                             Coordinators
                                                          Program
                                                                                                              Family Readiness          VA
                                                                                              SPECIAL STAFF




                            Medical Officer                                                                    Family Support
                             Aid Station                                                                                               MCCS
              Contact                                                                                         Licensed Clinical
              Support                                Bn DES                                                      Consultant
                Cell                                 Lawyer                                                                         PEBLOs
                                                                                                               Medical Case
                    Charitable                                                                                Manager Advisor
                  Organizations                                                                                                   MCB CAMLEJ
                   Coordinator
                                                                                                                  LIMDU
                                                                                                                Coordinators           NHCL


                  Bethesda Det/WR                 Brooke AMC Det              Landstuhl Det                            Co A (CamLej)


                   Portsmouth Det                  Tampa Bay Det


                    Richmond Det                  Minneapolis Det




                                                                          6
Camp Lejeune Wounded Warrior Battalion- East (WWBn-East)
As of September 30, 2010, the WWBn-East had approximately 121 Marines, Sailors and civilian
professionals dedicated to ensuring the health, welfare, and morale of approximately 194
Warriors. WWBn-East consisted of a headquarters element in support of all detachments and
two companies (Alpha and Bravo) that supported wounded, ill and injured Marines physically
present at Camp Lejeune. The mission statement of the WWBn-East was to:

       “Provide continuous, far-reaching leadership to wounded, ill, or seriously injured
       Marines and designated Sailors worldwide in order to ensure all wounded
       warriors and families successfully transition back to full duty or civilian life.”

The WWBn-East included seven detachments geographically dispersed over six U.S. States
(Maryland, North Carolina, Virginia, Texas, Florida, and Minnesota) and one detachment located
at Landstuhl, Germany. Our assessment focused on those personnel geographically located at
WWBn-East headquarters Camp Lejeune, North Carolina. Additionally, the WWBn-East
headquarters included a number of special staff elements in support of a Warrior’s transition
including, but not limited to, a Career Retention Specialist, Family Readiness Support
Coordinator, Medical Case Manager Advisor, Licensed Clinical Consultant and Limited Duty
Coordinators. In addition, there were Recovery Care Coordinators, a Disability Evaluation
System Lawyer, and a Warrior Athlete Reconditioning program coordinator.

The majority of the Warrior’s medical care was provided by the U.S. Navy hospital located on
the base, with the remainder of the services being coordinated by the TRICARE healthcare
contractor utilizing off-base civilian health care providers and facilities.

Of the 194 Warriors assigned to the WWBn-East as of September 30, 2010, 130 were combat
wounded in the theater of operations.

Between April 2007 and the completion of our site visit on September 30, 2010, the WWBn-East
transitioned a total of 696 Marines. Table 2 shows the status of the Warriors.

         Table 2. Status of Warriors Who Transitioned Through the WWBn-East

 Return to Active Duty                                                                 36
 Transitioned from the U.S. Marine Corps to Civilian Life                             324
 Deceased                                                                               6
 Administrative or Adverse Actions                                                      3
 Remaining in Transition                                                              317
 Marine Reservists (8 returned to reserve unit, and 2 transitioned to civilian         10
 life)
 Total Warriors in Transition                                                         696




                                                7
Naval Hospital Camp Lejeune
The Naval Hospital at Camp Lejeune and its 5 branch clinics 9 have a staff of nearly 2,000 active
duty, civil service and contract personnel supporting a beneficiary population of over 118,000,
including: active duty, family members of active duty, retired service members and their
families. The Naval Hospital Camp Lejeune provides both inpatient 10 and ambulatory care 11
services, which includes, but was not limited to:
    •    Primary Care 12 – family medicine, internal medicine, pediatrics, and branch clinics
    •    Specialty Care – mental health, emergency medicine, internal medicine, anesthesia/pain
         management, surgery (general; ear, nose, and throat (ENT); eye; urology), OB/GYN,
         orthopedics (general, hand specialist, podiatry, spine surgery), physical therapy,
         occupational therapy, sports medicine, chiropractic, dental (general/pediatric),
         dermatology, occupational health, optometry, speech therapy, and neuropsychology
    •    Clinical Support Services – preventive medicine, health promotion, nutrition
         management, substance abuse program, deployment health center, laboratory, pharmacy,
         radiology

Traumatic Brain Injury and Post Traumatic Stress Disorder
Two most increasingly common diagnoses for recovering Service members are TBI 13 and
PTSD. 14 TBI is also referred to by its common term, “concussion,” which occurs when someone
receives a direct blow or a jolt to their head that may disrupt the function of the brain. Service
members may sustain concussions or TBIs when exposed to a blast or explosion (sometimes on
multiple occasions), which may lead to serious symptoms that may not be immediately apparent.
There are three different levels of TBI (mild, moderate, and severe) based on the severity of
damage to the brain.

PTSD is an anxiety disorder or condition that develops after someone has experienced or
witnessed a life-threatening or traumatic event, which may include a combat event. PTSD
symptoms often begin immediately after the traumatic event but may not be evident until years
later. A PTSD event likely involves actual or perceived death or serious injury and causes an
intense emotional reaction of fear, hopelessness, or horror.


9
  Branch Clinic is defined as having at least one of the following capabilities: medical, dental and/or occupational
medicine; and is subordinate to a larger facility.
10
   Inpatient Care refers to medical treatment that is provided in a hospital or other facility, and requires at least one
overnight stay.
11
   Ambulatory Care includes diagnosis, observation, treatment, and rehabilitation that are provided on an outpatient
basis.
12
   Primary Care refers to health care professionals who act as a first point of consultation for patients, and involves
the widest scope of health care: patients seeking to maintain optimal health, and patients with all manner of acute
and chronic physical, mental and social health issues, including multiple chronic diseases.
13
   The definition of TBI is from multiple sources, including “Types of Brain Injury,” Brain Injury Association of
America, October 15, 2008; and “Force Health Protection and Readiness Quick TBI and PTSD Facts,” Force Health
Protection and Readiness, October 15, 2008.
14
   The definition of PTSD is from multiple sources, including “Force Health Protection and Readiness Quick TBI
and PTSD Facts,” October 15, 2008; and Jessica Hamblen, PhD, “What is PTSD?” National Center for PTSD, U.S.
Department of Veterans Affairs, October 15, 2008.



                                                            8
TBI and PTSD health care services are provided by the Naval Hospital at Camp Lejeune and
various civilian TRICARE network providers in the local community. TBI services include the
following: Neurology, Neuropsychiatry, Speech Therapy, Occupational Therapy, Vestibular
Rehabilitation, Physical Therapy, Cognitive Therapy, Pain Management, Acupuncture,
Audiology, Mental Health, Biofeedback and Otolaryngology. PTSD services are provided by
the Naval Hospital’s Mental Health Department at the hospital, as well as the Central Intake and
Referral Center and the Deployment Wellness Center that are both located on the Camp Lejeune
installation. Additionally, the Naval Hospital’s Substance Abuse Rehabilitation Program
(SARP) is used to provide services for both TBI and PTSD patients who may have problems
associated with substance abuse.




                                               9
This Page Intentionally Left Blank




               10
      Part I -
Noteworthy Practices




         11
This Page Intentionally Left Blank




               12
Observation A. Noteworthy Practices for the
Wounded Warrior Battalion – East
At the time of our assessment, we observed three noteworthy practices that WWBn-East had
instituted with respect to providing quality services for recovering Marines. Those initiatives
included:
        A.1. The 9-Block Meeting 15 allowed the Warrior’s Recovery Team 16 to identify a
             recovering Marine’s need and develop an individualized course of action, which
             helped to facilitate their recovery and transition.
        A.2. The leadership at WWBn-East was actively involved in screening non-military
             organization requests for visits to Warriors, which may result in limiting those visits
             that negatively affect a Warrior/or the Battalion’s environment.
        A.3. The leadership at WWBn-East was supportive of activities that positively impact
             Warrior Transitions, however, given the constraints of Camp Lejeune’s isolated
             location, there were limitations in availability of meaningful programs.
We observed these three initiatives implemented at the WWBn-East and believe that these
initiatives, as discussed below, have already improved and will continue to progressively
improve and enhance the recovery process for Marines and their transition from the Camp
Lejeune Battalion.
These noteworthy practices may be applicable for utilization at other U.S. Marine Corps
Wounded Warrior locations and should be considered for prompt implementation. We plan to
identify other noteworthy practices in a summary report, after all field assessments are
completed, that the Services should consider for implementation throughout all of the Wounded
Warrior units in the military, as appropriate.




15
   WWBn-East held weekly 9-Block Meetings to highlight Marine Recovering Service members who may have
issues that are worthy of extra attention from the command.
16
   The Recovery Team also known as the Outreach Task Force, are members involved in the overall care and
management of a recovering Marine.



                                                     13
A.1. 9-Block Meeting
 WWBn – East utilized their “9-Block” meeting to ensure that members of a Warrior’s
 recovery team were able to freely discuss potential and identified concerns that could
 adversely affect a Warrior’s recovery and transition. As a result, the recovery team was able
 to develop an individualized course of action to address each Warrior’s needs to better
 facilitate his or her transition.
A.1. Background
Department of Defense Instruction 1300.24, “Recovery Coordination Program,” December 1,
2009, established policy, assigned responsibilities, and prescribed uniform guidelines,
procedures, and standards for improvements to the care, management, and transition of
recovering Service members (RSM) across the Military Departments.

Accordingly, this instruction defined the requirements for a recovery plan as “a patient-centered
plan prepared by a Recovery Team, recovering Service member, and family with medical and
non-medical goals for recovery, rehabilitation, and transition, as well as personal and
professional goals, and the identified services and resources needed to achieve the goals.”

Furthermore, the instruction identified the roles and responsibilities of a recovering Service
member’s Recovery Team. Specifically, the policy required the members of a Recovery Team to
collaborate with the Recovery Care Coordinator (RCC) and other Recovery Team members to
develop the comprehensive recovery plan; evaluate its effectiveness in meeting the recovering
Service member’s goals; and readjust as necessary to accommodate the Service member’s
changing objectives, abilities, and recovery status.

The following individuals were identified by the Wounded Warrior Regiment as key members of
a Warrior’s Recovery Team: Marine Commander, Section Leader and Platoon Sergeant,
Recovery Care Coordinator, Family Support Advocate (Family Readiness Officer/Family
Support Coordinator), Medical Case Manager (or medical representative) and Limited Duty
Coordinator. Additional members, depending upon the case under review, included: Veteran’s
Affairs and Military Services coordinators, Physical and Occupational Therapists, other medical
representatives (Primary Care Manager, Licensed Clinical Care Consultant, and Mental Health
Providers), Chaplain, and S-1 (Personnel) representative.

The Wounded Warrior Regiment identified the need for these key team members to participate in
Recovery Team meetings to ensure that all personnel involved in the recovery and transition of a
Warrior worked in the best interest of the Marine, given the Marine’s full medical and non-
medical profile. The frequency of the Recovery Team meetings depended on the battalion or
detachment location and patient load. At the meetings, the Recovery Team:

   •   discussed newly arrived Warriors;
   •   addressed, evaluated, and reevaluated crisis cases and made recommendations for action
   •   discussed high visibility cases




                                                14
A.1. Discussion
According to the WWBn-East staff, weekly meetings of the Recovery Team were instituted by a
prior Battalion Commander. One senior WWBn-East staff member lauded these meetings as a
positive step towards helping the Battalion “get their arms around” those Warriors that needed
extra attention from the Battalion.

Initially, the Recovery Team was called the “Outreach Task Force;” however, their meetings
were eventually referred to as “9-Block” meetings due in part to the Battalion’s use of a 9-block
grid 17 which was used to identify and prioritize the needs of “high risk” Marines. An example of
the 9-Block grid that was used during these meetings is shown in Figure 2.
                                             Figure 2. 9-Block Grid




When asked to explain the criteria used to identify “high risk” Warriors, a WWBn-East staff
member explained that there were no written criteria or formulas; instead it was more of a “gut
feeling” that a Warrior needed extra attention from the Battalion or Company. Consequently, the
Warrior was identified to be included on the 9-Block grid and therefore was subject to discussion
during the 9-Block meeting. The staff member added that with the new Battalion Commander,
all Battalion processes and procedures, including those associated with the 9-Block meeting,
were under review and would be formalized in written guidelines and standard operating
procedures.




17
   Description of 9-Block format: “Status of Needs” indicates varying degrees of needs (vice wants) of a Warrior or
family that cannot be satisfied without intervention (e.g. Financial aid due to hardship, legal assistance, housing and
transportation needs, child care and welfare issues, mental health intervention, among others.) “Phases of
Recovery” identify where a Warrior is at in their transition (e.g. Acute – Inpatient or outpatient with a terminal
illness; Rehabilitative – Progressed to physical therapy, or is in remission (cancer) in an outpatient setting;
Transition – assigned to a Physical Evaluation Board.



                                                          15
During our site visit, we observed a 9-Block meeting, which was chaired by the WWBn-East
Executive Officer and included representatives from all levels of the organization involved with
the recovery and transition of the Warriors at Camp Lejeune. 9-Block Representatives are listed
in Table 3.

                               Table 3. 9-Block Representatives

      Wounded Warrior                  Company Staff               Medical Representation
        Battalion - East
 Battalion Sergeant Major          Company Commanders           Medical Case Management
                                                                Advisor
 Battalion Commanding              Company First Sergeant       Licensed Clinical Consultant
 Officer and/or Battalion                                       (WWBn-East)
 Executive Officer
 Battalion Chaplain                                             Director for Business
                                                                Operations (Naval Hospital)
 Family Support Coordinator                                     Medical Case Managers (Naval
                                                                Hospital)
 Recovery Care Coordinators                                     Medical Board Clerk

The Medical Case Management Advisor (MCMA) prepared the 9-Block chart prior to the
meeting and placed the name of high risk Warriors in the appropriate block based on their phase
of recovery and level of need. Each Warrior whose name was on the grid was discussed during
the meeting to ensure that all staff members present were aware of the status of that Warrior’s
recovery and transition (e.g. pending medical appointments, and medical evaluation board
progress). Time was also spent discussing possible problems or concerns that could affect the
Marine or their family, thus adversely affecting their transition (e.g. relationship difficulties,
financial concerns, to name a few.) During these discussions, possible actions and/or solutions
were identified which would assist the Warrior and/or their family during their transition.

Participants in the meeting were knowledgeable of the individual cases, and discussions
appeared open and professional. Upon the conclusion of each discussion, there appeared to be a
clear direction as to whether any action was necessary to assist the Warrior, and who had the
responsibility for the action, whether it was someone from the Battalion, Company, Naval
Hospital or an outside organization, such as a Veterans Service Organization. The 9-Block grid
not only served as a tool to identify Warriors who needed attention, but it also identified the
recommended level of outreach and support needed from Battalion personnel as identified in
Figure 3.

Additionally, all newly arrived Warriors were automatically entered into the 9-Block grid for at
least a week, giving the Warrior time to acclimate to the Battalion, and also giving the staff time
to become familiar with the Warrior’s needs.




                                                16
                                   Figure 3. 9-Block Meeting Format




Finally, we noted during our observation of the 9-Block meeting that all participants were
extremely sensitive to Health Insurance Portability and Accountability Act (HIPAA) 18 related
concerns. A senior WWBn-East official explained that all staff had been HIPAA trained. We
also noted that the WWBn-East Executive Officer chairing the meeting provided a warning, both
at the beginning and end of the meeting, that all personal and health information discussed
during the meeting should be safeguarded and not shared with those outside of the room. All
paperwork that contained personal or health-related information was shredded upon the
conclusion of the meeting.

A.1. Conclusion
The 9-Block meeting utilized by the WWBn-East was a multidisciplinary meeting of military
leaders and health services personnel designed to discuss “high-risk” Warriors assigned to the
Battalion. During our discussions it was identified that there was no written criteria or formulas
that helped identify those “high-risk” Warriors. Use of the 9-Block grid however, allowed the
Battalion and other leaders to identify Warriors according to their phase of recovery and whether
they had significant needs that required additional interventions. Additionally, these meetings
served as a mechanism to develop and implement actions that helped to promote effective
transitions for Warriors.
Once institutionalized with written standard operating procedures, it is our opinion that WWBn-
East’s 9-Block meeting could be utilized by other Wounded Warrior units as a method to


18
  Health Insurance Portability and Accountability Act (HIPAA), is a US law designed to provide privacy standards
to protect patients’ medical records and other health information provided to health plans, doctors, hospitals and
other health care providers.



                                                        17
identify and discuss Warriors who may need extra attention and intervention, which could result
in a smoother transition back to duty or to the civilian community.

A.1. Recommendation
We recommend that the Wounded Warrior Regiment formalize throughout all Wounded Warrior
Battalions and detachments a forum such as WWBn-East’s “9-Block” meeting to ensure that
there is a clear plan among the Recovery Team members to address the needs of “high-risk”
Marines.




                                              18
A.2. Screening Requests to Visit Warriors
 WWBn – East developed a process to review and screen requests by non-military
 organizations that desired to visit Warriors. As a result, the WWBn-East reduced the
 potential for exploitation of Warriors, therefore avoiding negative consequences to morale,
 and the overall health and welfare of the Warriors.

A.2. Background
The Wounded Warrior Regiment in Quantico, VA has a Charitable Giving Office that
coordinates with a broad range of charitable groups and private individuals who provide a range
of financial and in-kind support (i.e. concerts, athletic outings, family activities, or community
based initiatives) and services to recovering Marines and their families. This office is
responsible for:

   •   Investigating donors to ensure reliability and identify non-prohibited sources
   •   Coordinating with legal officers on offers of gifts and/or donations
   •   Serving as a conduit and coordinator for many of the Regiment’s special events and
       programs

The following organizations and groups are examples of entities and/or individuals that have
been interested in providing support to Wounded Warriors:

   •   Grass root organizations (Churches, Scout organizations, companion dogs, community
       task forces)
   •   Entertainment Industry (Individual artists)
   •   Corporate America (Fortune 500 Companies, former Marines)
   •   Federal/DoD/Interagency (White House, Congress, Veterans Affairs, Labor, FBI)
   •   Professional Athletics (NASCAR, Giants, Capitals, Tiger Woods Foundation, etc.)
   •   Civic Organizations (Rotary, Veteran’s Services Organizations, Elks, etc.)

A.2. Discussion
There is a high level of public interest in offering support for Service members who are injured
in Operation Iraqi Freedom and Operation Enduring Freedom. The WWR staff encouraged
recovering Marines to take advantage of these opportunities, once they were cleared by the
Regimental Charitable Giving Office. Additionally, they believed that these activities would
provide an opportunity for recovering Marines to leave the hospital or barracks environment,
reengage with their local communities, and spend quality time with their families and fellow
Marines.

At times, organizations and/or individuals contacted WWBn-East directly with requests to visit
Wounded Warriors present at the Camp Lejeune location. In response, the command established
a procedure whereby these requests were screened to ensure that they were appropriate and did
not exploit any Marines.




                                                19
The command team explained that outside agencies sometimes do not have the best interests of
the Warriors at heart. Warriors complained about the “petting zoo” environment created when
certain non-profit agencies came to visit. Organizations would call in looking for “visibly
wounded” Marines (e.g. burn victims, amputees) to participate in their events. A few agencies
had expressed disappointment that TBI patients did not “look the part.” Therefore, the command
implemented a screening process to review outside requests and ensure that wounded Marines
would not be exploited. For example, visits by high profile individuals, members of Congress,
local businessman, and other community personnel created chaos in the barracks and a division
in the unit over visits to the barracks.

The WWBn-East Chaplain also reiterated wounded Marines’ complaints of a “petting zoo”
environment in the barracks. Many times visiting non-military organizations wanted to see a
“poster child” of a wounded Marine, and they would offer donations for selected personnel and
not the unit as a whole. The Chaplain explained that the command had to get involved to limit
these occurrences. In order to promote a positive environment, several groups had to be kept out
of the barracks.

A.2. Conclusion
The WWBn-East practice of screening requests for visits to Warriors ensured that the WW Bn-
East leaders were involved in safeguarding the Warriors from potential outside negative
influences. By screening outside requests, the WWBn-East leaders were actively and
responsibly protecting the Warriors assigned to the WWBn-East. It also appeared that the WW
Bn-East leaders were reasonable and judicious in making the decisions to support requests for
visits to the Warriors.

A.2. Recommendation
We recommend that the Wounded Warrior Regiment adopt policy similar to that established by
Wounded Warrior Battalion-East regarding screening requests for visits to Warriors by non-
military organizations to ensure consistent practices are applied at all levels.




                                               20
A.3. Activities to Positively Impact Warriors Transition
  WWBn – East provided meaningful programs of constructive activities to assist with
  Warriors’ transition. However, based on the physical location of Camp Lejeune, these
  opportunities were limited. Consequently, Warriors were limited in activities to positively
  impact their transition to civilian life.

A.3. Background
The U.S. Marine Corps defined that in campaign planning there are numerous Lines of Operation
that must function together as one harmonious whole and the Lines of Operation must be the
roads followed to meet the desired end result. As the Headquarters command for all Marine
Corps matters related to the medical care and management of Wounded Warriors, the WWR
adopted the Lines of Operation method to ensure Warriors were provided the leadership and
opportunities needed to be successful.

The goal of the Lines of Operation is to integrate the Marine’s medical recovery process with
productive and meaningful non-medical activities that strengthen the mind, body, spirit and
family. Warriors are to be guided by caring and concerned leaders who encourage, counsel, and
motivate them to establish personal and professional goals which are captured in their
Comprehensive Transition Plan and which remain focused on their ability vice their disability.
The Lines of Operation are as follows:

                                 Table 4: Lines of Operation

              Lines of Operation                                      Definition
                      Mind                          Provide activities to improve the Marine’s self-
                                                    worth, mental stability, a sense of purpose, and
                                                    clarity of mind
                      Body                          Strengthen the Marine’s body through physical
                                                    activity and nutrition to develop life-long
                                                    healthy habits
                      Spirit                        Reignite the spark within the Marine by
                                                    providing a sense of belonging, purpose, and
                                                    pride and a renewed sense of self-confidence
                     Family                         Encourage, nurture, and guide the Marine’s
                                                    family through the recovery process and beyond

A.3. Discussion
The WWBn-East offered activities to Wounded Warriors supporting the Lines of Operation
pertinent to “mind, body, spirit, and family.” The following programs were available to
Warriors:
    • Transition Center and Transition Assistance Management Program – resume preparation
       and resource counseling
    • Veterans Foundation (COMPASS) Transitioning Program – included resume building
       and life skills classes; mock interviews mentored by industrial professionals
    • One-on-one counseling with Department of the Navy Human Resources personnel –
       supported resume building, finding job opportunities


                                               21
   •   Warrior Athlete Reconditioning Program

Our interviews revealed that while Warriors appeared to be seriously engaged in the various
transition activities, some Warriors did not take full advantage of the programs available to assist
them in transition. Additionally we noted that several individuals did not believe that enough
effort was made to ensure that all Marines were engaged in structured activities that were in
support of their transition goal. For example:

   •   One RCC commented that some Marines were viewed as “Couch potatoes or lounge
       lizards.” Additionally, they believed that these Marines needed more structured activities
       to keep them busy during the day. Specifically, he suggested that it would be helpful if
       there was a database of available jobs Marines could perform on base during their stay at
       WWBn-East.

   •   Several other RCCs also commented that many Marines needed to be connected with
       internships/jobs/careers that they wanted to do. The RCCs recognized the difficulty for
       jobs in the Jacksonville community, which was why having more job opportunities on
       base would be helpful. The Marines also needed true vocational rehabilitation programs.

We were told by multiple WWBn-East staff that the battalion commander had established
“priorities of work” for wounded, ill, and injured Marines, which included: (1) medical
appointments, (2) rehabilitation, and (3) free time. Additionally, they explained that battalion
leadership did support work and school during duty hours, provided the Marine met their
medical and rehabilitation appointments.

While we agree that the Battalion’s leadership was supportive of allowing a Marine to participate
in work and/or school opportunities during duty hours, we found that this opportunity was
limited in practice. For example, one platoon leader indicated that internships were available for
Marines, however, it was up to the Marine to process the paperwork, noting it could be a long
and complicated process. Furthermore, these leaders stated the demand was greater for more
vocational opportunities, specifically internships, than were available.

Additionally, we found that the lack of meaningful transition activities may have affected the
morale of some Wounded Warriors. Specifically:

   •   One RCC mentioned that it was a difficult balance for the Battalion to keep wounded, ill,
       and injured Marines engaged without them feeling like they are being “messed with,”
       and if they sit and do nothing, they end up feeling useless and their morale further
       declines. He did comment that the Warrior Athlete Reconditioning (WAR) Program was
       a good thing. However since it was mandatory several Warriors felt they were being
       “messed with,” which created some anxiety.

   •   All RCCs cited the prolonged medical evaluation board (MEB) and integrated disability
       evaluation system (IDES) process, stating that” idle hands” and lack of knowing when
       the Marine would separate negatively affected the entire transition experience. He




                                                22
       further remarked that the battalion had to work to “keep them engaged” while they were
       waiting for results of the medical board.

   •   During separate interviews with the RCCs, they stated that the barracks was a “sad place
       to be,” and that Marines, specifically junior Marines, did not know how to handle their
       “down time,” had low morale, and that they did not feel they were “part of a team” when
       assigned to the WWBn-East.

Battalion support staff explained that the Regimental commander was very focused on
“transition,” noting that he wanted Marines to look to the future and to identify appropriate goals
that would help them get where they wanted to go. Additionally, the Commander felt that it was
the battalion’s responsibility to assist the Marine in working towards their individual goals.

Battalion staff were encouraged by the Battalion commander’s personal involvement in the
review and approval of a Wounded Warrior’s 18 month transition plan. The staff explained that
the transition plan was mandatory for Marines and consisted of not only the CTP, but an 18-
month financial plan, a resume and three main goals. The 18-month financial plan was focused
on the 18 months after separation, and according to the platoon leaders must be “solid” prior to
going to the battalion commander for approval.

Furthermore, they identified the benefit of the Transition Center serving as a resource to help
coordinate job fairs, assisting with resume writing classes, and employment opportunities for
transitioning Marines.

We acknowledge that identifying and implementing beneficial Warrior activities that promote an
effective transition to civilian life is challenging. However, we believe that all Warriors need to
be engaged in constructive educational and career training activities to effectively use their time
and assist in preparation to make a successful transition to civilian life.

A.3. Conclusion
The leadership at WWBn-East was supportive of activities that positively impacted Warrior
Transitions, however, given the constraints of Camp Lejeune’s isolated geographical location,
there were limitations in availability of meaningful programs. Warriors should be provided with
meaningful activities including internships/clerkships, and educational opportunities suited to the
individual needs of each Warrior, that will positively impact their transition from recovery
through rehabilitation to community reintegration. For amplifying remarks by Warriors
concerning this section, refer to Part III, Warrior Speak.

A.3. Recommendation
We recommend that the Commander, Wounded Warrior Battalion-East ensure each Warrior has
a comprehensive program of constructive education and career training, tailored to individual
Warriors’ needs and plans, in order to facilitate Warrior recovery and transition.




                                                23
Observation B. Noteworthy Practices for the
Naval Hospital Camp Lejeune
Naval Hospital Camp Lejeune leadership instituted four initiatives that we believe to be
noteworthy practices. They are:
       B.1. Equal Access to Care
       B.2. Primary Care Manager Dedicated to the Battalion
       B.3. Assignment of Warriors to Medical Case Managers
       B.4. Co-location of Substance Abuse Rehabilitation Program (SARP) with Mental Health
            Resources
We observed these four initiatives implemented at the Naval Hospital and believe that they as
discussed below, have already been beneficial and will continue to progressively improve and
enhance the recovery process for Marines to enable a transition from the Camp Lejeune
Battalion.
These noteworthy practices may be applicable for utilization at other U.S. Marine Corps
Wounded Warrior locations and should be considered for prompt implementation. We plan to
identify other noteworthy practices in a summary report after all field assessments are completed
that the Services should consider for implementation throughout all of the Wounded Warrior
units in the military, as appropriate.




                                               24
B.1. Equal Access to Care
 Warriors and support staff did not note any difference in access to medical care for Active
 Duty and Reservists. As a result, we found no indication that medical care delivery was
 provided unequally between Active Duty and Reserve Wounded Warriors.

B.1. Background
In May 2010, United States Senator Ron Wyden and Congressman Kurt Schrader contacted the
Inspector General, Department of Defense concerning medical treatment entitlements available
to the returning soldiers of the Oregon National Guard. They requested that we investigate this
issue as well as the medical treatment entitlements for all Guard and Reserve soldiers at all
Warrior Transition Units and mobilization and demobilization sites.

B.1. Discussion
At the time of our site visit to the WWBn-East at Camp Lejeune, there were 194 Active Duty
Marines assigned or attached, with no activated Marine Corps Reservists assigned or attached.
Between April 2007 and the end of our site visit, there have been a total of 10 Reservists that
have transitioned through the WWBn-East.

While there were no reservists interviewed during our visit, several Warriors that we interviewed
commented that they were unaware that Reservists were even assigned to the WWBn-East as
patients. This suggests that from the perspective of the Warriors, there was no differentiation
between Active Duty and Reserve, and as one Warrior stated, their access to care is “absolutely
equal.” The data to completely prove or disprove this concern were not available from Naval
Hospital Camp Lejeune and WWBn-East, but the lack of perception of such inequity by the
service members themselves is a strong indicator that this was not an issue.

During several individual Warrior interviews, one Warrior stated “he hasn’t noticed any
difference; he really can’t tell the difference between reservists and active duty, though, unless
you ask them.” Another Warrior commented that “he couldn’t tell who’s reserve and who’s
active duty anyway.” A different Warrior stated that “if you are in Wounded Warriors you
should be treated the same as all others.”

During a family interview session, when asked if they felt there were any differences in access to
medical care, the family member noted that they did not see any difference in care that was
provided to combat injured versus non-combat injured Marines.

Finally, a group of Recovery Care Coordinators (RCCs) interviewed stated that there were no
perceived differences in the care and treatment of personnel assigned to the WWBn-East. They
noted that combat wounded, ill and injured were treated the same as non-combat wounded, ill
and injured, or injured personnel and the RCCs felt that this is the way it should be since they are
all Marines who require medical care and transition assistance with their new lives outside of the
Marine Corps.




                                                 25
B.1. Conclusion
Overall, the Warriors that we interviewed stated that they received equitable access to medical
care for the condition(s) that required their assignment or attachment to the WWBn-East. We
believe that ongoing assessment of patient satisfaction metrics remains a qualifier to determining
any change in the overall quality of care delivery for active duty versus reservists throughout the
healthcare system.

B.1. Recommendation
We recognize equal access to care as a noteworthy practice that has already improved and will
continue to improve and enhance the recovery process for Marines as they heal, recover, and
transition.




                                                26
B.2. Primary Care Manager Dedicated to the Battalion
     Naval Hospital Camp Lejeune, identified a single healthcare provider as the Primary Care
     Manager for all Warriors attached to the WWBn-East. As a result, Warriors were able to
     establish a relationship with one healthcare provider who may have helped to improve
     continuity of care and access to specialty care.

B.2. Background
A primary care manager (PCM) is either a military or civilian health care provider (e.g.
physician, physician’s assistant, or nurse practitioner) who is the medical point of contact and
healthcare advocate for the Warrior. They provide primary oversight and continuity of
healthcare and are to ensure the level of care provided is of the highest quality. They are the
gateway to all specialty care (such as behavioral health specialists or orthopedic surgeons) and
they coordinate with other physicians to ensure that the Warriors are getting the treatment that
they need.

Continuity of care is a process by which the Warrior (patient) and physician are cooperatively
involved in ongoing health care management toward the goal of high quality, cost-effective
medical care. The Assistant Secretary of Defense (Health Affairs) “Policy Memorandum
Implementation of the ‘Patient-Centered Medical Home’ Model of Primary Care in MTFs,”
September 18, 2009, is an established model of primary care that improves continuity of care and
enhances access through patient-centered care and effective patient-provider communication.

One of the core principles of this model is that a patient has a consistent relationship with their
health care provider, who delivers first contact, continuous, and comprehensive care.

B.2. Discussion
Wounded Warriors attached to WWB-East who receive their medical care at Naval Hospital
Camp Lejeune were enrolled with a single individual health care provider who was responsible
for their primary care. This provider, also referred to as a Warrior’s PCM, was an Internal
Medicine Physician, 19 a retired Naval officer with several years of experience in caring for and
treating Marines with war-related illnesses and injuries at Camp Lejeune.

The Commander, Naval Hospital Camp Lejeune briefed that recently they had dedicated a PCM
for the WWBn-East Warriors, and that it was working out well because the case managers have a
single “funnel” for information, instead of having to call multiple providers and specialty
providers working with each Warrior.

The PCM mentioned that in addition to his time in the battalion he also spent time fostering an
interdisciplinary approach with other providers (e.g. mental health, pain management, and
specialists such as neurology and orthopedics).



19
  Doctors of internal medicine focus on adult medicine and have had specialty study and training focusing on
prevention and treatment of adult diseases.



                                                        27
During our interview with the Medical Case Managers (MCMs) they indicated that having the
PCM in the battalion had made a big difference in access to primary and specialty care.

Another WWBn-East senior official noted that having a dedicated PCM resulted in a positive
change for the unit, and that the PCM had “done wonders at cleaning up the over-medicated
Marines.”

B.2. Conclusion
The implementation of a dedicated physician serving as the Warriors PCM provided medical
continuity of care for Warriors. This practice streamlined support for the Warriors’ recovery and
served as a single point of reference for additional support to the Warriors and the battalion.
This practice also ensured comprehensive oversight of medications prescribed to Warriors from
all medical provider sources, thus potentially mitigating the risk of overmedication.

B.2. Recommendation
We recommend that the Wounded Warrior Regiment and Department of the Navy Bureau of
Medicine and Surgery work together to ensure that there are dedicated primary care managers
throughout all Marine Wounded Warrior sites to ensure primary care oversight, continuity and
comprehensive medical care to the Warriors as they continue to recover, rehabilitate and
transition.




                                               28
B.3. Assignment of Warriors to Medical Case Managers
     The Naval Hospital Camp Lejeune’s lead MCM for Warriors at WWBn – East assessed each
     Warrior upon arrival and assigned individual Warriors to a specific MCM and platoon. As a
     result, the most capable MCMs were assigned to facilitate each Warrior’s medical and
     transition needs.

B.3. Background
Case Management is a collaborative process which assesses, plans, implements, coordinates,
monitors, and evaluates options and services to meet complex health care needs through
communication and available resources to promote quality, cost effective outcomes.

The Navy does not have a standard fixed ratio that it uses to determine the number of patients per
assigned case manager. However, the Department of the Navy Bureau of Medicine Instruction
6300.17, “Navy Medicine Clinical Case Management,” November 23, 2009, followed the DoD
TRICARE Medical Management Guide recommendations that the caseload for case managers
ranges from 10 to 50 patients per case manager depending on acuity. Acuity levels are described
in the ASD(HA) Directive Type Memorandum 08-033, “Interim Guidance for Clinical Case
Management for the Wounded, Ill, and Injured Service Member in the Military Health System,”
August 26, 2009. Specifically, the acuity is based on the number of interventions that a case
manager may be required to perform and the frequency of follow-up with the patient. Possible
interventions include activities such as medication counseling, arranging for durable medical
equipment, 20 and communicating with and educating family members, among others.

B.3. Discussion
The Naval Hospital lead case manager used a deliberate process to assign an incoming Warrior
to a specific case manager. Specifically she considered the experience and skill set of the case
manager and the possible needs of the Warrior.

The experience level of the five MCMs identified to manage Warriors’ care ranged anywhere
from 2 to 10 years. Some had nurse case management experience while others were Intensive
Care, or Emergency Services/Trauma nurses; several had experience working for private and
contract healthcare agencies and Medicare/Medicaid. A large number of MCMs had military
experience or exposure to the military culture.




20
  Durable Medical Equipment is reusable medical equipment that must be ordered by a doctor, a nurse practitioner,
physician’s assistant, or clinical nurse specialties to be used by individuals in their home. This equipment must be
required to improve the quality of life or be a medical necessity for home use. Examples include: wheelchairs,
oxygen equipment, crutches, hospital beds, patient lifts, power scooters and nebulizers.



                                                         29
Training included completion of case management core competencies to determine competency
and critical thinking levels; training in Armed Forces Health Longitudinal Technology
Application (AHLTA); 21and Composite Health Care System (CHCS); 22 and attending in-
services 23 and/or conferences for specific topics such as TBI and PTSD. In addition, all MCMs
completed the Military Health System online training modules and attended a 2-week DoD
orientation specific to Wounded Warrior care and transition. Furthermore, some MCMs were
assigned to support specific areas such as medical evacuation, 24 medical evaluation board 25
process, orthopedics, TBI services and Mental Health. The MCMs also had the authority to
initiate referrals, which aided the provider staff.

During two different group interviews with the MCMs, they explained that each Marine was
screened by the Case Management Division Officer before being assigned to the appropriate
MCM, and that the Lead MCM determined which MCM was assigned the next incoming
Marine. One MCM added that the assignment process was based on Warrior acuity and skill
mix of the MCM, as well as the platoon to which they were assigned.

Additionally, during our interviews with the platoon leaders, several commented that
effectiveness of communications had greatly increased since assignment of MCMs to the
Platoons. One platoon leader stated that having the MCMs make the decision where the Marine
would be assigned based on acuity and risk was a good practice. Furthermore, the platoon leader
explained that he met weekly with the MCM prior to the 9-Block meetings to review one
hundred percent of the assigned Wounded Warrior Marines.

Finally, the MCM advisor and licensed clinical consultant both commented that they had
observed and experienced improved communications among leadership and support staff by
assigning the MCMs with the Platoon in the battalion. As a result, they were exploring the
options of assigning RCCs to the Platoons to be better advocates for the Warriors.




21
   Armed Forces Health Longitudinal Technology Application (AHLTA) is the clinical information system that
generates and maintains a lifelong, computer-based outpatient record for every Soldier, Sailor, Airman, and Marine;
their family members; and others entitled to DoD military care who receives care in a military treatment facility.
22
   Composite Health Care System (CHCS) is DoD’s initial health record system, now used primarily for ordering
laboratory tests, retrieving lab results, authorizing radiology procedures, prescribing medications and scheduling
appointments.
23
   In-services are geared towards enriching knowledge, building on skill-set, and keeping abreast with clinical
research and medical practices. Programs are done through self-study, group-study, class room and one-to-one.
24
   Medical evacuation is defined as to transport a patient to a place where medical care is available.
25
   The medical evaluation board (MEB) is part of the disability screening process; on the basis of medical
examinations and the service member’s medical records, an MEB identifies and documents any conditions that may
limit a service member’s ability to serve in the military



                                                        30
B.3. Conclusion
The decision to assign a newly arrived Warrior to a specific MCM helped to facilitate the
Warrior’s treatment, recovery and transition. Additionally, by assigning MCMs with specific
platoons resulted in improved overall communication among support staff and Warriors, unity of
effort and continuity of care which is crucial to supporting individual Warrior needs for healing
and transition.

B.3. Recommendation
We recommend that the Commander, Wounded Warrior Regiment formalize throughout all
Wounded Warrior Battalions and detachments processes for assigning Medical Case Managers
to Platoons as a method to improve continuity of care and enhance communication in supporting
Warriors’ needs for healing and transition.




                                               31
B.4. Co-Location of Substance Abuse Rehabilitation Program
with Mental Health Support from the Deployment Wellness
Center
 Mental Health practitioners from the Deployment Wellness Center were co-located with the
 Substance Abuse Rehabilitation Program where Warriors received evaluation and treatment
 for substance abuse-related conditions. As a result, mental health support was readily
 accessible to support substance abuse counselors and enhance Warrior recovery.
 Furthermore, the accessibility of the mental health providers potentially helped reduce fear
 and apprehension among Warriors in need of mental health services.

B.4. Background
As a DoD and Navy Medicine mandated program, the Deployment Health Center supported
commanders and their medical assets/components with medical screening to identify any
emerging medical or mental health concerns due to post-deployment. Physical and
psychological health screening must be completed on all military service members within 30
days of return from deployment, then between 90 and 180 days of returning to identify any need
for mental health evaluation and treatment. All returning Warriors were required to complete the
screening form prior to scheduling an appointment with a Deployment Wellness Center provider.

The primary objectives of the Substance Abuse Rehabilitation Program (SARP) were to promote
readiness, health, and wellness through the prevention and treatment of substance abuse; to
prevent the negative consequences of substance abuse to the individual, family, and organization;
to provide comprehensive education and treatment to individuals who experience problems
attributed to substance abuse; and to return identified substance abusers to unrestricted duty
status or assist them in their transition to civilian life, as appropriate. The program also provides
an eight day program designed for patients diagnosed with alcohol abuse and a three-week
program for patients diagnosed with alcohol dependence, residential treatment and continuing
care services for all active duty personnel.

B.4. Discussion
U.S. Service members may be reluctant to seek medical assistance for mental health conditions,
due in part to the perceived negative stigma associated with receiving mental health services. A
Defense Department study looking at combat troops returning from Iraq found that Soldiers and
Marines who needed counseling the most were least likely to seek it, as many as sixteen percent
of the troops questioned admitted to symptoms of severe depression, Post Combat Stress
Disorder and other problems. Of those, six out of ten believed their leaders would treat them
differently and that fellow troops would lose confidence in them. As many as sixty-five percent
said they would “be seen as weak.”

Naval Hospital Camp Lejeune has made a conscious effort to ensure that mental health services
are available in an unobtrusive way. Specifically, they have mental health providers that are
available in the Deployment Health Center where Marines complete their post-deployment
health assessments. Additionally, the hospital has embedded mental health providers in this
same building where the SARP is located.



                                                 32
A senior Naval Hospital Camp Lejeune official identified the co-location of the SARP with the
Deployment Wellness Clinic as one of their most recent successes. He acknowledged that the
setup in which SARP was physically located with mental health providers of Deployment Health
was optimal. Specifically, the benefit of having the mental health providers physically co-
located with the SARP counselors and the improved communication between the two services
had resulted in improved Warrior care.

For example, each mental health provider in the clinic was available for a one-hour crisis
intervention every day, and if a Warrior participating in the SARP was determined to need
mental health services, a mental health provider would be immediately available.

Finally, the official explained that the physical set-up of the clinic helped to mitigate a perceived
negative stigma of individuals seeking mental health support. If SARP counselors identified a
Warrior’s need for mental health services, the Warrior could simply shift to another provider
within close proximity for those services without others outside the building knowing where they
were. The official further explained this would not be accomplished if mental health support was
located in another building, especially, if that clinic was labeled “Mental Health Clinic.”

B.4. Conclusion
The co-location of mental health services and SARP in the Deployment Wellness Center was
reported as a positive change for the mental health care provider staff and Warriors they support.
By sharing mental health care services and substance abuse counseling resources, co-location has
enhanced the healing and recovery of Warriors needing mental health care support.

B.4. Recommendation
We recommend that the Navy Bureau of Medicine and Surgery consider the co-location of
mental health providers and Substance Abuse Rehabilitation Program units as a preferred
practice and develop policy to establish this practice in other Naval facilities supporting
Wounded Warrior units.




                                                 33
This Page Intentionally Left Blank




               34
Part II - Challenges




         35
This Page Intentionally Left Blank




               36
Observation C. Challenges for the Wounded
Warrior Battalion - East
We identified three challenges that should be addressed by the Battalion’s leadership and staff to
help ensure the most successful and effective support for the care, healing, and transition of
Wounded, Ill and Injured Marines. These challenges are identified as follows:
       C.1. Warrior’s Comprehensive Transition Plans
       C.2. Staff Training in Support of Warrior’s Recovery and Transition
       C.3. Abuse of Illegal Drugs and Prescribed Medications
We believe that addressing these challenges will increase the effectiveness of the WWBn-East
leadership and staff in providing quality and timely care and services that facilitate Warrior
recovery and transition.




                                                37
C.1. Warriors’ Comprehensive Transition Plans
  Warriors did not appear to have ownership of their Comprehensive Transition Plan (CTP) as
  a tool to help them identify their individual goals and actions needed to guide them as they
  transition from recovery and rehabilitation to community reintegration. Consequently,
  Warriors may have been at risk of not accessing the full benefits of tools and resources
  available to help them fulfill their transition goals.

C.1. Background
Department of Defense Instruction 1300.24, “Recovery Coordination Program,” December 1,
2009, established policy, assigned responsibilities, and prescribed uniform guidelines,
procedures, and standards for improvements to the care, management, and transition of
recovering service members (RSM) across the Military Departments.

This instruction defined a recovery plan as “a patient-centered plan prepared by a [recovery
team, recovering Service member], and family or designated caregiver with medical and non-
medical goals for recovery, rehabilitation, and transition, as well as personal and professional
goals, and the identified services and resources needed to achieve the goals.”

Furthermore, the instruction identified the roles and responsibilities of a recovering Service
member’s Recovery Team. Specifically, the policy requires the members of a Recovery Team
to:
    • Collaborate with the Recovery Care Coordinator (RCC) and other Recovery Team
       members to develop the comprehensive recovery plan, evaluate its effectiveness in
       meeting the recovering Service member’s goals, and readjust it as necessary to
       accommodate the Service member’s changing objectives, abilities, and recovery status.

The United States Marine Corps Wounded Warrior Regiment Handbook, December 2010,
described the Marine Corps’ Recovery Coordination Program as a program to help recovering
Marines and their families as they transitioned through the various phases of recovery. RCCs are
identified as a fundamental component of the program who along with Section Leaders, define
the Warrior’s individual goals for recovery, rehabilitation and reintegration and identify the
services and resources needed to achieve these goals.

The CTP was the tool used by RCCs to coordinate a Warrior’s and their family’s care. The CTP
was based upon information from the Warrior’s recovery needs assessment, which was
developed with the help of the RCC taking into consideration various components such as
employment, housing, financing, counseling, family support, the disability evaluation process,
among others. The WWR described the CTP as “owned by the Marine” and reflected their
medical and non-medical goals and milestones from recovery and rehabilitation to community
integration. In further clarification, the Regiment referred to the CTP as a “life map” for the
recovering Marine.




                                                38
C.1. Discussion
The CTP was designed to provide “one stop shopping” whereby a Marine could find resources to
meet their immediate and most apparent needs. It was also designed to establish individual
goals, or a desired end-state. In doing so, the CTP notified the various programs available to the
Marine so that the Marine can utilize them to strengthen mind, body, spirit and family. The
RCCs were responsible for the oversight of the CTP and viewed it as a living document that
changed as the goals and needs of the Warrior changed.

Our interviews with Warriors and with Battalion support staff revealed that there was very little
understanding of and support for the CTP. Specifically, when we asked Warriors about their
CTP and their involvement with preparing and updating their Recovery Plan, they stated that
they had not heard of the term “CTP” or “Comprehensive Transition Plan,” and did not know to
what it referred to.

Upon further questioning, Warriors did not associate the term “CTP” or “Comprehensive
Transition Plan” with the Battalion’s efforts to facilitate transition. However, when specifically
asked about goals and future transition plans, the Warriors acknowledged that their RCCs had
guided them through a process of identifying their goals and job interests and opportunities for
transition, as well as provided assistance in working through their 18-month financial plan. The
transition plan was mandatory for Marines and consisted of not only the CTP, but an 18-month
financial plan, a resume and three main goals (as previously discussed in A.3., Activities to
Positively Impact Warriors Transition). The 18-month financial plan was primarily focused on
the 18 months after separation. One Warrior commented about the 18-month financial plan, “it
was a real eye-opener” when he listed his finances/expenses on paper, it looked much different
than the picture he had in his mind.

Our interviews with Platoon Leaders reveal that they did not have an understanding of the CTP,
nor were they specifically involved with helping the Warrior with their CTP. In fact, similar to
Warriors, several Platoon Leaders did not recognize the term “CTP” or “Comprehensive
Transition Plan.” Instead, several platoon leaders thought we were referring to the 18-month
financial plan, which they acknowledged was a valuable tool for both Warriors and their
families.

WWR regulations specify that the RCC has responsibility to assist Warriors in the development
of their CTP. Our interviews with RCCs at WWBn-East identified challenges and detractors as
they worked with the CTP tool. Specifically, the RCCs believed there was more emphasis in the
Battalion on completing the CTP than focusing on the content of the plan.
For example, the RCCs generally stated that the CTP was “a joke,” and that it was “too much
administrative work.” They also viewed the CTP as an “after-action document” rather than a
living plan that drove Warrior transitions forward, which of course made it less useful.




                                                39
C.1. Conclusion
The CTP had recently been implemented within the WWBn-East and was being utilized by the
RCCs as required by WWR regulations. However, the majority of Warriors did not associate the
name of the CTP with the ongoing work that the RCCs had done to guide them through the
process of identifying their goals and job interests as part of their personal recovery and
transition plan. Additionally, the Platoon Leaders were not committed to, or engaged in, the
CTP process.

The Warriors did not themselves appear to have ownership for, or engagement with their CTP.
Rather RCCs seemed to be the ones filling them out for the Warrior. As a result, Warriors did
not fully understand the relationship between the CTP and their recovery goals and how this plan
could affect their transition. For amplifying remarks by Warriors concerning this section, refer
to part III, Warriors Speak.

C.1. Recommendation, Management Comments, and Our Response
C.1. We recommend that the Commander, Wounded Warrior Battalion-East develop
procedures and training for Warriors to ensure that they are active participants in the
development of their Comprehensive Transition Plan, and that it is individually tailored
and effective in fulfilling their transition goals.

Wounded Warrior Battalion-East Comments
The Commanding Officer, Wounded Warrior Battalion-East concurred with comment to our
recommendation. The Commanding Officer explained that process changes have been put into
place to improve usage and awareness of the Comprehensive Transition Plan (CTP), now
referred to as the Comprehensive Recovery Plan (CRP). The Commanding Officer reported that,
as of December 2011, the United States Marine Corps Recovery Care Coordinator Program was
the first service program to have fully implemented the Recovery Coordination Program Support
Solution (RCP-SS). The RCP-SS is a technology tool that houses the CRP, and provides a
standard CRP across the Wounded Warrior Regiment and allows a CRP to be easily transferred
from one Recovery Care Coordinator (RCC) to another. Additionally, since April 2011, the
RCC Program has implemented a robust training program to provide RCCs with the tools they
need to properly document a Marine’s needs, goals, and required actions in the CRP. The CRP
is written in the Marine’s own words encouraging buy-in and follow-through. The RCCs,
Section Leaders, and Wounded Warrior Battalion transition staff work closely to ensure that
Marine’s goals are realized and that efforts are coordinated. Furthermore, the Commanding
Officer stated that since August 2011, the RCC Program has implemented a quality assurance
program to ensure consistent CRP development and documentation.

Our Response
The Commanding Officer’s comments are responsive and the actions meet the intent of the
recommendation. No further action is required.




                                              40
C.2. Staff Training in Support of Warrior’s Recovery and
Transition
  WWBn-East personnel involved in the medical care and management of Wounded Warriors
  desired additional medical training about topics such as PTSD, TBI, and the medical board
  process, among others. Without this training, personnel working with Wounded Warriors
  were at risk of not having the requisite knowledge to effectively assist the Warriors to heal
  and transition.

C.2. Background
Those responsible for the medical care and management of Wounded Warriors were required to
attend training specific to understanding the Warrior’s recovery and transition process.
According to the Department of Defense Instruction, 1300.24, “Recovery Coordination Program
(RCP),” December 1, 2009, all recovery team members (RCC, MCM, PCMs) shall complete
military department –specific training prior to independently assuming the duties of their
positions, and comply with continuing education requirements.

The Instruction specified that as part of the RCCs responsibilities, they shall complete uniform
core training conducted by Wounded Warrior Care and Transition Policy, and also Military
Department-specific training conducted by the responsible Wounded Warrior program prior to
assuming the duties of their positions.

C.2. Discussion
Training of the recovery team members involved in the medical care and management of
Warriors was critical to the transition process. Recovery team members were integral in moving
the Warrior forward in their transition. To do so, it was essential that they received education
and training beyond the minimum mandatory training to understand their job. They needed
additional training so that they could better understand the medical factors potentially impeding a
Warrior’s transition progress, and the resources that could be mobilized to address them.

Our interviews with Battalion RCC support staff identified several opportunities for
improvement in its training program for them. Specifically, RCCs described the following:

   •   RCCs training consisted of DoD-level training and Marine Corps-specific training upon
       assuming their respective duties. They expressed that the 12-day training was generally
       adequate. The first week focused primarily on service related topics, to include VA,
       Department of Labor and sexual assault training; while the second week was more RCC-
       specific. However, they believed the training would have been more helpful after they
       had been in the position for a month or two.

   •   Quarterly update training on programs and resources available to Wounded Warriors
       would also be helpful. RCCs noted that relevant information pertaining to Warrior
       recovery and transition was constantly changing and having an update as to what was
       currently available would help them.




                                                41
   •   Another focus area for training was situational training and role playing to help prepare
       for dealing with Wounded Warriors’ medical issues, specifically PTSD and TBI. They
       also acknowledged that initial training was geared to combat wounded. However, since
       they have a high percentage of non-combat wounded medical issues, such as how to deal
       with cancer patients, motorcycle accidents, and other injuries, it would also be beneficial
       to better understand how to facilitate their recoveries.

Platoon leaders interviewed did not indicate they had received any specific training to help them
in their positions as platoon leaders, other than military leadership classes such as the Sergeants’
course. However, they identified their desire to have a formalized training program that would
include the following topics, among others:

   •   Wounded Warrior Transition Process
   •   Medical Evaluation Board Process
   •   PTSD and TBI and how to deal with Wounded Warriors with these conditions
   •   Suicide Awareness and Prevention Training

One platoon leader who had previously been deployed said he had attended “Back on Track,” a
program to help with his own post-traumatic stress. This 2-week program was designed for
Marines who may be experiencing deployment-related Post Traumatic Stress symptoms
(depression, anxiety, and disassociation). The program used group therapy to cover topics such
as post-traumatic stress education, anger management, sleep hygiene, nutrition, physical fitness,
stress management, spirituality, grief and loss, problem solving, and family relationships. This
platoon leader believed that the course had helped him to deal more effectively with the
challenges of managing Wounded Warriors.

In general, RCCs interviewed indicated that all recovery team members could benefit by having
more training on PTSD and TBI. In addition, all unit leaders needed “compassion training” to
develop an awareness and understanding that Wounded Warrior medical conditions could result
in unusual behavior than that otherwise expected from a Marine in a regular unit, especially for
those Marines with PTSD or TBI issues. The RCCs said that leader sensitivity training could
assist platoon leaders when dealing with anger issues, and also to help them understand
differences in requirements for those Marines who are transitioning versus those intending to
remain on Active Duty.

Additionally, the RCCs identified the need for additional training on the MEB/PEB process,
noting that Marines spend about 90 percent of their time maneuvering through the system, and
understanding the process would enable them to better assist their Wounded Warriors.

Furthermore, several RCCs expressed concern that the staff did not understand the RCC role, and
that often they were not treated with professional courtesy by regiment and battalion staff. They
believed that training on RCC roles and responsibilities could help these staff work with RCCs
more effectively.




                                                 42
C.2. Conclusion
Incorporating a comprehensive initial training and orientation program, as well as ongoing
education and training opportunities would ensure that Recovery Team members were prepared
to handle the challenges of supporting the care and recovery of Wounded Warriors. Recovery
Team members conveyed their belief that they needed additional training opportunities for
detecting, managing, and coordinating the complex issues associated with Warrior transition.
By having these additional skills the Recovery Team members believed they would be better
prepared to assist the Warriors and their families.

C.2. Recommendation, Management Comments, and Our Response
C.2. We recommend that the Commander, Wounded Warrior Battalion-East develop a
comprehensive training and orientation program, to include roles and responsibilities of
recovery team members, and ongoing educational training opportunities to ensure that
recovery team members are prepared to deal with the challenges of helping Wounded
Warriors heal, recover and transition either back to active duty or return to civilian life.

Wounded Warrior Battalion-East Comments
The Commanding Officer, Wounded Warrior Battalion-East concurred with comment to our
recommendation. The Commanding Officer explained that over the past 18 months, they have
created and implemented a robust training program for all military and civilian staff. Mandatory
training includes, but is not limited to, medication safety, teamwork, leadership, conflict
resolution, substance abuse rehabilitation; elective courses offered by the Wounded Warrior
Battalion-East Licensed Clinical Consultant on Compassion Fatigue, Survivor’s Guilt, Stress
Management, Behavioral Health Emergencies, PTSD, and TBI. Other training opportunities
included stress management classes to address caregiver burnout. He further explained that the
Wounded Warrior Regiment recently implemented computer-based training courses which were
required for military and civilian staff members. Computer-based training ranged from
Compensation and Benefits, Special Compensation for Assistance with Activities of Daily
Living, Integrated Disability Evaluation System, Group Life Insurance, Veterans Support
Organizations, to Identifying Signs and Symptoms of Suicide, and Intervening in Suicidal Crisis.
Additionally, special staff members were able to attend training specific to their respective
positions.

Our Response
The Commanding Officer’s comments are responsive and the actions meet the intent of the
recommendation. No further action is required.




                                              43
C.3. Abuse of Illegal Drugs and Prescribed Medications
     Incidence of both prescription and illegal drug abuse, which were viewed as problematic by
     leadership, were identified within the WWBn – East. As a result, inadequate order and
     discipline and risks to physical health and safety may have negatively impacted the
     Warriors’ recovery and prolonged their transition time.

C.3. Background
The WWBn-East Battalion Order 6000.1, “Procedures for Medication Inventory Control and
Assignment to the Prescription Risk Program,” October 19, 2009 states that “the majority of
Marines who were attached to WWBn-East were required to maintain significant amounts of
both controlled substances and over-the-counter medications for the treatment of their medical
conditions. Once the prescription medications were received, it was the Marine’s responsibility
to maintain proper accountability and to take medications as directed.”

Additionally, the Battalion Order outlines policies and procedures to follow to assist the
Battalion staff in “supervising proper medication accountability and dosage taking of each
individual Marine.”

WWBn-East Battalion Commander’s intent was as follows: “The purpose of the medication
inventory control program was to ensure that all Marines and Sailors are maintaining proper
medication accountability and dosages per their prescription instructions. As the Marines and
Sailors of Wounded Warrior Battalion-East make their transition back to the fleet or civilian life,
they must continue to be self-sufficient and responsible for their own medication. The intent of
this program was to create a structured individual medication inventory process that provided a
tool for more effective supervision and accountability of medication use. The end state was a
patient population that was correctly medicated and educated on maintaining their own personal
medication accountability.” 26

C.3. Discussion
During our briefings and interviews we were made aware that drug abuse in the barracks was a
problem. Specifically, Battalion leaders were concerned about the misuse and/or abuse of
prescription medications that were in the possession of Wounded Warriors. Additionally, they
were concerned with the prevalence of illegal drugs which were available in the civilian towns
surrounding Camp Lejeune, and that Wounded Warriors were vulnerable to exploitation by local
illegal drug traffickers.

The Battalion Commander said he made “combating drug abuse his number one priority.” He
did not believe that all Wounded Warriors were abusing drugs. On the contrary, he thought that
out of 400 Marines in the Battalion, only 10 had drug abuse issues. However, the Commander
said that this compromised population was vulnerable to exploitation if left unguarded.
Additionally, he asserted that he had an obligation to “protect Marines from drug dealers.” He


26
 Wounded Warrior Battalion-East Battalion Order 6000.1, “Procedures for Medication Inventory Control and
Assignment to the Prescription Risk Program,” October 19, 2009.



                                                     44
had initiated a “very aggressive urinalysis program as well as worked with the Battalion
Surgeon, to assist Marines in dealing with pain management issues to prevent prescription or
illegal drug abuse and addiction.”

Battalion staff and medical support staff acknowledged that efforts were needed to help control
the potential for Wounded Warriors to misuse their prescription medications and/or illegal drugs.
Specifically:

     • A senior Marine official stated that they have had problems with illegal drug use in the
       barracks and had put in place random drug testing. This official noted that they were
       working with local authorities on five cocaine cases, among others. Any positive drug
       tests that indicated illegal use of drugs were usually handled through the Uniform Code
       of Military Justice process, including Non-Judicial Punishment. 27 Additionally, he
       mentioned that they had requested Electronic Medication Management System
       (EMMA) 28 units (also see D.4) to help control the quantities of prescribed medications
       that are available to a Marine at any one time. However, as of the time of our visit, the
       Battalion was having difficulty getting the required approval to use this system.
     • A senior Battalion support staff member commented that the battalion had shifted to
       conducting more aggressive drug screening to identify those Warriors who had abused
       prescription and/or illegal drugs. He believed this had led to the apprehension of a
       specific drug dealer in town. Those Warriors caught abusing drugs were now provided
       counseling and treatment, where in the past this may not have been the case. Warriors
       were still held accountable and received disciplinary action by battalion leadership, but
       he believed these changes had helped ensure that “this vulnerable population was not
       taken advantage of by drug dealers” in the community.
Other challenges related to potential medication and drug-related issues identified during our
interviews were for example:
     • During the barracks tour, a senior Marine official acknowledged that some Marines were
       addicted to their pain medications, and others had “abused illicit drugs.” He further
       explained that the “command understood and often was lenient on first time offenders
       who abuse prescription drugs.” However, some Warriors used their injuries or
       conditions as a “shield” to justify recreational drug use and attempted to exploit USMC
       sensitivity to Warriors in order to use and sell illicit drugs (e.g. marijuana, cocaine,
       heroin, and crystal methamphetamine).




27
   The Uniform Code of Military Justice is the statutory code of military criminal law applicable to all U.S. military
members worldwide. Non-Judicial Punishment is known by different terms among the services, such as “Article
15,” “Office Hours,” or “Captain’s Mast,” but the purpose of NJP is to discipline servicemembers for minor offenses
such as, reporting late for duty, petty theft, and sleeping on watch.
28
   The EMMA system is a computerized medication dispenser for either inpatient or outpatient use. The system is
programmed by the patient’s healthcare provider and can dispense individual doses of 10 different drugs for up to a
month’s supply. Prescriptions and refills are prepared in blister cards dispensed by a pharmacy to the patient; the
cards are then loaded into the dispenser.



                                                         45
     • Several battalion leaders expressed that there was no real check between civilian and
       military medical providers of medications. As a result, Marines could and did duplicate
       prescriptions in excessively large quantities because the two systems were not
       reconciled. However, they explained that the battalion had implemented medication
       reconciliation 29 in order to get control over the quantities of medications provided for
       Marines.

     • Regarding disciplinary actions, the leaders acknowledged that they try to begin with
       informal resolution for infractions then gradually increased the severity/formality of the
       consequences.

     • During our interview with platoon leaders, one leader expressed concern that the
       Command allowed Combat Wounded/Purple Heart recipients to “get away with anything
       just short of murder”… although he also stated the command was supportive and listened
       to his recommendations. Another platoon leader noted that the level of support they get
       depends on circumstances of the event. He explained that this can set a “bad tone” by
       letting Marines see what other Marines were getting away with. He noted that there was
       significant flexibility and latitude in the disciplinary response to WWBn Marines
       engaged in street drug abuse, while the fleet policy is zero tolerance. He indicated
       however, that the system may need to treat abuse of prescription drugs in those Warriors
       with PTSD and/or TBI differently than others.

     • During our interview with a senior medical official, he expressed concern about drug
       abuse and commented that the perception from “Washington D.C.” is that combat
       wounded Marines should be given a break. He indicated that “zero tolerance should be
       zero tolerance,” and that giving the Marines a break only put their families and others at
       risk.

     • The Transition Center staff mentioned that the battalion tried very hard to look at the
       “Whole” Marine when deciding how to handle disciplinary issues, stating there were no
       easy answers. They added that the length of time it took to complete the medical board
       process affected the smooth and timely transitions, indicating that as a result the
       Warriors had too much time on their hands and tended to get into trouble.

Interviewed Warriors commented that the commander had emphasized concern about drug use
and the selling of drugs during Warrior formations. They also indicated that they have a lot of
drug tests, and explained that if a Warrior tested positive they were sent to a drug rehabilitation
program and then they would be watched.

Managing medication misuse and drug abuse in this Wounded Warrior population presented
sensitive and challenging issues. Many of our interviews supported the conclusion that the
Command was trying to use the right approach to balance the appropriate amount of compassion


29
  Medication reconciliation is a formal process of identifying the most complete and accurate list of medications a
patient is taking and using that list to provide correct medications for the patient anywhere within the healthcare
system.



                                                         46
and empathy for a Warrior’s situation with maintaining good military order and discipline when
it came to involvement with inappropriate use of medications and/or illegal drugs.

We observed that the battalion had implemented measures to further mitigate prescription
medication and illegal drug misuse such as installing video cameras in the barracks to deter
thefts.

Furthermore, the Battalion Commander attempted to educate and motivate Wounded Warriors to
act appropriately. Specifically, he told Marines, “Do not let your injury justify your
misconduct.” He clarified that “if you compromise your integrity by engaging in misconduct or
illegal activity, then society will care less about you and you in turn will promulgate a negative
attitude toward the Marine Corps and military service.”

C.3. Conclusion
Many WWBn-East Wounded Warriors were required to maintain significant amounts of both
controlled substances and over-the-counter medications for the treatment of their medical
conditions. Additionally, this population was vulnerable to the illegal drug trade that was present
in the civilian community. Consequently, the WWBN-East was required to implement measures
to help mitigate the potential for misuse of prescription medications and/or the use of illegal
drugs.

Although the Battalion had implemented appropriate actions, challenges to the command
remained in dealing effectively with the abuse of prescribed medications and illegal drugs. As a
result, Warrior recovery and transitions may be adversely affected.

C.3. Recommendations, Management Comments, and Our Response
C.3. We recommend that the Commander, Wounded Warrior Battalion-East:

       C.3.1. Work in conjunction with Naval Hospital Camp Lejeune to implement
       measures which can decrease the potential for Wounded Warriors to misuse and/or
       abuse prescription medications, including the following:

               C.3.1.a. Determine the appropriateness of and implement the Electronic
               Medication Management System for designated “high-risk” and other
               potentially vulnerable Warriors;

               C.3.1.b. Improve medication reconciliation procedures to ensure medications
               prescribed by civilian providers in the community are reconciled with those
               prescribed at the Naval Hospital to ensure that quantities of medications
               available to Wounded Warriors are appropriate and not contraindicated;
               and,

               C.3.1.c. Establish procedures for the disposal of prescription medications
               that are no longer needed by the Wounded Warrior.




                                                47
Wounded Warrior Battalion-East Comments
The Commanding Officer, Wounded Warrior Battalion-East concurred with comment to our
recommendations. The Commanding Officer explained that he along with selective staff
members were briefed on the Electronic Medication Management Assistant (EMMA) in early
2010 and were convinced of its application for “high-risk” and vulnerable wounded warriors. He
further explained that EMMA has not been approved by the Navy Bureau of Medicine and
Surgery (BUMED), therefore, has not been implemented. The Commanding Officer, in response
to medication reconciliation procedures, mentioned that a new Battalion Order 6000.1B,
“Procedures for Facilitation of the Wounded Warrior Battalion-East Prescription Reconciliation
Program,” was signed October 2011. The directive focuses on medication inventory, pain
management, and identification of and assistance to high-risk patients. He further explained that
the Battalion Order states that “no WWBn-East patients who are prescribed narcotics or
sedatives will be permitted to go to a pain management provider or clinic in the civilian
community unless authorized by the unit or detachment primary care manager.” Additionally,
the order states that if narcotics are procured outside the network, Marines are in violation and
subject to administrative or disciplinary action. Lastly, the Commanding Officer explained that
under current Federal law, only patients can dispose of their own medications, and that the only
legal and proper way was for the patient to give their medications to a Federal law enforcement
officer. On Camp Lejeune, those working under the Provost Marshal are considered Federal law
enforcement officers. Since the visit by the DoD IG, the battalion in coordination with the Base
Provost Marshal conducted a separate turn-in of prescription medicine in November 2011 at the
WWBn-East barracks with minimal results.

Additionally, the Commanding Officer, Wounded Warrior Battalion-East recommended that we
update information in the report that had been listed incorrectly and/or changed since our visit.
Specifically, updates to Wounded Warrior Battalion East sites (page 4); 9-Block Representatives,
(Table 3, page 16, and Appendix A, (page 87). The recommended changes are also reflected in
Appendix D.

Our Comments
The Commanding Officer’s comments are responsive and the actions meet the intent of the
recommendations. The recommended changes as noted above have been updated in the report.
No further action is required.




                                               48
Observation D. Challenges for Naval Hospital
Camp Lejeune
We observed four challenges related to Warrior medical care provided by Naval Hospital Camp
Lejeune. The Naval Hospital should address these challenges in order to ensure more effective
support for the care, healing, and transition of Wounded, Ill and Injured Marines. They are as
follows:

       D.1. Access to Specialty Healthcare Services
       D.2. Lengthy Transition Times
       D.3. Medical Case Management Staffing
       D.4. Medication Management for Warriors

We believe that addressing these challenges will increase the effectiveness of the Naval
Hospital’s leadership and staff in providing quality and timely care and services in support of the
recovering Marines to promote their healing and transition.




                                                49
D.1. Warriors’ Timely Access to Specialty Medical Care
  Warriors had difficulty obtaining timely appointments for some specialty care services;
  specifically, Neurology, Orthopedics and Pain Management. As a result, necessary medical
  evaluations and treatments may have been delayed and could adversely affect a Warrior’s
  recovery and necessary medical evaluations and transition.

D.1. Background
Camp Lejeune is located on the Eastern Coast near Jacksonville, NC. The base and surrounding
community is home to an active duty, dependent, retiree and civilian employee population of
approximately 180,000. The nearest large city (Raleigh, NC) is approximately 100 miles away
and has a population of approximately 276,093.

Fayetteville Veterans Administration (VA) Outpatient Clinic, located in Jacksonville provided
primary care and behavioral health services and is approximately 8 miles from Naval Hospital
Camp Lejeune. Additionally, the Fayetteville VA Medical Center is located about 2.5 hours
(109 miles) from Naval Hospital Camp Lejeune.

The patient services provided by Naval Hospital Camp Lejeune consisted of:
   •   Primary Care: Family Medicine, Pediatrics, Internal Medicine, and Branch Clinics
   •   Specialty Care: Mental Health, Emergency Medicine, Optometry,
       Obstetrics/Gynecology, Dermatology, Orthopedics, Anesthesia/Pain Management,
       Physical Therapy, Occupational Health, and Neuropsychology
   •   Clinical Support Services: Radiology, Laboratory, Pharmacy, Nutrition Management,
       Preventive Medicine, Deployment Health Center, and Substance Abuse Program

Figure 4 shows the Regional Referral Centers utilized by Camp Lejeune and their distances from
the base ranging anywhere from 5 to 195 miles.

                     Figure 4. Naval Hospital Camp Lejeune Regional
                                     Referral Centers




                                              50
The Assistant Secretary of Defense (Health Affairs) (ASD(HA)) Policy Memorandum 06-007,
“TRICARE 30 Policy for Access to Care and Prime Service Area Standards,” February 21, 2006,
includes referral standards for Specialty Care Services, which stated that “Beneficiaries must
have an appointment with an appropriately trained provider within four weeks and within one
hour’s travel time from the beneficiary’s residence.”

Furthermore, the ASD (HA) Policy 06-007 was rescinded and replaced by ASD (HA) Policy
Memorandum 11-005, “TRICARE Policy for Access to Care,” February 23, 2011. The policy
includes referrals for Specialty Care Services, stating that beneficiaries must be offered an
appointment with an appropriately trained provider within 4 weeks (28 calendar days) or sooner,
if required, and within 1-hour travel time from the beneficiary’s residence.

D.1. Discussion
Warriors indicated that, for the most part, they were satisfied with the support provided by their
Primary Care Manager (PCM). However, Warriors reported in multiple interviews that they had
challenges receiving specialty care. They believed that they did not receive timely access to
certain types of specialty medical care, such as neurology, orthopedics and pain management.

During an interview with the Naval Hospital Camp Lejeune hospital directors, they reported that
94 percent of civilian providers in Camp Lejeune’s catchment area 31 were enrolled in the
network. 32 However, several areas of concern were ENT, Dermatology, Neurology, and
Neuropsychological testing. The directors explained that when the case loads were too high, the
Military Treatment Facility (MTF) would schedule appointments directly with non-network
providers to help meet TRICARE access standards. Table 4 depicts the list of the top ten
specialty network referrals for August 2010 and the average for 2010 as a comparison.




30
   TRICARE is the healthcare program serving Uniformed Service members, retirees, and their families worldwide.
31
   Catchment areas are geographic areas determined by the Assistant Secretary of Defense (Health Affairs) that are
defined by a set of five digit zip codes, usually within an approximate 40 mile radius of military inpatient treatment
facilities.
32
   The network of contractor-operated providers and facilities (owned, leased, arranged) that link the providers or
facilities with the prime TRICARE contractor as part of the total contracted delivery system. The agreements for
health care delivery made by the contractor with the MTFs are also included in this definition.



                                                          51
                            Table 4. Top Ten Service Network Referrals

                             Category                            August 2010          2010 Average
         Optometry                                                  297                    148
         Behavioral Health                                          290                    257
         Orthopedics                                                161                    146
         Neurology                                                   89                    122
         Sleep Study                                                115                    122
         Pain Management                                            106                     79
         Neurology                                                   89                    122
         Dermatology                                                 74                     58
         Podiatry                                                    64                     75
         Gastroenterology                                            57                     45

The Commander noted that behavioral health referrals were 290 in August 2010, higher than the
2010 monthly average of 257. Orthopedics network referrals were higher in August 2010 at 161,
greater than the monthly average of 146. Furthermore, pain management referrals were also
higher, reaching 106 in August 2010 compared with the monthly average of 79.

The hospital Commander explained that there were additional challenges that contributed to
access to care issues. The first was space limitations, but the Commander noted that over the
next four to five years there would be ongoing activity to expand and renovate. Specifically,

     •   A new ambulatory care wing (including Family Practice, Orthopedics, physical therapy,
         and occupational therapy among others), plus a new Emergency and Acute Care wing,
         were projected for completion by winter 2013. The Commander said that even with the
         expansion, it was estimated that they would still fall 40-50,000 square feet short because
         of projected growth in behavioral health needs for the Marines stationed at Camp
         Lejeune.

     •   Another challenge cited by hospital directors was that, based on the geographic location
         of the MTF, staffing shortages were a concern. It was difficult finding medical providers
         in the area with the right skill sets. Moreover, military medical providers’ periodic
         deployments contributed to the personnel shortages. One director mentioned that they
         had worked to increase the number of military billets; in addition they had optimized the
         use of other services such as the Public Health Service, the Defense and Veterans Brain
         Injury Center (DVBIC), 33 and supplemented staff with military providers from
         Portsmouth on a temporary duty assignment or detail.


33
  The Defense and Veterans Brain Injury Center (DVBIC) is a multi-site medical care, clinical research and
education center funded by the Department of Defense (DoD). It conducts and advances research that enhances the
quality, appropriateness, timeliness, and cost-effectiveness of treatment delivered to military and veteran
beneficiaries with traumatic brain injuries (TBI) across the continuum of care.



                                                      52
A physician on the hospital staff indicated that providing specialty care could be difficult due to
coordination of care issues and that care in the network could be challenging because of distance,
and limited availability of specialists. He also stated that Camp Lejeune was a “medically
underserved area” due to its geographic location, making it difficult to attract quality medical
care providers. He went on to explain that exposure or cognitive behavioral therapy 34 referrals
(those used in treatment and therapy of PTSD) could be especially difficult to obtain.
Other challenges related to the medical appointment system identified by staff, Warriors and
family members during our interviews were, for example:

     •   The Medical Case Managers (MCMs) stated that some clinics at the Naval Hospital
         Camp Lejeune managed their own appointments, while others depended on the central
         appointment system. The MCMs also said that in-house neurology and orthopedics
         clinics had limited appointments, and noted that these clinics did not have enough follow-
         up appointments. Furthermore, PTSD group therapy was backed up for 4-months, due to
         Warriors preference to be seen by military health care providers instead of non-military
         providers.

     •   Several family members explained that access to care for their spouses was “terrible” in
         their judgment. For example, most of the Naval Hospital Camp Lejeune clinics only
         opened schedules three weeks in advance and when called for an appointment they were
         often already booked. One family member commented that it took approximately 3
         months to get a neurology appointment for her spouse, and 2 months for a pain
         management appointment.

     •   Another family member voiced concerned that her husband, who had received inpatient
         treatment for a mental health condition, did not receive an outpatient follow-up
         appointment with mental health for a month. She was concerned that all of the progress
         he made as an inpatient would be lost. She further explained that her husband had
         recently had an acute mental health issue and was then seen right away. However, her
         concern was more with the lack of accessibility for follow-up outpatient appointments.
         Several spouses stated that the behavioral health clinic on base was too busy, as were the
         services in town, and many in town would not or could not provide family therapy.

     •   Several Warriors indicated that neurology appointments could take up to four months.
         One Warrior stated that it took 3 ½ months to receive a VA mental health appointment.




34
  Exposure therapy: Over time, people with PTSD may develop fears of reminders of their traumatic event; the goal
of exposure therapy is to help reduce the level of fear and anxiety connected with these reminders, thereby reducing
avoidance. Cognitive behavioral therapy is a relatively short-term form of psychotherapy that focuses on present
thinking, behavior, and communication, rather than on past experiences, and is oriented toward problem solving.
Cognitive therapy has been applied to a broad range of problems including depression, anxiety, panic, fear, eating
disorders, substance abuse, and personality problems.



                                                        53
D.1. Conclusion
Access to certain specialty medical care was a challenge due to the location of Camp Lejeune
and lack of sufficient specialists to meet patient demand in compliance with established DoD
TRICARE access to care standards. The ramifications of not receiving timely care are that
Warriors at Camp Lejeune and their families were not receiving essential specialty medical care
on a timely basis, which could impede healing and recovery, and hinder transition to civilian life.
For amplifying remarks by Warriors concerning this section, refer to Part III, Warriors Speak.

D.1. Recommendations, Management Comments, and Our Response
D.1.1. We recommend that the Surgeon General of the Navy and Chief, Bureau of Medicine and
Surgery:

       D.1.1.a. Establish policies and procedures to uniquely identify Wounded Warriors
       assigned or attached to a Wounded Warrior Battalion in the Composite Health Care
       System, so that established DoD TRICARE access to care standards specifically for the
       Wounded Warrior population can be tracked.

Surgeon General of the Navy and Chief, Bureau of Medicine and
Surgery Comments
Bureau of Medicine and Surgery concurred with comments to our recommendation. In July
2011, Bureau of Medicine and Surgery, Wounded, Ill, and Injured Program Support sponsored a
multi-regional, multi-disciplinary working group to examine programs/systems currently used to
collect/monitor deployment or wounded, ill and injured data/information. The working group
identified a likely platform that would provide the architecture for a usable Wounded, Ill, and
Injured registry for the regions, and the ultimate linkage to the Composite Health Care System
(CHCS). Currently, one of the clinical regions is incorporating assigning Wounded Warriors
with Health Care Delivery Code 0415 to the Defense Enrollment Eligibility Reporting system
(DEERS)/CHCS, while an enterprise-wide solution is pending further review of all options.

Our Response
Bureau of Medicine and Surgery comments are partially responsive. Based on the response, it is
not clear whether other clinical regions are assigning Wounded Warriors to the same Health Care
Delivery Code and there is no stated timeline in which an enterprise-wide solution will be
approved for implementation. In response to the final report, we request that the Surgeon
General of the Navy and Chief, Bureau of Medicine and Surgery provide additional comments
on this recommendation, specifically, by providing an estimated timeline for approval and
implementation, and stating what measures have been put into place to ensure warriors in all
clinical regions are accurately coded.




                                                54
       D.1.1.b. Establish policies and procedures to ensure Wounded Warriors assigned or
       attached to a Wounded Warrior Battalion receive every medical appointment within
       established DoD TRICARE access to care standards.

Surgeon General of the Navy and Chief, Bureau of Medicine and
Surgery Comments
Bureau of Medicine and Surgery concurred with comment to our recommendation. Bureau of
Medicine and Surgery (BUMED) explained that Wounded Warriors assigned to the Wounded
Warrior Battalion typically are afforded the services of clinical case management at the Military
Treatment Facility and/or embedded within the battalion. They further explained that warriors
are also enrolled/assigned a primary care provider for managing all health concerns within the
Medical Home Port. Additionally, BUMED stated that they will provide resolution of any
clinical concerns addressed and would assist in alleviating any access to care challenges based on
the Naval Hospital Camp Lejeune manpower study results, which as noted will be completed no
later than April 2012 (see recommendation D.1.2). Furthermore, regarding guidance on existing
policies and procedures BUMED will continue to discuss and ensure current and emerging gaps
and challenges are addressed.

Our Response
Bureau of Medicine and Surgery comments are partially responsive. Bureau of Medicine and
Surgery stated that they will work with Naval Hospital Camp Lejeune to take appropriate actions
to provide adequate staffing for all specialty medical care activities based on the results and
recommendations derived from the manpower study, which is projected to be completed no later
than April 2012 (see recommendation D.1.2.). Upon receipt of the manpower study, we request
that the Bureau of Medicine and Surgery provide comments stating the actions that will be taken
based on the manpower study results.

       D.1.1.c. Based on results of the Naval Hospital Camp Lejeune manpower study and
       the Commander’s recommendations (see below), take appropriate actions to provide
       adequate staffing for all specialty medical care activities assigned to Camp Lejeune.

Surgeon General of the Navy and Chief, Bureau of Medicine and
Surgery Comments
Bureau of Medicine and Surgery concurred with comment to our recommendation. Bureau of
Medicine and Surgery explained that upon completion of the Naval Hospital Camp Lejeune
manpower study, they will assess the validated results for any follow on staffing actions.

Our Response
Bureau of Medicine and Surgery comments are responsive and the actions meet the intent of the
recommendation. No further action is required.




                                               55
D.1.2. We recommend that the Commander, Naval Hospital Camp Lejeune, direct a
manpower study to assess the need and feasibility to add specialty medical providers to the
medical facilities assigned to Naval Hospital Camp Lejeune. Provide study results and
recommendations to the Surgeon General of the Navy and Chief, Bureau of Medicine and
Surgery for action (see D.1.1.c.).

Naval Hospital Camp Lejeune Comments
The Commanding Officer, Naval Hospital Camp Lejeune concurred with comments to our
recommendation. The Commanding Officer explained that Navy Medicine East has initiated a
manpower study regarding Wounded Warrior Specialty care and plans to conclude the study no
later than April 2012.

Our Response
The Commanding Officer’s comments are responsive and the actions meet the intent of the
recommendation. No further action is required.




                                             56
D.2. Lengthy Transition Times
     Warriors’ healing and transition was comprised of treatment, rehabilitation, recovery, the
     medical board process, and transition back to Active duty or to civilian status. WWBn-East
     Warriors spent an average of 245 days in the treatment, recovery and rehabilitation stages.
     As a result, the prolonged transition period had potential negative effects on some Warriors’
     healing and transition.

D.2. Background
The Disability Evaluation System (DES) is the mechanism by which a Service member is
evaluated for fitness for duty by DoD. The legacy DES is a DoD process that assesses Service
member’s fitness for duty and compensates for injury or disease incurred in the line of duty that
inhibits a Service member’s ability to perform the duties of his/her office, grade, rank, or rating.
DES includes a medical evaluation board (MEB); physical evaluation board (PEB), 35 and
disability determinations; appellate review process, and final disposition.

In November 2007, DoD and VA initiated a joint DES Pilot program to improve the timeliness,
effectiveness and transparency of the DES review process. A desired outcome was to close the
gap that often occurred between separation from active duty and receipt of VA benefits and
compensation. The program is now called the Integrated Disability Evaluation System (IDES).
As of December 2010, the IDES had been deployed at 27 military treatment facilities – with
worldwide deployment scheduled for completion in September 2011. Specifically, the IDES:

      •   Established goals for delivering VA benefits to active duty servicemembers within 295
          days and to reserve component servicemembers within 305 days.
      •   Merged DoD and VA separate exam processes into a single exam process conducted to
          VA standards
      •   Consolidated DoD and VA separate rating phases into one VA rating phase. If the PEB
          has determined that a servicemember was unfit for duty, a rating specialist prepares two
          ratings – one for the conditions that DoD determined caused the servicemember to be
          unfit for duty, which DoD used to provide military disability benefits; and the other for
          all service-connected disabilities, which VA used to determine VA disability benefits.
      •   Provided VA case managers to perform outreach and nonclinical case management and
          explain VA results and processes to servicemembers.

Additionally, in January 2008, the National Defense Authorization Act for Fiscal Year 2008
(NDAA 2008) required DoD and VA, to the extent feasible, to jointly develop and implement a
comprehensive policy on improvements to the care, management, and transition of recovering
servicemembers, including improvement to the respective agencies’ disability evaluation system.




35
  Physical Evaluation Board (PEB) is initiated after a MEB determines that the member has a medical condition
which is incompatible with continued military service. The PEB is a formal fitness-for-duty and disability
determination that may recommend one of the following: Return the member to duty, place the member on the
temporary disabled/retired list (TDRL), separate the member from active duty, or medically retire the member.



                                                       57
The military’s legacy disability evaluation process begins when a physician identifies a condition
that may interfere with a service member’s ability to perform his or her duties. Following an
injury or illness, the Marine is given an appropriate period of time (typically 12 months) to
receive treatment and hopefully to rehabilitate and recover.

If a Marine cannot be returned to a full duty status and his or her ability to continue on active
duty, even in a medically unrestricted status, remains in question, it is the responsibility of the
medical community to refer the Marine to a MEB. On the basis of medical examinations and the
servicemember’s medical records, an MEB identifies and documents any condition that may
limit a servicemember’s ability to serve in the military. A Marine’s case is then evaluated by a
PEB to make a determination of fitness or unfitness for duty. If the Marine is found to be unfit
due to medical conditions incurred in the line of duty, the PEB assigns a combined percentage
rating for those unfit conditions, and the servicemember is discharged.

To assist the Wounded Warrior through the DES process they are assigned a Physical Evaluation
Board Liaison Officer (PEBLO) and a VA Military Service Coordinator (MSC) who as
nonclinical case management specialists are responsible for providing information and assistance
to the Marine and family during the DES process.

D.2. Discussion
Since March 31, 2009, when the IDES program was implemented at Camp Lejeune, the MEB
processing had been a challenge. Figure 5, Integrated Disability Evaluation System, indicates
the various stages of treatment to reintegration.

                 Figure 5. Integrated Disability Evaluation System Process




According to the Wounded Warrior Regiment (WWR), the average number of days a Warrior
spent from the time they entered the WWBn-East until they transitioned out of the Marine Corps



                                                58
was approximately 730 days (24 months). Furthermore, the average number of days the MEB
process took for a Warrior in WWBn-East was approximately 245 days. Additionally, a data
review from September 2010 indicated that for 22 percent of the WWR Marines, more than 3
years had passed since their original injuries with no referral to the IDES or return to active duty.

The hospital directors commented that they were working to implement mitigation strategies to
streamline the process, but nonetheless, the process remained frustrating for both hospital staff
and Marines because of the length of time.

A senior Marine official referred to the complicated DES process as “building an airplane in
flight” and implored assistance for PEB processing from Washington Navy Yard in order to
reduce time.

The hospital directors noted that the local VA was supportive and effective. However, the
biggest “hold up” appeared to be with the PEB process conducted at the Washington Navy Yard.
There was noted frustration in having to copy and submit FEDEX “stacks” of paperwork to the
PEB board. One hospital director commented that the medical board process was very
“administrative” burdensome. He also noted that in the past year the MTF had used over 1.5
million sheets of paper processing paper work for medical boards. The current PEB backlog was
the immediate problem and the MTF was collaborating with the VA to make the process work.

According to the director, the Bureau of Medicine and Surgery medical board staffing model
depicted a ratio for Marines to MEB counselors as 20:1, while Camp Lejeune consistently runs a
ratio of 95:1 (including patients who are not part of the Wounded Warrior program). Based on
the staffing model, the MTF had a requirement for 22 intake counselors. Currently, the MTF had
only five counselors (four actually worked in counseling, while one was devoted to
administrative work, and three vacancies were waiting to be filled). However, due to space
limitations the MTF could only grow to twelve counselors.

Furthermore, the director explained that in March 2009 the case load was approximately 1060.
An average of five to ten new cases were opened each day. Counseling was 20 percent of the
work with 80 percent focused on administrative tasks. For example, personnel were required to
generate 2 copies of every document for both PEB and VA because PEBs do not accept
electronic copies for the board and do not access AHLTA, the military health systems electronic
medical record.

During interviews with several WWBn-East senior leaders, one commented that the “Bottleneck
is in DC” and it seems to take 5 to 6 six months to get a response from the Navy Yard. Others
noted that Board processing takes a long time and that Marines’ recovery starts to digress when
they are waiting on the disposition of their boards. They also noted that Marines get into trouble
because “idle time is not good for individuals such as infantry Marines who are used to being
challenged daily.” WWBn-East leadership stated that they all want “Healing-Transition-
Restoration” but what they see is “Healing-Frustration-Declines,” with young people who end up
being “very sad.” Another battalion representative believed that Marines had “diagnosis creep,”
and seemed to find more wrong the longer they were there.




                                                 59
Battalion leaders acknowledged that the battalion’s number one issue was transition speed. They
explained that the PEB process was too long and it was a contributor to recovery problems.
According to the battalion DES attorney, there is “Zero Transparency” regarding the VA
Process. He noted that you can’t go to one place and find out the status or location of a package
in the VA system, stating: “I can go to amazon.com and track an order for a book but no such
process exist for DES packages.”

In addition to the lengthy IDES process, other challenges voiced by Warriors, families, medical
support staff and others included incomplete packages, inaccurate medical information, expired
packages, physician dictation problems, lack of MEB counselors, and tracking of packages.
Specifically:

   •   One Marine Corps leader stated that part of the problem was getting the Marine to
       “optimum health” (when maximum medical benefit is determined). For some Marines,
       this could be a prolonged period, also contributing further to their stay in the Battalion.
       As noted by one hospital official, the biggest difficulty was that “warriors are stuck,
       bored, and industrious and get into trouble.”

   •   During a family interview, one family member shared that it took four months to get the
       dictation back from her husband’s neurologist.

   •   There was an overall consensus by the MCMs that the board process was too long,
       making it hard to keep Marines out of trouble while their board was being processed.
       They cited that deadlines for medical board paperwork expired because of the lack of
       resources to help process cases. This occurred because medical boards were
       understaffed; there was a need for more MEB counselors, and there were not enough VA
       representatives to handle the Camp Lejeune case load. Additionally, narrative summaries
       were being sent back by the board because addendums were not attached or complete,
       and Compensation and Pension exams were taking 6 months. As a result, other exams
       and consults expired. Historically, MCM were not involved in the medical board
       process, however, recently we were told a nurse was placed in the MEB office to help
       facilitate and track reports.

   •   The PCM commented that the MEB/PEB and DES process takes so long to complete. He
       also commented that there is a perception by the Marines that VA care is “bad” so the
       Marine stays around longer to get medical issues taken care of so they don’t have to
       depend on the VA.

   •   One platoon sergeant within the battalion commented that the medical board counselors
       were overwhelmed. There was no access or formal relationship between the platoon
       leaders and the medical board counselors and PEBLO for tracking his/her Marines’
       progress through the MEB. Further, the platoon sergeant indicated that the most common
       issue with medical boards was that dictations expired after 6 months. He cited one
       incident about a Marine whose medical board process had to start over three times solely
       because the dictations expired. Furthermore, the platoon sergeant stated that the “longer
       a Marine is at WWBn, the worse the Marine becomes both physically and mentally.”



                                                60
A director explained, his concern with the length of the medical board process was that the lack
of proper staffing created the “death spiral.” As more Marines required more behavioral health
care, the burden on the mental health professionals increased, while the time available to the
mental health professional for the lengthy medical board dictation decreased. The overall effect
of the prolonged medical board process was that Warriors were retained in the WWBn for
excessive periods of time, which often caused reduced morale and presented further
opportunities for the Warrior to develop complaints about a new medical or mental health
problem. This caused the MEB/PEB process to start over and/or led to behavior that required
disciplinary action by the command.

D.2. Conclusion
We acknowledge the ongoing work that is being conducted by DoD and VA and others to rectify
the multitude of issues and concerns facing the IDES process. However, we found a pervasive
perception among Warriors, supporting personnel and Command leaders that the prolonged
IDES process may be contributing to disciplinary problems among the Warriors assigned or
attached to the WWBn. The local backlog of MEBs and the Washington Navy Yard backlog of
PEBs appeared to be a major impediment to the necessary expediting of IDES processing and a
barrier to timely recovery and transitioning of Warriors. Furthermore, the already-limited clinical
appointments, and the costly and time consuming administrative (paper, resources and
manpower) processing to prepare, and submit packages placed a demand on already-limited
manpower resources at all levels.

D.2. Recommendations, Management Comments, and Our Response
D.2. We recommend that the Secretary of the Navy, take action to ensure that each phase of the
     Integrated Disability Evaluation System process is accomplished within the established
     timelines for every Wounded Warrior assigned or attached to Wounded Warrior Battalions.

Management Comments Required
The Secretary of the Navy did not provide comments on a draft of this report; however, based on
the response of the Wounded Warrior Regiment’s Commanding Officer as noted in D.2.1.a. -
D.2.1.e, (see below), we acknowledge that the Wounded Warrior Regiment and Naval Hospital
Camp Lejeune are doing their part to track and expedite Marines through the IDES. We request
that the Secretary of the Navy provide a response, specifically, to what actions are being taken to
ensure that the IDES process is accomplished within its established timelines.




                                                61
D.2.1. We recommend that the Commander, Wounded Warrior Regiment, track each
     separate phase of the Integrated Disability Evaluation System process.

     D.2.1.a. Report every Medical Evaluation Board over 100 calendar days for Active
     Duty Warriors and 140 calendar days for Reservist Warriors to Deputy
     Commandant, Manpower and Reserve Affairs for action.

     D.2.1.b. Report every Physical Evaluation Board over 120 calendar days for Active
     Duty and Reservist Warriors to Deputy Commandant, Manpower and Reserve
     Affairs for action.

     D.2.1.c. Report every Transition Phase over 45 calendar days for Active Duty and
     Reservist Warriors to Deputy Commandant, Manpower and Reserve Affairs for
     action.

     D.2.1.d. Report every Reintegration Phase over 30 calendar days for Active Duty and
     Reservist Warriors to Deputy Commandant, Manpower and Reserve Affairs for
     action.

     D.2.1.e. Implement the maximum appropriate use of “Home Awaiting Orders” and
     “Temporary Disabled Retired List” to minimize the amount of time Warriors spend
     in Wounded Warrior Battalions.

Wounded Warrior Regiment Comments
The Commanding Officer, Wounded Warrior Regiment concurred with comments to our
recommendations. The Commanding Officer stated that the Wounded Warrior Regiment
currently generates a weekly brief for the Deputy Commandant, Manpower and Reserve Affairs
(M&RA) action that captures the status of Marines in the Medical Board Evaluation (MEB) and
Physical Evaluation Board (PEB) phases. By-name rosters of Marine cases exceeding phase
processing goals are provided biweekly to the Bureau of Medicine and Surgery (BUMED) and
PEB. The Commander further explained that since the DOD IG visit, there have been ongoing
efforts to improve Integrated Disability Evaluation System (IDES) performance. He noted that
in addition to hosting regular BUMED teleconferences with IDES stakeholders, Deputy
Commandant, M&RA has been providing Marine Corps leadership with detailed IDES
information, which has resulted in their ability to work closer with the Regional Medical
Commanders on specific issues impacting IDES performance. Furthermore, the Commanding
Officer stated that the Naval Hospital Camp Lejeune has proved to be the most successful in
making IDES work as intended.
Our Response
The Commanding Officer, Wounded Warrior Regiment’s comments are responsive, however,
further comment is still requested by the Secretary of the Navy as recommended in D.2.




                                             62
D.3. Medical Case Management Staffing
  The MCMs from the Naval Hospital assigned to manage Warriors at WWBn-East operated
  at their maximum number assigned and sometimes exceeded their caseloads. Consequently,
  Warriors may not have always received the medical case management support they needed
  causing delays or other potential adverse affects to their recovery and transition.

D.3. Background
The Navy does not have a standard fixed ratio that it uses to determine the number of patients per
assigned case manager supporting Wounded Warrior battalions. However, the Department of the
Navy Bureau of Medicine Instruction 6300.17, “Navy Medicine Clinical Case Management,”
November 23, 2009, followed the 2006 DoD TRICARE Medical Management Guide
recommendation that the case load range from 10 to 50 patients per case manager, depending on
acuity. Additionally, the 2008 DoD TRICARE Medical Management Guide, Case Management
Version 3.0, establishes that no more than 17 Wounded Warriors in an outpatient setting will be
assigned to one Medical Care Case Manager. Acuity levels are described in the USD P & R
Directive Type Memorandum 08-033, “Interim Guidance for Clinical Case Management for the
Wounded, Ill, and Injured Service Member in the Military Health System,” August 26, 2009.
Specifically, the acuity is based on the number of interventions that a case manager may be
required to perform and the frequency of follow-up with the patient. Possible interventions
include activities such as medication counseling, arranging durable medical equipment, and
communicating with and/or educating family members and others.

D.3. Discussion
The assignment of Marines to the appropriate MCMs was based on the acuity of the Marine and
skill set of the MCM (as previously discussed in B.3., Assignment of Warriors to Medical Case
Managers). Acuity levels were based on the amount of contact and interventions the Marine
would have with the MCM, the acuity levels range from 1 to 5 with acuity level 5 requiring the
most intervention and contact. Table 5 shows the number of MCMs to Wounded Warriors at
Camp Lejeune.

                     Table 5. Medical Case Managers to Warrior Ratios
                              MCM          Warriors Assigned
                                  A                    20
                                  B                    50
                                  C                    44
                                  D                    46
                                  E                    15
                                  F                    40
                                  G                    28
                                  H                    27
                                  I                    42




                                               63
During interviews with the MCMs, they explained that there were three Licensed Practical
Nurses (LPN) 36 that work at the hospital and were available to assist with case management
duties. However, they were often busy with their own, less complex case loads. Ideally, they
stated, having one LPN assigned full time to WWBn-East would be helpful. They expressed the
need for additional MCMs, because “there are many more combat wounded who were not being
seen or getting the proper support they need.” Several MCMs stated that even though
overworked, “we love our job,” “we put our heart and soul into it” and “we have a lot of support
and respect from all over.” Others commented that the “job is all consuming,” “never-ending,”
and “not a day goes by where I have enough time to do the job.”

 We were informed during our family interviews that several individuals thought that their
spouse’s case manager was difficult to reach or not responsive. Specifically, during two family
interviews, one spouse mentioned she made all her husband’s appointments and another family
member commented that they did not use the case manager any longer because they could never
get in touch with her.

D.3. Conclusion
Although the MCMs were working within the parameters of the Navy guidance, they exceeded
the caseload assignments as established by DoD for Warrior ratios. The MCMs expressed
concern that they did not have enough time to complete their duties and that the Warriors with
more complex health care requirements may not be getting the proper support they need for
recovery and transition. This placed the MCMs at potential risk of not being able to effectively
work each individual Warrior’s specific medical and/or transition needs. The overarching
guidance for MCMs to Warrior ratios should be reviewed to identify minimal ratios based on
care acuity, complexity and evidence-based practices. 37 Furthermore, the DoD policy for
Clinical Case Management for the Wounded, Ill, and Injured Service Member in the Military
Health System was outdated and lacked follow-on guidance. For amplifying remarks by
Warriors concerning this section, refer to Part III, Warriors Speak.




36
   Licensed practical nurses (LPNs) care for people who are sick, injured, convalescent, or disabled under the
direction of physicians and registered nurses. The nature of the direction and supervision required varies by State
and job setting.
37
   Evidence-based practice is the practice of health care in which the practitioner systematically finds, appraises, and
uses the most current and valid research findings as the basis for clinical decisions.



                                                          64
D.3. Recommendation
We recommend that the Undersecretary of Defense for Personnel and Readiness, comply with
the requirement to replace the existing Directive-Type Memorandum 08-033, Interim Guidance
for Clinical Case Management for the Wounded, Ill, and Injured Service Member in the Military
Health System, and develop a DoD Instruction establishing adequate Medical Case Managers
staffing ratios specific to Wounded Warrior programs based on patient care acuity, complexity,
and evidence-based practices.

Undersecretary of Defense for Personnel and Readiness Comments
The Undersecretary of Defense for Personnel and Readiness partially concurred with comment to
our recommendation. The Undersecretary agreed to comply with the transition of the Directive-
Type Memorandum 08-0333 into a DoD Instruction and concurred in working towards
establishing case manager staffing ratios that will consider variables associated with acuity and
complexity of care coordination requirements, and consistent with the statutory requirements of
the National Defense Authorization Act for Fiscal Year 2008, Section 1611 (e) (3) (C),
recognizing that the secretaries of the Military Departments concerned may waive such
limitation with respect to a given manager for not more than 120 days in the event of unforeseen
circumstances.

Our Comments
The Undersecretary of Defense for Personnel and Readiness’s comments are partially
responsive. We request that the Undersecretary provide an estimated timeline for the DoD
Instruction implementation.




                                               65
D.4. Medication Management for Warriors
     The Naval Hospital Camp Lejeune did not have specific medication management policies or
     procedures in place to manage Warriors who were prescribed multiple medications, some of
     which were controlled substances. Consequently, Warriors were at risk to have an adverse
     reaction from these medications, which could negatively affect their health and recovery.

D.4. Background
Naval Hospital Camp Lejeune Instruction 6710.5A, “Controlled Medication Utilization Review
and Intervention Protocol,” September 15, 2003, established a protocol for the continuous review
of controlled substances 38 prescribed in the outpatient setting. Specifically, this guidance:

       • Established a protocol for the continuous review of prescribing controlled substance and
         outpatient use. A step in the protocol requires the pharmacist to generate a report listing
         all patients who have received five or more controlled medications within a 2 month
         period.
       • Described the purpose of the Controlled Medication Utilization Review and Intervention
         Subcommittee, which is responsible for monitoring patient medication usage, and to
         identify, report and intervene in medication misuse cases involving controlled
         medications (Schedules II-V). 39
       • Tasked the Controlled Medication Utilization Review and Intervention Subcommittee to
         review prepared reports and identify patients, or providers, exhibiting “misuse”
         characteristics, and to follow up with appropriate medical care providers (e.g. PCM,
         Specialist, Case Manager, Social Work, or Substance Abuse Rehabilitation Program
         Coordinator) regarding any care and treatment concerns.

Additionally, Naval Hospital Camp Lejeune Instruction 6320.55B, “Pain Assessment and
Management,” December 16, 2008, established policy and procedure for patients with acute and
chronic pain. Specifically this instruction:

      •   Prescribed frequency and method of assessing patient pain, and identified appropriate
          interventions.
      •   Provided recommendations for considerations in using opioids. 40
      •   Described the policy and procedure, when initiating a regular opioid regimen, including
          an Informed Consent/Agreement Form for Long Term Controlled Substance Therapy.
      •   Provided recommendations regarding the use of opioids in the treatment of non-cancer
          pain, although this is not exclusive to the care of Wounded Warriors.




38
   A drug or chemical substance whose possession and use are controlled by law.
39
   A controlled substance is placed in its respective schedule based on whether it has a currently accepted medical
use in treatment in the United States and its relative abuse potential and likelihood of causing dependence.
40
   According to the Merriam-Webster, Inc., Medical Dictionary, copyright 2010, an opioid possesses some
properties characteristic of opiate narcotics but are not derived from opium.



                                                         66
Battalion Order 6000.1, “Procedures for Medication Inventory Control and Assignment to the
Prescription Risk Program,” October 19, 2009, described the policy and procedure to supervise
the proper medication accountability and dosage taking of each individual Marine and Sailor
attached to the Battalion. The goal of this program is to create a structured individual medication
inventory process as a tool for more effective supervision and accountability of medication
usage. Specifically, it:

   •   Required that monthly medication inventories be conducted on Marines/Sailors in a
       patient status at WWBn-East (pills counted and compared to prescription frequency)

   •   Described procedures to follow if the inventory had fewer than the minimum quantity as
       stated on the prescription label, in which case these Marines/Sailors would be assigned to
       the “prescription risk program,” whereby two medication inventories per week would be
       conducted for 60 days, and

   •   Identified medications that were no longer used or needed and should be discarded

D.4. Discussion
We noted that both the battalion and hospital had established guidance to address the use of
controlled medications (including opioids), the management of patients with pain, and
medication accountability. However, we believed that these orders, policies and procedures
were not sufficient and therefore effective to assist the medical and battalion staff in managing
the challenges of caring for the specific patient population in the Wounded Warrior Battalion.

The pharmacist acknowledged during our interview that these hospital policies and procedures
required a revision in order to address the challenges and complexities of providing care to
Wounded Warriors. Additionally, the pharmacist stated:

   •   That the current policy/procedure required that the pharmacist produce a written report
       listing patients who were prescribed five or more controlled medications in a two month
       period. This report was intended to be reviewed by the hospital’s Controlled Medication
       Utilization Review and Intervention Subcommittee to identify appropriate interventions if
       there was evidence of misuse of controlled medications.

   •   That preparing the report has now become unmanageable due to the large number of
       patients that have been prescribed five or more controlled medications.

   •   The system discrepancy between CHCS and AHLTA, whereby not all medications listed
       on the CHCS profile were successfully transcribed over into the AHLTA medication
       profile.

Additionally, Naval Hospital senior leadership and its medical staff directly involved in the
health care and management of Wounded Warriors cited their own concerns with the challenges
of managing the complex medication needs of Wounded Warriors. For example:




                                                67
     •   One senior medical official during an interview stated that the “polypharmacy 41 issue
         scares him to death” and acknowledged how difficult it was to deal with.
     •   A group of MCMs voiced their concern regarding medication management indicating
         that “the right hand does not know what the left hand is doing on base and the poly-
         pharmacy problem is amplified by the off-base providers.” One MCM expressed that the
         Pharmacy needed to get more involved, to include better tracking and alerts on
         medication interactions in AHLTA/CHCS.

     Interviews with the Battalion’s senior leaders identified their concerns with the risks that
     were inherent in having Wounded Warriors who were taking or had access to multiple
     medications. Specifically:

     •   The Battalion Commander expressed concern that most if not all Marines in the battalion
         were on serious medications resulting from their wounds, illnesses and/or injuries. He
         believed that many Marines were “pre-disposed” to addictions and that although Navy
         Medicine was trying to “catch up” with these needs, there were still a number of Marines
         needing assistance with pain management and addiction counseling. The Commander
         further explained that he believed Wounded Warriors in the battalion were a
         “compromised population,” and that he made “combating drug abuse a number one
         priority.”

     •   Furthermore, Battalion senior leaders voiced concern that there was no real check on
         medications prescribed between civilian and military providers, so Marines could and had
         received duplicate prescriptions for large quantities of medications because the two
         systems were not reconciled. This led to the issuance of Battalion Order 6000.1A,
         “Procedures for Medication Inventory Control and Assignment to the Prescription Risk
         Program,” October 19, 2009. (This Battalion order was cancelled and has been
         superseded by Battalion Order 6000.1B, and is explained in recommendation C.3.1.b).

             o The policy was intended to help manage accountability of the number and types
               of medication that a Warrior may have in their possession. The Battalion believed
               that this process would help to get the quantities of medications for Marines under
               control.
     •   A battalion medical representative expressed concern that Warriors were being
         overmedicated, stating that many doctors were quick to prescribe medications as “an easy
         fix,” and then the battalion was left to deal with any resulting problems (e.g.
         overmedication, addiction). He also noted that some Warriors had their prescriptions
         filled in civilian network pharmacies instead of the Naval Hospital’s pharmacy.

Battalion leaders stated that additional measures were needed to help mitigate risks involved
with Wounded Warriors possessing a large quantity of medications. Several efforts were
identified that could assist or mitigate medication risks. For example:


41
  Polypharmacy is the use of a number of different drugs, possibly prescribed by different doctors and filled in
different pharmacies, by a patient who may have one or several health problems.



                                                         68
   •   Warriors’ utilization of the EMMA system. The EMMA system allows for a single dose
       of medication to be dispensed at a specific time and could be used in a Warrior’s room.
       A benefit of this system is that it limits the number of pills/capsules that are available to a
       Warrior at any one time. Although the advantage of using such a system was supported
       by both Battalion and hospital staff, the Battalion expressed their frustration that they had
       been unable to get approval from Navy Medicine to use EMMA. Even though Army
       units such as at Fort Bragg were using EMMA, the Battalion staff explained that Navy
       Medicine was concerned whether EMMA would be HIPAA compliant and allowable.

   •   Discarding of Warrior medications that were no longer needed or required for care due to
       a change in a Warrior’s symptoms or condition. The disposal of these unused/un-needed
       medications was problematic due to concerns with polluting or adversely affecting the
       environment. Consequently, special procedures were required. In the past, the Naval
       Hospital coordinated an effort with the DEA to collect unused medications so that they
       could be properly destroyed and/or disposed of. However, these procedures were not
       conducted on a routine basis. A senior hospital official stated that they were working on
       developing a plan which complied with state laws to allow for a regularly scheduled
       collection of unused/un-needed medications.

D.4. Conclusion
Managing the medications for Wounded Warriors was challenging due to the number and types
of medications that were prescribed, some of which are controlled substances, and the fact that
both military and civilian health care providers were prescribing them. Battalion Orders and
Hospital policies and procedures for handling multiple medications for Wounded Warriors were
outdated, and lacked a process to specifically identify and track Warriors assigned to the
battalion as a means to help mitigate the risk of adverse drug interactions or poor outcomes.
Updated hospital policies and procedures could significantly assist in the identification and
reduction of potentially harmful Warrior medication-related incidents. For amplifying remarks
by Warriors concerning this section, refer to Part III, Warriors Speak.

D.4. Recommendations, Management Comments, and Our Response
D.4.1. Office of Assistant Secretary of Defense, Health Affairs, ensure that the Pharmacy Data
Transaction Service/Armed Forces Health Longitudinal Technology Application interface
adequately supports the medication reconciliation for prescriptions not ordered in the Composite
Health Care System.

Assistant Secretary of Defense, Health Affairs Comments
TRICARE Management Activity (TMA) responding on behalf of the Assistant Secretary of
Defense, Health Affairs concurred with comment to our recommendation. TMA explained that
efforts are underway to enhance the medical reconciliation capability within AHLTA/Composite
Health Care System (CHCS). TMA stated that currently, DoD healthcare providers are able to
document changes to medication orders made by DoD providers but are unable to do so for
medication orders from non-DoD providers, to include VA and civilian providers. TMA also
commented that two system change requests (SCRs) have been approved to address this, which
include:



                                                 69
   •   Allow users to mark as “Taking/Not Taking” each patient’s current medications
       regardless of the source system. For example, the source systems include but are not
       limited to AHLTA, CHCS, VA or Pharmacy Data Transaction Service (PDTS). This
       update can be done during a patient encounter or without initiating an encounter.
   •   Change the status of a medication to “Taking/Not Taking” when a user marks an over the
       counter (OTC) medication as “Taking/Not Taking.”

TMA stated that these enhancements are targeted for funding in Fiscal Year (FY) 2014.
Additionally, TMA recommended changes be made to footnote 21 (page 30) regarding AHLTA.
The recommended changes are also reflected in Appendix D.

Our Response
TRICARE Management Activity, responding on behalf of the Assistant Secretary of Defense,
Health Affairs, provided comments that are responsive and meet the intent of the
recommendation. However, we request that TMA provide updates when such enhancements
have been approved and funded. The recommended changes as noted above have been updated
in this report.

D.4.2. We recommend that the Surgeon General of the Navy and Chief, Bureau of Medicine and
Surgery:

       D.4.2.a. Update command policies and procedures for overall medication management, to
       include polypharmacy management, medication reconciliations, and pain management
       practices including use of alternative therapies.

       D.4.2.b. Coordinate with the Wounded Warrior Regiment to determine if the Electronic
       Medication Management System is an appropriate method to assist in the proper
       dispensing of medications to Warriors assigned or attached to Wounded Warrior
       Battalions.

Bureau of Medicine and Surgery Comments
Bureau of Medicine and Surgery Navy Pharmacy Consultant, responding on behalf of the
Surgeon General of the Navy and Chief, Bureau of Medicine and Surgery, concurred with
comments to recommendation D.4.2.a. The Pharmacy Consultant explained that a review of
directives and procedures for medication management may mitigate some of the issues identified
in this report. However, the Consultant stated that licensed professionals are generally given
latitude on selection of treatment options and how pharmaceuticals are prescribed, dispensed,
and administered, based on professional judgment and specific patient presentation.

Bureau of Medicine and Surgery Navy Pharmacy Consultant, responding on behalf of the
Surgeon General of the Navy and Chief, Bureau of Medicine and Surgery, non-concurred with
comment to recommendation D.4.2.b. The Pharmacy Consultant explained that the Electronic
Medication Management System is a vendor-specific system. The Consultant further explained
that the DoD IG report should not recommend a vendor-specific system, and noted that there are
other electronic supported and non-electronic means to meet the identified requirement at the
wounded warrior barracks. Additionally, the Consultant explained that evaluation of the most


                                              70
appropriate method to control medication access/administration can be accomplished, to include
patient population studies.

Our Response
Bureau of Medicine Navy Pharmacy Consultant comments to recommendation D.4.2.a. are
partially responsive. Our recommendation does not address and is not related to the issue of a
medical provider’s latitude on selection of treatment options and the exercise of their clinical
professional judgment. Rather, it relates to the current lack of overarching guidance for
providing polypharmacy policies to support those professionals caring for Wounded Warriors
and others at high-risk. Specifically, our recommendation is designed to ensure that medical
providers have the most available information upon which to base their professional judgment.
Based on the response, we request that the Surgeon General of the Navy and Chief, Bureau of
Medicine and Surgery address what provisions are being made to establish an overall standard
command policy that is current and addresses medication management. This policy should
include polypharmacy management, medication reconciliations, and pain management practices,
including use of alternative therapies, that would provide appropriate direction for medical care
providers, while still encouraging professional judgment and evaluation of specific patient
presentation. We request that BUMED provide a response and timeline for updating such
command policies.

Bureau of Medicine and Surgery Navy Pharmacy Consultant comments to recommendation
D.4.2.b. are partially responsive. Based on management comments we have revised our
recommendation. We acknowledge that there are other medical systems that provide similar
capability. However, the Electronic Medication Management System was mentioned as an
example because of its capability to limit the number of pills/capsules available to a Warrior at
any one time, but also because of its beneficial utilization at some Army units. We request that
the Surgeon General of the Navy and Chief, Bureau of Medicine and Surgery respond to the
revised recommendation, specifically, to the Electronic Medication Management System and/or
other available systems being considered to support the wounded warriors’ medication
management needs, and to mitigate the risk of having large quantities of medications available to
a Warrior at any given time. Furthermore, we request that an implementation timeline of a
selected solution to this ongoing issue be determined.

Revised Recommendation
As a result of management comments, we revised draft Recommendation D.4.2.b. to include
exploring additional methods that could assist in the proper dispensing of medications to
Warriors. We request that the Surgeon General of the Navy and Chief, Bureau of Medicine and
Surgery provide a response to recommendation D.4.2.b.

       D.4.2.b. Coordinate with the Wounded Warrior Regiment to determine if any available
       system designed to provide a safe method of dispensing of medications to patients would
       be appropriate, effective and practicable for use with Warriors assigned or attached to
       Wounded Warrior Battalions. While many systems might be available, one example of
       one such system might be the Electronic Medication Management System.




                                               71
D.4.3. We recommend that the Commanding Officer, Navy Medicine East, develop and
       implement policy and procedures to ensure that there is a regularly scheduled and/or
       available procedure for discarding of Warriors unused and/or un-needed medications.

Bureau of Medicine and Surgery Comments
Bureau of Medicine and Surgery Navy Pharmacy Consultant, responding on behalf of the
Surgeon General of the Navy and Chief, Bureau of Medicine and Surgery and Navy Medicine
East, concurred with comment to our recommendation. The Pharmacy Consultant explained that
the Controlled Substances Act prohibits options concerning returns of unneeded medications,
except to law enforcement personnel. The Consultant further explained that allowing patients to
drop-off medications in a secure locked box is an option, but per regulations and consultations
with the Drug Enforcement Agency (DEA), the box must be monitored and guarded 24 hours a
day. The consultant went on to say that this severely limits accessibility for patients. The
Consultant also explained that there is no lawful method for hospital or battalion staff to receive
or “take-back” these controlled medications from patients, and that in previous take-back
initiatives run by the Drug Enforcement Agency and local command, they have had extremely
low participation rates. Furthermore, the Consultant noted that there are pending regulatory
changes as a result of the Safe and Secure Drug Disposal Act that was signed into law on
October 12, 2010, but until the proposed rulemaking is issued by the Attorney General, there is
no process to follow.

Our Response
Bureau of Medicine and Surgery Navy Pharmacy Consultant comments are partially responsive.
By concurring, BUMED has agreed to develop and implement policy and procedures to ensure
that there is a regularly scheduled and/or available procedure for discarding of Warriors used
and/or unneeded medications. We understand the limitations posed by the Controlled
Substances Act, however, we request that additional comments be provided explaining how
BUMED and/or Naval Hospital Camp Lejeune will develop and implement policy to ensure
there is a process in place for Warriors to dispose of unused and/or unneeded medications.

D.4.4. We recommend that the Commanding Officer, Naval Hospital Camp Lejeune:

       D.4.4.a. Update and implement local policies and procedures for overall medication
       management, to include polypharmacy management, medication reconciliations, to
       ensure that policies and procedures identify appropriate measures to mitigate any
       risk that results from the use of multiple medications which have the potential to
       result in adverse drug interactions if not monitored properly.

       D.4.4.b. Update and implement local policies and procedures for overall pain
       management practices, to include use of alternative therapies.




                                                72
Naval Hospital Camp Lejeune Comments
The Commanding Officer, Naval Hospital Camp Lejeune concurred with comment to our
recommendations. The Commander explained that the pharmacy is leading a multidisciplinary
team to evaluate the revisions that are needed to the current Naval Hospital Instruction 6710.5A,
“Controlled Medication Utilization Review and Intervention Protocol,” September 15, 2003.
The Commander stated that the intent is to ensure Command guidance is given to providers and
supporting staff in regards to narcotic and controlled medication prescribing and usage,
preventing potential diversion or overuse, and providing strict guidelines for poly-pharmacy
patients. He further explained that since a large majority of controlled medication prescribing is
related to pain patients (patients with pain), a focus will be on this population which includes the
Wounded Warriors. Additionally, the Commander noted that the established policies will be
monitored and evaluated as dictated periodically utilizing easily retrievable CHCS reports
measuring the program’s effectiveness. The final proposed instruction is due to Naval Hospital
Camp Lejeune leadership by April 1, 2012.

Furthermore, the Commander provided an update to the Naval Hospital Instruction 6320.55B,
“Pain Assessment and Management,” which was effective May 17, 2011.

Our Response
The Commanding Officer, Naval Hospital Camp Lejeune’s comments are responsive and the
actions meet the intent of the recommendations. No further action is required.




                                                 73
This Page Intentionally Left Blank




               74
Part III. Warriors Speak




           75
This Page Intentionally Left Blank




               76
Warriors Speak: Comments from Wounded
Warriors
We believe that it is important to give a voice to Warriors assigned to the WWBn-East. We felt
that including comments made by Warriors themselves could best illustrate their various
experiences in the unique development of the WWBn-East’s mission and environment.
We interviewed 64 Marine Corps Active Component Warriors, both individually and in group
settings at the WWBn-East. Those Warriors provided positive feedback in the following areas:
   •   Active Component Warriors received equitable access to medical care for the
       condition(s) that required their assignment or attachment to the WWBn-East at Camp
       Lejeune
   •   Warriors consistently reported excellent care and support from WWBn-East staff
       members, to include Recovery Care Coordinators, Transition Center staff, Platoon
       Sergeants, the Family Support Coordinator, and the Family Readiness Officer
We also noted fourteen common themes from Warrior interviews that we believe require the
attention of management and staff from both the WWBn-East and the Naval Hospital Camp
Lejeune. These fourteen common themes were categorized under one of the following four
groups:
   •   Command Climate and Leadership
   •   Preparation for Transition
   •   Health Care Services
   •   Warrior Support and Services

Warrior Good News
Warriors that we interviewed during our visit provided positive feedback in two specific areas:
equitable access to medical care and excellent support and services provided by the staff within
the WWBn-East. This positive feedback is discussed below.

Equitable Access to Medical Care
An overwhelming majority of the Warriors that we interviewed stated that they received
equitable access to medical care for the condition(s) that required their assignment or attachment
to the WWBn-East.

As of September 13, 2010, there were 194 Marines assigned or attached to the WWBn-East at
Camp Lejeune. Of those 194 Marines, none were activated Marine Corps Reservists. Between
April 2007 and the end of our site visit, there have been a total of 10 Reservists that have
transitioned through the WWBn-East. During our interviews, several Warriors commented that
they were unaware that Reservists were even assigned to the WWBn-East as patients. When
asked about equal access to medical care, among all Warriors combat versus non-combat in the
WWBn-East. One Warrior specifically stated that their access to care is “absolutely equal.”




                                                77
Caring and Supportive Staff
Warriors consistently reported excellent care and support from WWBn-East staff, to include
Recovery Care Coordinators, Transition Center staff, Platoon Sergeants, the Family Readiness
Officer, and the Family Support Coordinator.

Recovery Care Coordinators stated that they were responsible for providing oversight of and
assistance to the Warriors in numerous areas of their recovery and transition. Those areas
included, but were not limited to, Comprehensive Transition Plan (CTP) development, financial
counseling, spouse employment assistance, respite care information, and childcare assistance.
Warriors described their Recovery Care Coordinators in the following ways:
    •   “Outstanding”
    •   “Best asset of the battalion”
    •   “A wealth of knowledge”
    •   “Probably the best resources we have”

During our site visit, the WWBn-East employed two Transition Coordinators who assisted with
coordinating job fair information, resume writing classes, and employment opportunities for the
Warriors. Transition Coordinators were lauded for their assistance to the Warriors. One
specifically stated that his Transition Coordinator was “absolutely fantastic” and a “jack of all
trades; phenomenal.” Another Warrior stated that the Transition Coordinators at the WWBn-
East were really great and were helping him with federal-related opportunities. They counseled
him about the National Reconnaissance Office and clearance opportunities, as well as the
National Security Agency and related internship fairs.

Platoon Sergeants were also described by Warriors as helpful and “looking out for them.” One
Warrior stated, and others agreed, that their main jobs were to keep accountability of them and
make sure they made their appointments. Other Warriors commented that “the Platoon
Sergeants are good at getting information to them and pointing them in the right direction if they
need help,” and that “they have their Marines’ best interests at heart and help as much as they
can.” One Warrior specifically added that his Platoon Sergeant “is a good guy and gets involved
with the Marines. He used to be on active duty and knows that bullets don’t discriminate.”

Finally, Warriors also provided positive comments about the Family Readiness Officer and the
Family Support Coordinator. The Family Readiness Officer was responsible for providing
information to families, and for coordinating spousal support groups, luncheons, resiliency
training for spouses, and briefings on available benefits. The Family Support Coordinator
focused on families in the command that are in crisis. One Warrior commented that the Family
Readiness Officer was really good. He stated that she contacted his wife and had gone on a five
mile spouse’s walk to support them. Other Warriors commented that they and their families had
utilized the Family Readiness Officer and/or the Family Support Coordinator for assistance.




                                                78
Warriors’ Concerns
There were several common themes we noted from our Warrior interviews. We believe that
these concerns warrant the attention of management and staff in the WWBn-East and the Naval
Hospital. Warriors’ comments about those concerns are expressed in the following paragraphs.

Command Climate and Leadership
While some Warriors reported that the command climate appeared to be steadily improving,
others reported that there were aspects of command climate and leadership that were hindering
their recovery and transition. Specifically, some Warriors:
   •   Felt that the unit organization and barracks atmosphere were not always conducive to
       their healing and transition
   •   Reported inconsistent and ineffective communication throughout the unit, as well as
       potential Health Insurance Portability and Accountability Act of 1996 (HIPAA)
       violations
   •   Perceived that eligible wounded, ill, and injured Marines were not always accepted into
       the battalion
   •   Conveyed that good order and discipline were difficult to balance because of Warriors’
       drug problems and reckless behaviors
   •   Expressed concern that the command was not adhering to profiles and medical
       recommendations, risking further injury for Warriors

Environment in the Wounded Warrior Battalion-East
The themes of a negative command climate and poor treatment were evident during our Warrior
interviews. Warriors we interviewed cited numerous and assorted examples of detrimental
command climate and callous treatment that led to their anger, depression, frustration, and lack
of motivation.

One Warrior’s description of the environment at the WWBn-East was particularly alarming.
When asked to clarify what stressed him out about being in the battalion, he said, “everything.”
He stated, “I’m treated like a criminal, they are suspicious of everyone, and you constantly have
to prove yourself as if you are guilty until proven innocent. You’re treated like you’re lying
about everything.” He added, “They don’t create an environment of comfort and happiness; they
create an environment of stress and discomfort.” He said that it’s so bad, that guys in the
barracks talk all the time that “someone is going to snap and kill themselves or someone else.”
Other examples of the negative climate and treatment included:
   •   One Warrior commented that the barracks were a depressing place and a lot of the guys
       were depressed.
   •   Another Warrior stated that the battalion was chaos and the drug issue was out of control.
       He thought that the reason nothing was done to the guys caught with drugs was because
       no one wanted to be the guy that kicked out a Marine for drugs. He added that the
       Warriors used their conditions as an excuse for their behavior. He also said that the field
       day on Thursdays was borderline hazing because of the way the guys were treated.




                                               79
     •   A third Warrior stated that they needed to provide a friendlier, more peaceful
         environment because “90 percent of the problems are created by stress.” He added that
         “everyone seems so depressed, angry, and stressed, and they just want to get out of here.”
     •   During a group interview, the Warriors agreed that the WWBn-E had a negative attitude
         and it was best to stay away as long as and as much as possible. One group member
         added, “If I stick around the barracks I’ll turn to shit.” The non-combat wounded are like
         all the bad eggs in one basket; like what happens in prison.”
     •   Finally, a Warrior stated that there is a “prison mentality” here and many of the guys here
         cannot see the “forest through the trees” in terms of their futures. He added that there is a
         lot of misery in the barracks and bad attitudes can get passed around like a cold. He
         stated that the leaders have to keep a close eye on everyone, and that often does not help
         Marines in their recovery.”
How units were organized within the WWBn-East was also a point of contention among
interviewed Warriors. Several Warriors adamantly stated that combat wounded and non-combat
wounded should be in separate units. One Warrior stated that it was a bad idea that non-combat
wounded had access to some of the services provided (such as hunting trips), thus reaping the
rewards the combat wounded have earned. He felt it diminished their sacrifice and that separate
units should be formed under separate commanders.

Another Warrior stated that the combat experienced and wounded guys should be in their own
platoon. His rationale was that combat guys needed to be looked at for combat stress. A Warrior
who was combat wounded in Afghanistan stated that the combat wounded need to be separated
from the non-combat wounded, especially those that were severely wounded in combat. He said,
“I feel as though I have been lumped in with the guys that are here as malingerers and are taking
up the resources being provided for those with legitimate injuries like mine.” Finally, when
discussing unit organization, a Warrior stated, “They are missing unit cohesion, which is why the
combat guys hang together because they can relate to each other. Unit organization is good for
Marines because they understand squads and platoons. These guys need structure.”

Communication within the Wounded Warrior Battalion-East
We were told about several instances of inconsistent and ineffective communication within the
WWBn-East. These instances explained by Warriors mostly consisted of failures to obtain
information in a timely manner and are depicted in the following.
     •   “The battalion needs to “provide information on internship and employment opportunities
         [because] this information is not disseminated at formations.”
     •   “Warriors need to receive more information from the battalion about benefits that are
         available to them, such as Traumatic Service members’ Group Life Insurance.” 42
     •   “There are a lot of last minute things that come up and they aren’t fully communicated;”
         (for example, he had no idea why he was being interviewed today).


42
  Traumatic Service members Group Life Insurance provides for payment to any member of the uniformed services
covered by Service members’ Group Life Insurance who sustains specific catastrophic injuries.




                                                     80
   •   “There are a lot of services here and no one seems to understand what all is available.
       There are communication gaps and challenges and that leaves people frustrated.”
   •   “I feel like the command is organized but I don’t find out information until the last
       minute. The word is not getting out.”

Also brought to our attention during Warrior interviews was the possibility that HIPAA
violations were occurring amongst battalion staff. Multiple Warriors made comments, such as:
   •   A Warrior commented that “confidentiality of personal information is an issue.”
   •   Another Warrior stated during his interview that [a staff member] tells the Warrior “all
       kinds of things” and he thinks [the staff member] is violating HIPAA by doing so.
   •   A third Warrior stated, “There is sometimes a privacy issue in the battalion, but it
       depends on the issue.”
   •   A Warrior informed his interviewer that he did not sign any release forms, yet his doctors
       (at the Military Treatment Facility) released his records, which in his opinion was
       possibly a HIPAA violation.
   •   Finally, a Warrior mentioned that privacy issues are a big problem in the unit. First,
       nurse case mangers “say things” and it is not hard to figure out who they are talking
       about, which he thinks is a HIPAA violation. Second, he stated that [another military
       staff member] will say something about a Warrior needing an appointment and will give
       the Warrior that provider’s appointment sheet to sign up for an appointment. This allows
       the Warrior to see every other Warrior that already has appointments scheduled with that
       provider.

Eligibility of Warriors in the Wounded Warrior Battalion-East
Warriors perceived, and we were told, that Marines may have been assigned or attached to the
WWBn-East although they may not have been eligible. Additionally, some Warriors were
particularly concerned that the title of “Wounded Warrior Battalion” was misleading because the
unit was full of those who were not wounded in combat.

When asked why he was in the WWBn-East, a senior enlisted Warrior informed his interviewer
that because he needed surgery on his knee and was retiring by the end of the year, he decided to
transfer to the battalion so he could free up a slot in his old unit. He stated that this slot was
important to his old unit because they were getting ready to deploy. Another Warrior stated that
entry into the battalion should be out of the battalion command’s control and that an independent
and objective monitoring process should be in place to avoid “cherry picking” Wounded Warrior
entries. Finally, during a group interview, Warriors indicated that they needed better screening
of Wounded Warriors, and that for example, a triage approach for entry into the battalion might
eliminate Marines who may not need to be there. The Warriors explained that some Warriors
“come in with a broken arm and leave with PTSD.”

Additional comments from Warriors included:
   •   “The battalion is full of a lot of non-combat guys. It was originally set up as a Wounded
       Warrior battalion, but that is misleading because so many guys aren’t ‘Wounded
       Warriors.’”



                                               81
   •   “Veterans groups get upset when they come here and find other than combat wounded
       assigned to the Wounded Warrior Battalion. They need to change their name to
       something other than Wounded Warriors because that is not what the unit truly
       represents.”
   •   “When you hear the title of Wounded Warrior Battalion, what do you think of? A guy
       that broke his pinky or a guy that was wounded during war. If there were more Wounded
       Warriors, this would be a good unit. It has swayed so far from what it was stood up to
       be, and they are trying to run it like a regular unit when it is supposed to help wounded
       guys heal and rehabilitate.”
   •   “Wounded Warrior screening should be formal and with clear eligibility criteria; in other
       words, eliminate the “old boys” network.”
   •   “The Wounded Warrior battalion used to be a prestigious unit but now it is a dumping
       ground. I estimate that only 10 percent are combat wounded…the real combat wounded
       will not come to the Wounded Warrior battalion because of its stigma. It is an
       embarrassment to be in the Wounded Warrior Battalion-East because it has become a
       place for lazy Marines to get into and sit around.”

Good Order and Discipline
The Warriors expressed concern with the administration of discipline within the battalion. Some
felt that the discipline was inconsistent, and that the punishment did not always fit the crime.
Specific comments from Warriors concerning the order and discipline within the unit included,
but were not limited to the following:
   •   One Warrior stated that the battalion needed more consistent discipline. He said that
       non-drug offenses (e.g. theft) may lead to discipline and a possible loss of benefits, while
       drug use was not punished as it would be in a regular unit.
   •   Another Warrior stated that the command let everyone get away with murder because
       they are taking sympathy on them [the Warriors]. He added, “Guys are selling illegal
       drugs (heroin, cocaine, marijuana)…but there was no action taken because the battalion
       protects them. While they stick up for the drug addicts, they will nail you to the wall for
       missing an appointment or formation or for sleeping in and missing something because
       you are on sleep meds. It’s backwards.”
   •   A third Warrior added, “The Marine Corps hammers drug users in other units and there
       should be no difference here. I am not talking about a guy that gets hooked on his
       medications. Instead, I am talking about the illegal drug user who uses his wounds to
       hide his habits.” He believed that the reason the command did not crack down harder
       was because of political pressure.
   •   Another Warrior understood that being too strict could negatively affect the “truly
       injured,” but believed that the punishment should still reflect the crime regardless of the
       fact that the Marine was in the WWBn-E.
   •   A Warrior added, “There are often people screaming at Marines who make mistakes and
       the leaders will jump down their throats. A guy who forgets to put a mop away should
       not be yelled at when he has PTSD/TBI. He probably just forgot.”
   •   Finally, a Warrior stated that he was disappointed in the use of drug waivers, and that
       there was no accountability or consistency in how the drug abusers were dealt with. He




                                                82
       said that even after four or five positive drug tests, the command wouldn’t take rank or
       pay away from them.

Adherence to Medical Profiles and Recommendations
Warriors assigned to the WWBn-East were assigned military duties that they performed in
addition to their medical processing, appointments, and military formations. They expressed
concern that due consideration to individual Warrior medical conditions was not given in
developing those duty assignments. Their comments included:
   •   A Warrior explained that having duty was stupid. He said that his profile said that he was
       on limited duty from 9:00 a.m. to 4:00 p.m. and had no night duty, but he was required to
       pull night duty, which required him to sleep in the barracks. He added that sleeping in
       the barracks was hard for him to do without his sleeping pill, and in a strange
       environment.
   •   Another Warrior explained that every Thursday they had to report at five o’clock for field
       duty to mop and vacuum. He said that there were guys on crutches that were vacuuming
       and guys with bad backs on their knees scrubbing base boards. He concluded “It’s
       almost like hazing.”
   •   A third Warrior provided that field day on Thursdays is at 5:00 p.m., “and this is stupid.
       They [the command] think that making it later will enable guys to be there because they
       are done with appointments, but guys still don’t show.” He said that technically, most
       guys’ paperwork says “limited duty,” which means no cleaning or duties, but the
       command makes them participate anyway.
   •   Another Warrior added that field day on Thursdays where they clean was stupid. He said
       that he didn’t mind cleaning, but he would go in an air cast and they wanted him to
       participate, so he was moving boxes while on crutches. He said that the command told
       them, “don’t use your disability as a crutch,” but he wondered what were you supposed to
       do when you actually were on crutches?
   •   Finally, a Warrior stated that a lot of guys drove while medicated; for example, he used to
       drive while on sleep medications around 6:00-6:30 a.m. for formations. He said that the
       doctors would tell them to do one thing (take your sleep medications at nine or ten in the
       evening), but the battalion would tell you to do another (be in formation by 7:00 a.m.).

Preparation for Transition
With regard to preparing for their transitions, Warriors largely:
   •   Varied on participation in transition activities and claimed they needed more vocational
       rehabilitation, such as internships, to assist with their transition to civilian life
   •   Did not recognize that they completed a Comprehensive Transition Plan to assist with
       their transition from the WWBn-East

Activities to Prepare for Transition
Preparation for a successful transition whether returning to duty in the same career field,
returning to duty in a new career field, or returning to civilian life as a productive member of
society, was on the minds of the majority of Warriors we interviewed. For many of those
Warriors, the military and their career field was all the way of life and work they had known.



                                                 83
For those who could no longer carry out their duties in the Marine Corps due to their condition or
injuries, their concern about acquiring new skills and training to prepare for the future either in
the military or in the civilian world dominated their thoughts.

Warriors’ comments regarding their transition activities mostly in preparation for civilian life
included but were not limited to:
   •   A Warrior stated, “They [the command] have great intentions but they need to realize that
       everyone’s goals are different. They need to treat us as individuals and that is something
       for Marine Corps leaders to understand. Any sort of mandatory approach to anything
       here will be met with resistance from the wounded. College kids need to work on college
       and the other guys who need work need to work on their resumes. It is really that
       simple.”
   •   Another Warrior stated that the battalion was doing more to transition them into civilian
       life, to include resume writing and job fairs, but was doing nothing for college
       preparation.
   •   A Warrior added that the climate that promoted going to school started about one month
       prior to our visit. He added that prior to that, the only schooling that was promoted was
       resume writing classes.
   •   Another Warrior stated, “Many folks here miss the point. I needed to know what is
       wrong with me before they tell me to get a [sic] resume! The rules of engagement here
       are like the battlefield in Afghanistan. They don’t know what they are doing, so they deal
       with everyone like we are “boots” and expect everything to work out in the end. It is
       terrible.”
   •   A Warrior was confused as to whether he would return to duty or medically retire,
       stating, “Right now I am lost and confused. I do not know what the future holds and I
       need someone to help me sort all of this stuff out.”
   •   A Warrior stated that he had not started to take courses while at Camp Lejeune because
       he thought the process would not allow him time to complete them. He stated that he
       wished they would allow him to be at home so he could start college while calling in or
       something else for accountability. He stated, “Being at the battalion at a low level of
       activity is not really helpful or necessary.”
   •   Finally, a Warrior stated that he would rather be occupied. He added that he would also
       like to look for a paying job so he could purchase a house, but another Warrior killed that
       opportunity for everyone by getting fired from his job and not letting anyone know what
       he was doing for three months.

Comprehensive Transition Plans
The primary tool used to coordinate a recovering Marine’s and their family’s care is the CTP.
The CTP is based upon information from the Marine’s recovery needs assessment, which is
developed with the help of the Recovery Care Coordinator and takes into consideration various
components such as employment, housing, financing, counseling, family support, the disability
evaluation process, and more. The CTP is owned by the Marine and is aptly referred to as a “life
map” for the recovering Marine and family. It reflects their medical and non-medical goals and
milestones from recovery and rehabilitation to community reintegration.




                                                84
While it appeared that Warriors were discussing their medical and non-medical goals and
milestones with their Recovery Care Coordinators, many of them were not aware that these
discussions were in support of their own CTPs. In addition, many Warriors claimed that their
Recovery Care Coordinators were completing their CTPs for them, essentially releasing the
Warriors from taking ownership of their CTPs and goals. With regard to the CTP, Warriors
provided the following comments:
   •   One Warrior stated that he was “pretty sure” he had heard of the CTP. He said that he
       and his Recovery Care Coordinator just started it about a week ago.
   •   Another Warrior said that he worked with his Recovery Care Coordinator on different
       things (for example, she provided him with job opportunities), but he was not sure if what
       they did was called a CTP.
   •   A third Warrior stated that he wasn’t sure if he had a CTP, but his Recovery Care
       Coordinator did talk to him about his goals.
   •   A Warrior stated that he had never heard of a CTP, transition plan, or 18-month plan, but
       said that his Recovery Care Coordinator talked to him about his goals.
   •   Another Warrior stated that he didn’t have a CTP and wasn’t aware of what a CTP was.
   •   When asked if he created his own CTP, a Warrior answered, “I am unsure of what this is.
       I think the Recovery Care Coordinators do this for us.”
   •   Another Warrior answered similarly to the same question, stating, “I am not sure if I have
       a CTP. I believe the Recovery Care Coordinator does this for us. I am not sure.”

Health Care Services
There were multiple health care-related issues discussed in previous Observations that were also
addressed by Warriors. Warriors specifically reported concerns about access to specialty care
among other issues. Warriors:
   •   Reported that access to specialty care (such as mental health, neurology, and orthopedics)
       was not always timely
   •   Provided mixed reviews about the abilities of and access to their Medical Case Managers
   •   Expressed concerns with pain management, specifically that Primary Care Managers
       were not supporting their pain management needs

Access to Specialty Care
Warriors reported that they were not receiving timely access to certain types of specialty care.
Access to neurology and mental health appeared to be the most challenging. Additional
comments from Warriors about access to specialty care included, but were not limited to the
following:
   •   A Warrior reported that it could take a month and a half to get an appointment. He also
       stated that his psychiatrist would not refer him out even if appointments were not
       obtainable. He said that his care was basically taking medications, with no other therapy
       or resolution of problems (such as his anxiety).
   •   A second Warrior stated that appointments for neurology took a month, and for
       psychologists/psychiatrists about two weeks.
   •   Another Warrior stated that it took an “act of Congress” to get an appointment with his
       neurologist. He added that even follow-up appointments took two months. He said he


                                                85
       believed they were short staffed, and to his knowledge, they were not referring Warriors
       downtown for neurology.
   •   During a group interview, three members of the group stated they needed neurology
       appointments once per month at a minimum, but could only get an appointment every
       two to three months.
   •   A Warrior noted that although he was no longer receiving care, when he did have to see
       orthopedics, neurology, and physical therapy, it took a long time to get appointments.
   •   Another Warrior added that it usually took one to two weeks for him to get a physical
       therapy appointment and up to one month for a pain management appointment.
   •   A Warrior who was transferred from Bethesda Naval Medical Center to Camp Lejeune
       stated that at Camp Lejeune, it took two to three weeks for a psychology appointment and
       anywhere from three weeks to one month for an appointment with a psychiatrist.

Medical Case Managers
Warriors provided mixed reviews about the quality and accessibility of their medical case
managers. Some Warriors stated that they found them to be helpful, providing examples of how
they helped them or expressing appreciation for their expertise and dedication.
   •   One Warrior said simply, She “gets things done.”
   •   Another said his medical case manager “helped prepare an MEB [Medical Evaluation
       Board] packet in record time.”
   •   One said his had “helped with everything through twenty surgeries.”
   •   Other expressions of praise by various Warriors included: “great,” “awesome,”
       “amazing,” “trustworthy,” and “living encyclopedias.”

Other Warriors seemed to run into conflicts or personality clashes with their medical case
managers, and expressed that their primary concern was lack of accessibility, to include their
hours of availability. Other concerns included:
   •   During a group interview, one Warrior stated, “Often we need an appointment now.
       They aren’t available enough. They are closed Wednesday afternoon until Friday, and
       are only open from nine a.m. until three p.m.”
   •   Another Warrior shared, “You have to get an appointment to see them.”
   •   When discussing medical case managers, another Warrior added that they have “no walk
       in or open door policy.”
   •   As far as accessibility, another Warrior added during a group interview, “They need a
       phone line, an assistant, or somebody to answer the phone.”

Pain Management
During individual interviews, Warriors expressed concerns with pain management; specifically,
that their primary care managers were not supporting their pain management needs. Warriors’
biggest concerns were that they felt they were not able to get the pain management care they
needed.

During an individual interview, one Warrior bluntly explained, “There is a pain management
issue in the battalion. Guys are seeking illegal and other prescription meds to cope, but the



                                                86
command sweeps the drug issues under the rug. Since there is a big drug problem, if you go to
[the primary care manager] and ask for drugs because you are in pain, he won’t give meds
because he thinks you will sell or snort them.”

Other Warriors’ comments included:
     •   One Warrior stated that he refused to see his primary care manager because he called him
         a “druggie.” He instead considered his pain management doctor as his primary care
         manager, whom he really liked because he believed in alternative means of therapy,
         instead of popping pills.
     •   Another Warrior stated that his primary care manager challenged his diagnoses and didn’t
         like to give out medications because other guys were abusing; in other words, the primary
         care manager’s philosophy was “don’t give any medications to anyone.”
     •   A Warrior felt he was not getting assistance with his pain management needs because of
         previous problems he encountered. He admitted testing positive for illegal drugs in the
         past, but claimed that he was taking illegal drugs to help control his pain. He noted,
         “Once you get in trouble [for illegal drugs] you can never get away from that stigma.”
         He stated that he had asked for help, but they accused him of shopping for medications.
         He concluded that he felt his primary care manager assumed he was abusing medications
         and therefore, was blocking his access to medications to manage his pain.
     •   Another Warrior also had an issue with his primary care manager questioning his
         medications. He provided an example of his doctor questioning his use of a specific
         medication even though he was dealing with a very personal and difficult issue.
     •   Finally, a Warrior explained that he was taking five to six different medications
         prescribed by multiple doctors. They wanted him to see pain management, but he stated
         that since he’d heard nothing but bad things about pain management, he had been
         avoiding making an appointment.

Warrior Support and Services
There were multiple areas where Warriors believed that they were not receiving the support and
services necessary to assist with timely recoveries or successful transitions. Specifically,
Warriors:
     •   Expressed concerns with the Warrior Athlete Reconditioning (WAR) 43 program to
         include mandatory participation and implementation issues
     •   Reported that assignment to the WWBn-East limited promotion opportunities
     •   Provided numerous issues with their medical board processing, to include incomplete,
         untimely, expired, and invisible medical packages; problematic physician dictations; and
         frustrations with medical board counselors
     •   Provided that they did not have priority for or constant support from certain services, to
         include daycare, appointments, or duty drivers




43
  The WAR program was established as a reconditioning program for the Marines, and to help provide a purpose
for, improve the health of, and instill pride in each Warrior.



                                                      87
Warrior Athlete Reconditioning (WAR) Program
Warriors in both individual and group interviews overwhelmingly reported that they had
concerns about the implementation of the WAR program within the WWBn-East.

A senior enlisted Warrior explained, “As far as the WAR program, because it is mandatory, they
[the Warriors] will push away. The intent of the WAR is to heal, but now the Warrior’s job is to
bicycle, swim, or kayak, etc. This is not reality.” He added that by making the WAR program
mandatory, the battalion was creating a counter-productive end state, stating, “Why would you
leave if you get a full paycheck and ride horses all day?” Finally, he explained that the battalion
“swapped priorities” because they allowed WAR activities to interfere with their medical care.
Specifically, he stated that Warriors could put off appointments to attend other activities, such as
the WAR games or cycling events. Another Warrior agreed that the battalion had swapped
priorities as he was told that WAR activities would trump his physical therapy if there was a
scheduling conflict.

Other Warriors who were concerned about WAR implementation specifically commented about
the requirement for mandatory participation. Specifically:
   •   A Warrior felt that the WAR program was “dumb.” He stated that he had two bad legs, a
       bad back, a stimulator in his back, and balance problems, and didn’t feel he could do
       much of anything, but the WAR had become a mandatory program after the Warrior
       games. He added, “They need to stop forcing guys to do what they [the command] want
       not what the Warriors want.”
   •   Another Warrior mentioned that the WAR program should not be mandatory because “as
       soon as you make it mandatory, guys don’t want to do it anymore.”
   •   When asked about the WAR program, a Warrior stated that he initially enjoyed it when it
       was a voluntary program, but since it became mandatory, he chose not to participate. He
       stated that he was much more comfortable doing physical training on his own and didn’t
       want to be forced into classes he didn’t want to take.
   •   During a group interview, Warriors stated that WAR participation could lead to injuries
       and delay their medical boards. They added that the battalion should conduct a needs
       assessment of Warriors’ conditions before making WAR participation mandatory, and if
       the Warrior was fit and not overweight, that Warrior should be excused.
   •   During a separate group interview with Warriors, group members agreed that a lot of the
       Marines were afraid of incurring another injury as a result of WAR activities.
   •   Another Warrior added, “The WAR program being mandatory is probably a bad idea and
       will be met with resistance from the Marines in the program. I lost 36 pounds in the
       WAR program, so for me it worked. But others are already complaining about the
       program itself, all because of the mandatory application of it.”
   •   A Warrior stated, “One size does not fit all and the WAR program becoming mandatory
       is terrible. They are trying to run this unit like a regular unit and that is not the right thing
       to do.”
   •   Another Warrior commented, “They could not make the WAR program mandatory. I am
       concerned that I will further injure myself if I am forced to participate.”




                                                  88
     •   Another Warrior said that some of the guys were complaining that the WAR program
         was contradictory. “It says don’t PT on your profile, but the battalion expects you to row
         a kayak.”
     •   A Warrior added that he was concerned about the WAR program because they made
         certain things mandatory. He added that he would rather work out on his own in the gym
         because he was tired of the pool and it was not doing much for his weight gain. He
         stated, “The bottom line is that there shouldn’t be a forced requirement; we should get the
         opportunity to choose.”

Promotion Eligibility
Another area of concern for Warriors was that once they entered the WWBn-East, their
opportunities for promotion seemed to come to a halt. One Warrior even considered his
assignment to the WWBn-East as a “career ender.” Additional comments from that Warrior, and
others, are as follows:
     •   That Warrior added that he felt “forced out” of the Marine Corps and the WWBn-East.
         He believed that being in the WWBn-East screwed up his proficiency and conduct
         marks. 44 He said that in his previous units he used to get high marks, but had received
         lower marks in the WWBn-East. He stated that he had no idea why he got such low
         marks, and it had hindered his promotion potential.
     •   Another Warrior stated that since he was injured, he was unable to conduct his fitness
         test, and as a result, was also unable to get promoted to the next rank. He felt that he was
         a “stellar Marine” before his accident and he now would be unable to get promoted to a
         corporal. He felt like his unit sent him to the WWBn-East and forgot about him. He
         stated, “At least if I had a goal like being able to pick up rank, I’d have something to push
         for while I’m here…I’m still a Marine and did not come here to give up.”
     •   A third Warrior stated, “I do not want to transition. I want to get promoted. I cannot get
         promoted because I am an injured guy. I also cannot get my fitness report completed and
         I will have a one year gap in my record since I have not had one for a while. I cannot get
         promoted in the Marines until I leave the Wounded Warrior [battalion]. It seems to me
         that there should be a provision for guys wounded in combat to be seen by the boards and
         not penalized for having recovery time. That is what I would like to see happen.”
     •   Finally, a Warrior stated, “I cannot get promoted meritoriously, so my career is largely
         over since I cannot PT or fire a weapon.”

Medical Board Processing
Multiple Warriors in the WWBn-East complained about certain aspects of the Medical
Evaluation Board 45 process, to include incomplete, untimely, expired, and invisible medical


44
   Proficiency and conduct markings are assigned for Marines in the grades of private through corporal. These
marks record the Marine’s performance, which is used to determine eligibility for reenlistment, qualification for
certain types of duty assignments, characterization of service upon discharge, and computation of composite scores
for promotions.
45
   A Medical Evaluation Board is a panel of providers at a Medical Treatment Facility who prepare a Medical
Evaluation Board report that verifies whether a Service member is fit for duty or refers the case to a Physical
Evaluation Board for disability or fitness determination for continued service.



                                                        89
packages; problematic physician dictations; and frustrations with medical board counselors.
Additionally, multiple Warriors appeared frustrated because expired packages resulted in them
going through the medical board process a second, and sometimes even a third time.

Additional comments from Warriors in both group and individual interviews included:
   •   During a group interview a few Marines stated that their biggest worry was the medical
       board process, and added that a huge problem included the “multiple expirations” of
       medical boards. They provided an example of one Marine who had been at Camp
       Lejeune for four years because of medical board expirations. One Warrior in the group
       stated that his board expired three times, and he was three days [from the date of our
       interview] from a fourth medical board expiration. Another Warrior stated that his board
       was also on the verge of expiring and it was being processed regardless of its
       completeness and correctness.
   •   Another Warrior stated, “Teach people to understand what will make a good medical
       board package. The medical board counselors are the single point of failure, so they must
       be experts in this job. Don’t just hire anyone…it is too critical. Maybe they could
       contract experts to do this so we don’t get messed up like others have in the past.”
   •   A Warrior stated that his first Medical Evaluation Board packet expired because his
       counselor, whom he called “no action Jackson,” did not properly communicate the
       requirements for his package. He added that this was a common problem with at least
       five other Warriors whose packets expired without notice.
   •   Another Warrior stated that he was concerned that his medical board package would
       expire in December while he waited for the battalion leadership to finish part of their
       paperwork. He added that his medical board counselor was “absent” – he didn’t receive
       phone calls from him, and he was not personal or timely. He said that he was waiting on
       his medical board counselor, and there were other guys “in the same boat.”
   •   Another Warrior stated that his medical board package was delayed because the board
       would not accept civilian dictations and he had to have them redone.
   •   A Warrior explained that his medical board packet required a letter about items in his
       packet nearing expiration, but there were no significant changes. After going through the
       hoops to get the letter, he found out that the letter was never sent and no one in the
       battalion took ownership for the omission. He said he restarted the medical board
       process in April 2010, including getting updated medical appointments at both Camp
       Lejeune and the DVA. He said that although he didn’t know what the Medical
       Evaluation Board counselor did, the battalion command blamed that counselor for the
       lapse of his medical board.
   •   Another Warrior explained that he originally completed the medical board process in
       April [2010], but the medical board counselor didn’t mail his package, so he had to retake
       some of the tests because they expired. He said that he had to redo his neuropsychology
       test, get a new mental health dictation, and a new neuropsychology dictation because they
       all expired. He stated that because they are “screwing around with his medical boards,”
       he missed out on an opportunity to work with an Army General in a job that could likely




                                               90
       translate to federal employment. He suggested, “Maybe they should dedicate one or two
       medical board counselors to the WWBn to take care of the Warriors since most of them
       will medically retire.”
   •   Finally, a Warrior simply stated, “The Medical Evaluation Board process is too slow.”

Support Services for Warriors
Several Warriors also added that they did not receive priority for, or get consistent support from,
certain support services. Those support services included, among others, daycare, appointments,
and duty drivers. Comments from Warriors included:
   •   A Warrior provided that the Warriors in the WWBn-East did not get precedence for day
       care. He stated that his wife worked, he was on sleep medications, and because they
       were struggling financially, they just received additional federal assistance to make ends
       meet.
   •   Another Warrior, while providing that he wished there was marriage counseling available
       on base, also provided that he would like to see child care made available.
   •   A third Warrior stated that he would like to see more help with the availability of child
       care. He said that the drop-in daycare at Camp Lejeune wasn’t always available when
       they needed it.
   •   A Warrior stated that he had medical appointments in Greenville, North Carolina, and
       had asked for a duty driver. The duty driver never showed up so the Marine drove
       himself instead of missing his appointment(s), although he was not supposed to drive in
       unfamiliar areas because of his TBI and PTSD.
   •   During a group interview, a Warrior stated there was no priority for members of the
       WWBn-East when scheduling appointments.
   •   Finally, a Warrior also stated that parking was an issue. He said that they used to have
       stickers for their cars for WWBn-East parking, but the command didn’t enforce parking
       anymore. He said that others who go to the gym or sports medicine clinics park in their
       WWBn-East parking lot, resulting in “broken” guys having to park further away to get to
       their barracks.

Conclusion
Warriors provided good feedback about their access to medical care and excellent support and
services provided by WWBn-East staff. However, they also expressed concerns about certain
aspects of their recovery and transition that we believe warranted specific mention. Because
several of these themes were addressed in previous Observations, we are not making formal
recommendations about the Warriors’ concerns expressed in this section. However, we do
recommend that management and staff from the WWBn-East and the Naval Hospital review the
concerns voiced by Warriors to more effectively support their healing and transition.




                                                91
This Page Intentionally Left Blank




               92
Appendix A. Scope, Methodology, and
Acronyms
We announced and began this assessment on April 16, 2010. The assessment was planned and
performed to obtain sufficient evidence to provide a reasonable basis for our observations,
conclusions, and recommendations, based on our objectives. The team used professional
judgment to develop reportable themes drawn from multiple sources, to include interviews with
individuals and groups of individuals, observations at visited sites, and reviews of documents.

We visited the Wounded Warrior Battalion – East (WWBn -East), and the Naval Hospital
located at Camp Lejeune, North Carolina, from September 20 thru September 30, 2010. During
our 2-week site visit to that location, we observed battalion operations and formations; viewed
living quarters, Battalion and Hospital facilities, and selected operations at the medical center;
and examined pertinent documentation. We also performed meetings and interviews – ranging
from unit commanders, staff officers, to civilian staff and contractors, as shown below:
   • Battalion Commander and Command                  • Medical Case Management
     Sergeant Major                                     Advisor
   • Battalion Primary Staff                          • Medical Case Managers
   • Company Commanders                               • Battalion Chaplain
   • Platoon Sergeants                                • Traumatic Brain Injury Clinic Staff
   • Warrior Athlete Reconditioning                   • Behavioral Health Clinical
     Program Director                                   Psychologists
   • Charitable and Veterans Service                  • Pharmacy Staff
     Organizations Program Coordinator                • Hospital Commander
   • Recovery Care Coordinators                       • Directors of the Hospital
   • Transition Center Staff                          • Licensed Clinical Consultant
   • Call Center Director                             • Physical Evaluation Board Liaison
   • Family Readiness Officer                           Officer
   • Family Support Coordinator                       • Senior Medical Department
   • Disability Evaluation System Attorney              Representative
   • Families of Recovering Service                   • Career Planner
     Members                                          • Patient Administration Staff
   • Primary Care Manager
Further, we performed interviews with WWBn-East recovering Marines, to include 64 individual
interviews with randomly selected Marines, and 4 group interviews with additional Marines
grouped by rank.

We prepared standardized sets of questions that were used during individual and group sessions,
which were tailored to the type or group of personnel being interviewed. Those interviews
included, but were not limited, recovering Marines, Recovery Care Coordinators, Platoon
Sergeants, Primary Care Manager, and Medical Case Managers. The standardized interview
questions for these groups included topics such as: access to care, use of Comprehensive
Transition Plans, responsibilities for staff members, working relationships, and discipline issues
within the WWBn-East, among others.


                                                93
Use of Technical Assistance and Computer-Processed Data
The DOD Office of the Inspector General, Deputy Inspector General for Audit, Quantitative
Methods and Analysis Division, used a simple random sample approach to determine the number
of recovering Marines we should interview at the Camp Lejeune WWBn-East to obtain a
representative sample. The random sample was used to avoid any biases that might have been
introduced by selecting interviewees non-statistically.

The analysts used an alpha roster provided by the Battalion that; identified by name, rank, and
WWBn-East company assignment. As of September 13, 2010, there were 194 Marines at the
Camp Lejeune WWBn-East, comprising the total population from which we drew our random
sample.

The analysts used a program called the Statistical Analysis System and its internal random
number generator to assign random values to each individual, then sorted all 194 Marines into
random number sequence. Using this method, the analysts calculated a sample size of 51
Warriors for individual interviews. The sample size is based on a 90 percent confidence level, a
planned margin of error of 10 percent, and the statistically conservative assumption of a 50
percent error rate.

The team used this approach to first determine whether any reportable themes (noteworthy
practices, good news, issues, concerns, and challenges) were identified by those most impacted
by their assignment to the WWBn-E, the recovering Marines. We met with or interviewed others
– ranging from, unit commanders, staff officers, and cadre, to civilian staff and contractors – to
corroborate the identified themes or to identify other reportable themes not readily known to the
Warriors.

On September 15, 2010, we provided the list of Warriors to be interviewed from our randomly
generated sample to WWBn-East. With a requirement of 51 interviews, we selected the first 64
from the randomized roster and sent them to the Battalion to fill the names into the available
time slots. If the Battalion was unable to fill all time slots due to a Marine being unavailable we
provided additional names as needed until the roster was full. We advised the Command that a
justification must be provided for any individuals in that sequence that were unable to attend an
interview. Below are the results from our Warrior’s individual interviews at WWBn-East.

Of the 64 Warriors statistically selected:
   •   52 Primary were interviewed
   •   11 Designated alternates were interviewed
   •   14 were excused
   •   An additional Marine was interviewed that was not in the provided list




                                                94
The Battalion produced or excused all of the required Marines shown in the randomly selected
sample. We believe that the information obtained from the 64 individuals selected as part of our
random sample provided an indication of the views of the total population.

Acronym List
The following acronyms were used in this report.

AHLTA                 Armed Forces Health Longitudinal Technology Application
CHCS                  Composite Health Care System
CONUS                 Continental United States
CTP                   Comprehensive Transition Plan
DES                   Disability Evaluation System
DVA                   Department of Veterans Affairs
EMMA                  Electronic Medication Management System
HIPAA                 Health Insurance Portability and Accountability Act
IDES                  Integrated Disability Evaluation System
LPN                   Licensed Practical Nurse
MCM                   Medical Case Manager
MEB                   Medical Evaluation Board
MTF                   Military Treatment Facility
NCO                   Non-Commissioned Officer
PCM                   Primary Care Manager
PEB                   Physical Evaluation Board
PTSD                  Post-Traumatic Stress Disorder
RCC                   Recovery Care Coordinator
SARP                  Substance Abuse Rehabilitation Program
SNCO                  Staff Non-Commissioned Officer
TBI                   Traumatic Brain Injury
UCMJ                  Uniform Code of Military Justice
VA                    Veterans Administration
WAR                   Warrior Athlete Reconditioning
WW                    Wounded Warrior
WII                   Wounded Ill and Injured
WWBn-East             Wounded Warrior Battalion East
WWBn-West             Wounded Warrior Battalion West
WWR                   Wounded Warrior Regiment




                                               95
Appendix B. Summary of Prior Coverage
During the last 6 years, there has been a multitude of prior coverage on DOD and Department of
Veterans Affairs (DVA) health care services and management, disability programs, and benefits.
The Government Accountability Office (GAO), the Department of Defense Inspector General
(DOD IG), and the Naval Audit Service have issued 10 reports specific to DOD Warrior Care
and Transition Programs. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted DOD IG reports can be accessed at
http://www.dodig.mil/PUBS/index.html. Naval Audit Service reports are not available over the
Internet.

GAO
GAO Report No. GAO-12-27R, “DOD Mild Traumatic Brain Injury,” October 24, 2011

GAO Report No. GAO-12-129T, “DOD and VA Health Care: Action Needed to Strengthen
Integration across Care Coordination and Case Management Programs,” October 6, 2011

GAO Report No. GAO-11-551, “Defense Health Care: DOD Lacks Assurance that Selected
Reserve Members Are Informed about TRICARE Reserve Select,” June 3, 2011

GAO Report No. GAO-11-572T, “Federal Recovery Coordination Program Enrollment,
Staffing, and Care Coordination Pose Significant Challenges,” May 13, 2011

GAO Report No. GAO-11-633T, “Military and Veterans Disability System: Worldwide
Deployment of Integrated System Warrants Careful Monitoring,” May 4, 2011

GAO Report No. GAO-11-32, “VA Health Care: VA Spends Millions on Post-Traumatic Stress
Disorder Research and Incorporates Research Outcomes into Guidelines and Policy for Post-
Traumatic Stress Disorder Services,” January 24, 2011

GAO Report No. GAO-11-69, “Military and Veterans Disability System: Pilot Has Achieved
Some goals, but Further Planning and Monitoring Needed,” December 6, 2010

GAO Report No. GAO-09-357, “Army Health Care: Progress Made in Staffing and Monitoring
Units that Provide Outpatient Case Management, but Additional Steps Needed,” April 20, 2009

GAO Report No. GAO-09-31, “Defense Health Care: Additional Efforts Needed to Ensure
Compliance with Personality Disorder Separation Requirements,” October 31, 2008

GAO Report No. GAO-08-635, “Federal Disability Programs: More Strategic Coordination
Could Help Overcome Challenges to Needed Transformation,” May 20, 2008

GAO Report No. GAO-08-615, “DOD Health Care: Mental Health and Traumatic Brain Injury
Screening Efforts Implemented, but Consistent Pre-Deployment Medical Record Review
Policies Needed,” May 30, 2008




                                              96
GAO Report No. GAO-08-514T, “DOD and VA: Preliminary Observations on Efforts to
Improve Care Management and Disability Evaluations for Servicemembers,” February 27, 2008

GAO Report No. GAO-07-1256T, “DOD and VA: Preliminary Observations on Efforts to
Improve Health Care and Disability Evaluations for Returning Servicemembers,” September 26,
2007

GAO Report No. GAO-06-397, “Post-Traumatic Stress Disorder: DOD Needs to Identify the
Factors Its Providers Use to Make Mental Health Evaluation Referrals for Servicemembers,”
May 11, 2006

DOD
Department of Defense Recovering Warrior Task Force, 2010-2011 Annual Report, September
2, 2011

DOD IG
DOD IG Report No. SPO-2011-010, “Assessment of DOD Wounded Warrior Matters – Fort
Drum,” September 30, 2011

DOD IG Report No. SPO-2011-004, “Assessment of DOD Wounded Warrior Matters – Fort
Sam Houston,” March 17, 2011

DOD IG Report No. IE-2008-005, “DoD/VA Care Transition Process for Service Members
Injured in Operation Iraqi Freedom/Operation Enduring Freedom,” June 12, 2008

DOD IG Report No. IE-2008-003, “Observations and Critique of the DoD Task Force on
Mental Health,” April 15, 2008

Army
Army Audit Report No. A-2011-0008-IEM, “Army Warrior Care and Transition Program,”
October 21, 2010

Navy
Naval Audit Service Report No. N2009-0046, “Marine Corps Transition Assistance Management
Program - Preseparation Counseling Requirement,” September 15, 2009

Naval Audit Service Report No. N2009-0009, “Department of the Navy Fisher Houses,”
November 4, 2008




                                             97
Appendix C. Reporting Other Issues
We are performing the Assessment of DOD Wounded Warrior Matters at multiple Army and
Marine Corps locations and plan to report on each location separately. This report focused on
whether the programs for the care, management, and transition of Wounded, Ill and Injured
Marines at the Wounded Warrior Battalion – East, Camp Lejeune, North Carolina, were
managed effectively and efficiently.

We also plan to report on issues, concerns, and challenges that were common amongst most, if
not all, the Wounded Warrior Battalions and detachments at the conclusion of our Marine Corps
site visits. That report or multiple reports will be provided to appropriate organizations to
provide information on or identify corrective actions addressing those issues, concerns, and
challenges. Those organizations may include but are not limited to the Office of the Deputy
Under Secretary of Defense for Wounded Warrior Care and Transition Policy; the Deputy
Commandant for Manpower and Reserve Affairs; the Wounded Warrior Regiment, and the U.S.
Navy Bureau of Medicine and Surgery.

This appendix captures issues, concerns, and challenges we identified at the WWBn-East and
Naval Hospital Camp Lejeune (with corresponding page references noted) that may likely be
included in an additional report(s). We may issue an additional report(s) before the conclusion
of our Marine Corps site visits if we consider these other matters of interest urgent.

                         Table 6. Potential Items for Future Reports

                                                                                    Report
                       Issue, Concerns, and Challenges
                                                                                  Reference(s)
 Difference in the Delivery of Healthcare for Active Duty, Guard, and             Page 25-26
 Reserve Warriors?
 Timely Access to Specialty Care                                                  Page 50-56
 Lengthy Transition Times                                                         Page 57-62
 Medical Case Management Staffing                                                 Page 63-65
 Medication Management                                                            Page 66-73




                                               98
Appendix D. Office of the Secretary of Defense for Health
Affairs Comments




                                  99
               Ass•ssmenl of UoO Wounded Warrior Mlltters -Camp Lejeune
                   Project No. D21JJO-JJOOSP0-0209.00, .December 9, 20 II

                         1'MA RESPONSE TO R.ECOMI\1ENATIONS


RECOMMENOATION 0 .3: We n.Xlornmcnd thut thc Undcrsecrerary 11fDef~nsc for Por<onncl
and Rcatlinc.s, coll tJ>ly willllhc rcquircmct\tto replace the existing Dirccti~c-Type
Mcmoron<hnn 0~·033, lnt.'l'im Ciuitlancc for Cli11ical Case Manngement for the Wounded. Ill .
•nd lnj tircd Se~icc Mcrnhcr in the Military Health System. and develop a DoD htSit\!Ction
C$tnbllslUng adeqtmte Mccli~nl Case Manugcr.r s talling ratio~ Sftecilic 10 Wounded Warrior
progmms based c•n pultent caro acuity, comp lexity. and cvideJtce-bascd practitc.s.

Thi A Rosnnns•:: Concur. TMA <>un<u.rs wtlh Ute r~<commcndation to comply with transition <>f
DTM 08-033 into a DoOI and con<:u r!< in working towards establishing cas.: manager staffmg
mtio~ Ihat will consider vanablo5 a:>su~iatcll wilh "'uily and ~o!llpl~~ily of care coordination
rcqu1rentcnts. and consi;:wnt with tlte si:ttutury l'oqwreuteuts of the N'ational Defense
Authori7.ation Act ft.r fiscal Year .2008. Section !Gil lc)(S}(C) rccogniztng thnllhc sccrcmrics of
the Military O~pnnmcvts conccm!!tl may wai~c su~h llmiwtion with 1\.'Spcct to a given tni1nl!gCr
tor nol mor~ th•n 12!1 day~ in tllc c!V<I1l of wtforcsc~n circumstances.

RECOMMENOATION 0 .4.1: Office of A>'llistant ScerctaryofDcfcnsc. Health Affuirs.
ensure that the Pham•ncy Data Transacti<)n ServictdArmc-d Forces H~~lth l.Alngitudinnl
Technology Application i~terf:1c~ atlcquatt:ly suppuns tUc medication reconciliation for
prcscrl)>tions not ordered in the CompOsite Heulth C= Syswm.

TMA Rc.<non~e; Concur. Effons arc wtdcrway to enhance the medical reC(>ncili<tiion cnp~bilily
within AltLT NCompOsitc Health Care System (CHCS). Currently, DoD h03l.thcaro pmvitlcrs
are :tblc to dot:ument <:lhll!gcs to medication orders mndc by DoD providers but nre unnhlc ro do
so ior mediL-ul!ou ord~rs fromuou-DoD providers, to include VA ond civilian pmvidcrs. Two
system chang;;, request.~ ~SCR.~) have been approved to address lhis!

       Allow users to mark as ''Toldng!Nnt T;1king" each patient's curreut medkations
       rcgatdlcss of the source system."     For cxnmple, the sourct! ~yst•m> mcludc but are noi
       limited tn AJ LLT A., CHCS, VA, or POTS. This updaw tan b< 'lone during a f13liclll
       encouotcr or withou.t initiating M encounter.

       Chongc thcsta(U$ or a medication lo "Ta.king/Nol Takiul\" wLcu a user marks au over the
       counter (OTC) mcdicotion ns "Toking/Not Taking".

Cuucntly. lhese eo.hMccmcnts 11re- t~rgctcd 1\)r 1\mdrng in fiscal Year (FY) 2014.




                                                                        100
               Assc:s.,mcnl or OoO Wounded Wllrrior Mat1ers · Cilmp Lejeune
                    l'raject Nff. 02010-DOOSP0•(/1119.1/0. Occcmbcr 9, !011

                                  TEC HNICAL COMMENT

· l'Qgc 30. Recommend •b~ foll!lwing changes be m.~dc on pngc 30. Rationale: With lhc
dcploymi.'O I of Ali LTA Block ~ haltud (which included a dcntol applicathlllllnd t•plicol ordering
system), AHLTA remains the DoD outp~tient elccrronic health record. AHLTA is only ~vailablc
nf Mililnry Trealment Facilities.

Current
1
 ' Armed Forces Health Longitudinal Te-ch nology Application (AHLTA) I$ the mcdicol and
drnrullnfonuatlon system tlmt geJtcratcs a (sic) maintains M comprehensive, lifrloog,
computer-based paticnt•·rcord for every Soldier, Sallor, Alrnt~~n, and ;'l 'brin..; tbd r family
membc.rs; and othoers entitled to DoD milltary health care.

Recommendoo
" Armed Fo•·ces Jie<A.ltb Longitudlnal Technology Applkat\on (AIU.TA) 15thc cllnlatl
llll'ormaUon sy$lem tl1al generates and maintalns a lifelong, computer-based outpatient
record for· every Soldier. Sailor. Airman, aod Marine: their family members: and otbers
•utltJed to Dol) mi.Utary care who receives care [o a military treatment faciUty.




                                                                       101
Bureau of Medicine and Surgery Comments




                              102
DoD IG Report: Assessment of DoD Wounded Warrior Mailers - Camp Lejeune
Project No. D2010-DOOSP0-0209.002
January 9. 2012

BUMED M94 (Wll Prognun Suppo•1) Conmtcnts

OvCJ"aU Comments :
Navy Medi cine welcomes the opportunity to respond to the recommendations for improved
wow1ded warri or care at Naval Hospital Camp Lejeune.

Recommendations:

D.l.la Establish policies and procedures to uniquely identif.y Wounded Warriors assigned or
attached to a Wounded Warrior Battalion in the Composite Health Care System, so that
established DoD TRICARE access to care standards specifically fo r the Wounded WarTior
population cru1 be tracked.

Concur - with comments

COMMENTS:

In July 2011, BUMED M9 sponsored a multi-regional, multi-disciplina•y working group to
exantine programs/systems cun·entl y used to collect/monitor deployment or wounded ill and
injured data/infonnation. The most promising platform appears to be t11e Combat Neurotrauma
Registry (CNR), developed by staff at the aval Center for Combat and Operational Stress
Control (NCCOSC). 1l1is registry was ori ginally developed to support the Southem Califomia
Office ofNeurotrauma (ONT) efforts to identi fy, monitor and track service members diagnosed
with traumatic brain injury (TBI). CNR is deployed at aval Med ical Center San Diego, Naval
Hospital Crunp Pendleton lmd Naval Hospital Twenty-Ni11e Palms. With significru1t
modifications m1d linkage lo NMCPHC databases, tlus CNR platform will likely provide tl1e
architecture for a tL~able Wll registry for the regions, and the ultimate linkage to the Composite
Health Care System.

Additionally, one of our clinical regions is incorporating ass igning wounded warriors with
Health Care Deli very Code 0415 with DEERS/CHCS. Enterprise-wide solution is pending
further review of all options.



D.l.lb Estab lish policies and procedures to ensure Wounded Warriors assigned or attached to a
Wounded Warrior Battali on receive every medical appointment within established DoD
TRICAR E access to care standards.




                                                            103
Concur- with comments

COMMENTS:

Wounded warriors assigned to the Wounded Warrior Battalion typicall y are afforded the services
of clinical case management at the military treatment facility and or embedded within U1e
Battalion. These warriors are also enrolled/assigned a primary care provider for managing all
health concems within the Medi cal Home P01t. Central to the mission of this health care terun, is
to ensure said wru1·iors are afforded timely access to qualit y care with the military treatment
facility ru1d purchase care. Resolution of any clinical staffing concems addressed below should
assist in alleviating ru1 y access to care challenges. Guidru1ce on the existing policies ru1d
procedures will continue to be discussed to ensure current and emerging gaps and challenges are
addressed.



D.l.lc Based on results of the Naval Hospital Crunp Lej eune mru1power study and the
Commander 's recommendations (see below), take appropriate actions to provide adequate
staffing for all specialty medical care activities assigned to Camp Lejeune.

Concm·

COMMENTS

Navy Medi cine will assess the va lidated resul t~ of the referenced manpower study for any follow
on staffing actions.



BUMED M3B22 (BU~ffiD N:tvy PhaJ·macy Consult:mt I Specialty Leader) Conunents

Ovet·:tll Comments:
tn response to the DoD IG report, it should be noted that there is overlap in the recommendations
under Section C.3 and Section D.4.; therefore, the responses cru1 apply to multiple
recommendations.

Recommendations:
0.4.1. Office of Assistant Secretary of Defense, Health Affai rs, ensure that the Pharmacy Data
Transaction Service/Am1ed Forces Health Longitudinal Technology Application interface
adequately supports the medication reconciliation for prescriptions not ordered in the Composite
Health Care System.




                                                           104
[Note comments also apply to D.3.l.b]

Concm· with conm1ents
All prescriptions for Wotmded Waniors (or any TRlCARE beneficiary) filled at the Miljtary
Treatment Facility (MTF) populate the Military Health System's pbannacy profLie screening
application called Phannacy Data Transaction Service (POTS). All prescriptions prescribed by
civilian providers in the community and filled in non-MTF pham1acy settings by Wounded
Warriors (or any TRICARE beneficiary) populate POTS. Prescriptions are reconciled
appropriately via POTS when entered by a provider using AHLTNCHCS and again when
presented to a Retail Network Pharmacy, the TRICARE Mail Order Pham1acy or a MTF
phamHtcy. Prescriptions not entered through AHLTA/CHCS (i.e. civili<Ul provider) would be
reconciled when presented to a Retail Network Phannacy, the TRICARE Mail Order Phannacy
or a MTF phannacy. Only if a Wounded Warrior (or any TRICARE beneficiary) chooses not to
use TRICARE for their prescription (i.e. pays with cash), will POTS not be reconciled and
populated.

TI1e statements attributed to battalion leaders on page 45 of the DoD IG report that, "there was
no real check between civilian and miljtary medical providers of medications. As a result,
Marines could and did duplicate prescriptions in excessively large quantities because the two
systems were not reconciled", are inaccurate. 1l1e report should clarify the purpose and
functionality of POTS. Since TRICARE beneficiaries have the ability to choose multiple Points
of Service (Retail, Mail-order, and MTF), POTS is populated with all prescriptions and the
systems are reconciled to provide pharmacists with the ability to conduct drug interaction checks
along with other checkpoints conceming the prescription.

 In addition, mi litary providers using AHLTA or CHCS have the abi lity to review the patient' s
prescriptions profile, regardless of which Point of Service the patient selected under the
TRJC ARE Phannacy benefit. Providers receive hard edits in AHLTA (data supplied from
PDTS) for therapeutic duplications, drug interactions and overlapping prescriptions that they
review and can only proceed with an oven-ide.



D.4.2.a Update command policies and procedures for overaU medicatjon management to include
polypharmacy management, medication reconciliations, and pain management practices
including use of altemative therapies.

Concur with comments

A review of directives and procedures for medication management may mitigate some of the
issues identified in the report, but licensed professionals are generally given latinade on selection




                                                             105
of treatment options and how pharmaceuticals are prescribed, dispensed, and administered, based
on professional judgment and specific patient presentation.

0 .4.2.b Coordinate with Wounded Warrior Regiment to detennine if the Electronic Medication
Mru1agement System is ru1 appropriate method to assist in tl1e proper dispensing of medications
to Warriors assigned or attached to Wounded Warrior Battalions.

(Note comments also apply to C.3.l.a]

Non-concur

111e EM MA system is a vendor-specific system. The DoD IG report cites EMMA on pages 45
and 66. There are other electronic supported and non-electronic means to meet the identified
requirement at the wounded warrior barracks, so the DoD TG report should not recommend a
vendor-speciilc system. Evaluation of the most appropriate method to control medication
access/administration can be accomplished, to include patient population studies.



 We recommend that the COilllllanding Officer, Navy Medicine East, develop and implement
policy ru1d procedures to ensure that there is a regularly scheduled and/or available procedure for
discarding of Warriors unused ru1d/or un-needed medications.

[Note comments also apply to C.3.l.c - Establish procedures for the disposal of prescription
medications that are no longer needed by the Wounded Warrior.]

Concur with comments

Since a large percentage of prescriptions for Wounded Warriors are controlled substru1ces, there
is uo lawful method for hospital or battalion stall' to receive or "take-back"' these controlled
medications from the patient. The Controlled Substru1ces Act prohibits this so there are limited
options concemi.ng retums of unneeded medications, except to law enforcement personnel.
Allowing the patients to drop-off medicati ons in a secure locked box is ru1 option. but per
regulations and consultations with the DEA, the box must be monitored and guarded 24 hours a
day. TI1is severely li mits accessibility for patients.

 It should be noted that previous take-back initiatives run by DEA ru1d local comnumd have had
extremely low participation rates. An altemate solution is to limit the total amount of medication
dispensed by increasing the freq uency 1md decreasing the size of refills (e.g. dispense a 2 day
supply) vs. developing a means to retrieve excess quantities from the Wounded Warriors.

111ere is pending regulatory changes as a result of the Safe ru1d Secure Drug Disposal Act that
was signed int o law on October 12, 2010, but until the proposed rul emaking is issued by the
Attomey General. there is no process to follow. TI1is law is intended to allow indi viduals to




                                                            106
more easil y and safely dispose of contro lled substances while reducing the chance of diversion.
Under the law, a patient who has "lawfull y obtained a controlled substance" may now deli ver
uDused porti ons of that contTOlled substance to another entity for destruction without a Drug
Enforcement Agency registration if: 1) the person receivu1g controlled substru1ce is "authorized"
to do so under the law; and 2) the drug is disposed of in accordance with regulations issued by
the Attomey General.

llu: law addresses a longstanding issue where patients were not allowed to retum drugs to a
DEA registrant because such a retum would be outside the "closed chain of distribution"
established by the Controlled Substances Act. 111is law will provide DEA with the authority to
promulgate regulati ons to facilitate such retums but does not authorize DEA to rnandate tbat
entities establish a disposal program.




                                                          107
Wounded Warrior Regiment and Wounded Warrior
Battalion East Comments




                             108
                         UNITED STATES MARINE CORPS
                          WOUNDED WARRIOR BATTALION-EAST
                                   PSC BOX 20008
                             CAMP LEJEUNE, NC 28542.0008
                                                                 IN Fle.PI.Y REFER TO
                                                                 1000
                                                                 co
                                                                 22 Dec 11
From:   Commanding Officer, Wounded warrior Battalion-East
To:     Office of the Inspector General, Department of Defense
Via :   Commanding Officer, wounded Warrior Regiment

Subj:   ASSESSMENT OF DOD WOUNDED WARRIOR MATTERS - CAMP LEJEUNE (PROJECT
        NO. D2010-DOOSP0-0209 . 002)

Ref:    (a) DODIG Memorandum of 9 December 2011 (NOTAL)

1. Pursuant to the reference, this letter comments on the recommendations
provided in the draft report by the Inspector General, Department of
Defense as t he result of their visit to Wounded warrior Battalion-East in
September 2010.

2. Int r oduction to response : The DoD IG team was granted unlimited
access to staff members, patients, and families of wounded warriors during
their visit in September 2010. Although their visit was over 15 months
ago, and we were unfamil i ar with their f i nd i ngs until receipt of the draft
report, it should be noted that the following changes took place between
September 2010 and December 20ll that have a direct impact on the findings
relevant to the report :

    a. In J u ly 20 11, the wounded warrior barracks moved into a new 3-
story, lOO-room/200-man barracks located at hospital point, Camp Lejeune.
The new wounded warrior compl e x is ~mile from t he Naval Hospital, thus
granting more direct access to medical care and administrat i ve assistance
during the Integrated Disability Evaluation System. Per DoD memo l8
September 2007 (DoD Housing Inspection Standards for Medical Hold and
Holdover Personnel) , each room includes the followi ng amenities at no cost
to the occupants of the barracks:

             32" flat - screen TV
             Cable television
             DVD player
             Internet service (hard-wire), plus Wi Fi in the common areas
        ·•   Local telephone service

    b . An organizational climate survey was completed in February 20ll,
by wounded warriors assigned to WviBn- E at Camp Lejeune. Appropriate
reinforcing behaviors and corrective actions were implemented as a resu lt
of the climate s u rvey. Additionally, I have d i rected another Defense
Equal Opportunity Climate Survey to be comp leted in February 2012 . Th is
survey will also target the issues raised by wounded warriors during the
DoD IG visit to ensure those problem areas do not still exist.




                                                 109
Subj:   ASSESSMENT OF DOD WOUNDED WARRIOR MATTERS- CAMP LEJEUNE (PROJECT
        NO. D2010-DOOSP0- 0209.002)

    c. The Battalion leadership implemented quarterly New Join
Orientation briefs for all wounded warriors, their family members, and all
new bat t alion/company staff members. The first presentation was conducted
in September 2011, the second in December 2011 . Topics presented include
Recovery Care Coordinators, IDES Process, Medical Case Management , Career
Planning (PLD/EPLD), warrior Athlete Reconditioning Prbgram, Transition
Assistance, Charitable Organizations, etc. These events are targeted to
educate wounded warriors, family members, and staff members on the
resources available to them.

     d. This Command conducts. unannounced SACO-facilitated urine drug
screening in compliance with MCO 5300.17 in order to detect unauthorized
consumption of controlled or illegal substances. The Command has also
involved NCIS and military working dogs to find unauthorized drugs. These
actions serve as deterrent measures n ecessary to support prevention
programs and enhance personal and mission readiness. Additionally,
medical urinalysis screening is a key tool used by t he WWBn-E medical
staff to provide a more complete picture of patients' pain medication use.
This is an important tool in the treatment of chronic pain. Medical
urinalysis screening can provide accurate, periodic monitoring of
patients• pain medication use. The goal is to reduce the risk of a
patient's misuse or abuse of a prescribed medication. It also enables
medical staff to learn about any controlled substances a patient is taking
and potentially harmful drug-to-drug interac tions. The medical urinalysis
screening ultimately enables the physician to better understand pain
treatment effectiveness, and helps create better patient outcomes while
enhancing safety . Medical urinalysis screening is conducted regularly in
accordance with Battalion Order 6000.1B, "Procedures for Facilitation of
the Wounded Warrior Battalion-East Prescription Reconciliation Program,"
and is not shared with battalion leadership in order to safeguard patient
privacy.

    e. Regarding child care availability aboard Camp Lejeune, the Child
Youth and Teen Programs recently opened one new Child Deve l opment Center
(CDC), with two more CDCs scheduled to open in January 2012. By the end
of 2012, chi ld care spaces will have increased from 600 to 1,800 (+1,200)
allocations for c hildren aged 6 weeks to 5 years. While not routinely
available, priority c h ild care for wounded >~arriors attending medical
appointments is available if facilitated through the battalion Family
Readiness Officer (FRO), as necessary. The FRO has assisted multip l e
families with priority child care over the past year, and routinely
announces her availability to do so at various meetings , via quarterly
newsletters, and via family readin ess e-mail notifications. Discounted
rates are available to those in need on a case-by-case basis.

3. Recommendation C.l. We recommend that the Comman der, Wounded Warrior
Battal ion-East deve l op procedures and training for Warriors to ensure that
they are active participants in the development of their Comprehens i ve
Transition Plan, and that it is i n divi dua l ly tailored and effective in
f u l f i lling their transition goals .

Wounded Warrior Battalion-East comment: Concur with comment. Since the
DoD IG ' s visit in the fall of 2010, process changes were put into place to
improve usage and awareness of the Comprehensive Transition Plan (CTP);


                                      2




                                               110
Subj :    ASSESSMENT OF DOD WOUNDED WARRI OR MATTERS - CAMP LEJEUNE {PROJECT
          NO. D2010· DOOSP0 - 0209 . 002)

now referred to as the Comprehens i on Recovery Plan (CRP) .

          The DoD's Wounded Warrior Care and Transition Policy {WWCTP)
         released the Recovery Coordination Program Support Solution {RCP- SS)
         to the USMC in October, 2010 and the Marine Corps met full
         implementation in Apr il 2011 .

            o    RCP · SS i s the technology tool that hou ses the CRP .
            o    RCP-SS allows RCCs to create, store, and update the elements
                of the CRP including needs, goals, actions , and completion
                date s .
            o    RCP -SS provi des a standard CRP across the Wounded Warrior
                Regiment and allows a CRP to be easily transferred from one
                RCC to anot her. The standard format and easy transfer enables
                the RCC program to provide continuity and stability to Marin es
                when they transfer from one MTF or location to another.
            o    RCP-SS allows program management a nd Wounded warrior Regiment
                leadership to view any CRP at any time. Th is enables care
                coordination a nd a mature quality a ssurance program .
            o    As of December 2011 , the USMC RCC Program was the first
                service program to have fully imp l emented RCP·SS.

          Since April 2011, the RCC Program has implemented a robust training
         program to provide RCCs with the t ools they need to properly
         document a Marine's needs, goals, and required actions i n the CRP.

            o     RCCs are trained o n methods to capture Mari ne's needs,
                translate those needs into concrete goa l s and t he n provide
                specific, act i onable steps that t he Mari ne can take to meet
                t hose goal s.
            o     Th e CRP i s written in the Marine's own words encouraging buy-
                in and follow-through. The RCC works with the Mari ne to set
                meaningful goals, de t ermine achievable steps, and dec i de t h e
                best timeline for comp l etion of ac t ions. The RCC maintains
                the status of each step so the CRP remains a living document .
          RCCs , Secti on Leaders , a nd Wound ed Warrior Battal ion transition
         staff work closely to ensure that Mar i ne's goals are realized and
         that efforts are coordinated .

          Si nce Augus t 2011, the RCC Program has implemented a qua l ity
         assuran c e p r ogram to ensure consistent CRP development and
         documentation . RCC Program Management audits 10% of RCC caseload s
         every quarter and conducts spot audits dai l y.


4. Recommendation C. 2 . We recommend that the Commander, Wounded Warrior
Battalion-East develop a comprehensive training and orientation program,
to include roles and responsibilities of recover y team members, and
ongoi ng educational training opportunities to ensure that recovery team



                                         3




                                                  111
 Subj:    ASSESSMENT OF DOD WOUNDED WARRIOR MATTERS- CAMP LEJEUNE (PROJECT
          NO. D2010-DOOSP0-0209.002)

 members are prepared to deal with the challenges of helping Wounded
 Warriors heal, recover and transition either back to active duty or return
 to civilian life.

Wounded warrior Battalion- East comment: Concur with comment . Over the
past 18 months, we have created and implemented a robust tra i ning program
for all military and civilian staff.

First, we conducted a series of resilience and ongoing education sessions
for WWBn-E staff . Classes are facilitated by professional instructors and
are mandatory training for all battalion staff, both military and
civilian; including contractors and direct support personnel (i.e.,
medical case managers, medical board c l erks, l icensed cl i nical consultant,
etc . ). Resilience training and ongoing education classes i nclude:

         Classes conducted mul tiple times to provide staff with an
         understanding of PTSD and TBI from a caregiver's perspective, and
         conveyed knowledge that can be appl ied to develop skills that
         promote effective management and supportive interactions with
         service members that have overlap of psychiatric, cognitive, and/or
         neurological impairment.

         Stress management classes conducted to address caregiver burnout.
         Training enabled participants to identify elevated stress levels,
         which can adversely affect the work environment, and implement
         copi ng mechanisms. Information provided during the training
         expanded the staff's knowledge base, wellness, increased staff
         morale, camaraderie, and teamwork.

         Other mandatory classes over the past 15 months for staff included :
         Ethics and Charitable Organizations; Acceptance of Gifts; Substance
         Abuse Rehabilitation; Spirituality; Medication Safety; Internal
         Communication, Teamwork, Leadership, Cl ient Relations, Presentation
         Skills, conflict Resolution, Appropriate Humor in the work Place,
         and Effective Team Building.

         Elective courses were offered to battalion and company staffs by the
         WWBn-E Licensed Clinical Consultant over the past 12 months:
         Compassion Fatigue, Understanding Culture, Grief, Substance Abuse,
         Survivor's Guilt, Stress Management, Behavioral Health Emergencies,
         Post Traumatic Stress, and Traumatic Brain Injury.

All wounded warrior Regiment recently implemented computer-based training
courses that are required to be completed by all staff members, military
and civilian. Courses include: Integrated Disabili ty Evaluation System;
Identifying Signs and Symptoms of Suicide; Intervening in Suicidal Crisis :
Fundamentals of Reserve Medical Entitlements Determination; fundamentals
of Traumatic Servicemembers' Group Life Insurance; Introduction to the
District Injured Support Coordinators; Veterans Support Organizations:
Recovery Team Meetings; Care for the Caregiver; The U.S. Marine Corps
Permanent Limited Duty/Expanded Permanent Limited Duty Programs; Special



                                        4




                                                 112
Subj :    ASSESSMENT OF DOD WOUNDED WARRIOR MATTERS- CAMP LEJ EUNE (PROJECT
          NO. D2010 - DOOSP0-0209 . 002)

Compensation for Ass i stance With Activities of Da i ly Li ving , etc.

Special staff members attended the following cou rses based on requirements
of their respective position s:

         North Carol ina Area Health Education Center Workshop , "Leading
         Oneself and Others through Change and ~ransition" (October 2011) .
         Th e pu r pose of this course wa s for parti c i pa nts to gain ins i ght and
         s k ills to enhance i nd i v i dua l resilien cy in t he face of uncer t ain ty
         and rapid c ha nge .

         Discussing Therapeu tic Op tions for Mu l tiple Sclerosis; Retu r n ing
         from War with I nvisible Wounds; Brai n Train Master i ng t he Captain' s
         Log; 2011 Smi t hsonian/Navy Med ic ine Conference Series Wounded
         Warrior Care : Annual Case Managemen t Society of America Conference;
         Sth Annual Defen s e and Ve t e r ans Brain Injury Summit, 4 th Annual
         Mil i t a ry Healt h Symposium, "Striving Towa rds Bnhanced War f i ghter
         Mental and Physical Healing and Strength" (schedul ed for March
         2012) .

5. Recommendation C.3.1.a. Determine the appropriateness of and
implement the Electronic Medication Management System for designated
"high-risk" and other potentially vulnerable Warriors.

Wound ed Warrior Battal ion- East resp onse :      Concur wi th comment .

Wounded Warrior Battal ion - East commanding officer and selective staff
members were briefed on t he Electronic Medication Management Assistant
(EMMA) sys t em early 20 10 and convinced of its a pplicat ion for " high-ri sk"
a nd vulnerable wound ed warri ors. However, as stated i n the d raft DOD IG
Report, the EMMA s y s tem has not been a pproved by the Navy Bureau of
Medi cin e and Surge r y (BUMED) ; ther e f o r e , i t has not yet been impl emented.

6. Recommendation C.3.l.b. Improve medication reconciliation procedures
to ensure medications prescribed by civilian providers in the community
are reconc i led with those prescribed at the Naval Hospital to ensure the
quantities of medications available to wounded Warriors are appropriate
and not contraindicated.

wounded Warrior Ba ttal ion- East response :       Concur with comment .

At the t i me of the DOD IG Team' s vis i t i n September 2010, the battalion
staff was i n t h e process of reviewing t he battal ion's Prescription Ri sk
Management Program. Since t hen, we p romulgated Battalion Order 6000 .1B,
"Pr ocedures for Facilitation o f t h e ~lounded Warr i or Battalion-East
Prescription Reconciliat i on Program," wh i c h was signed i n October 2011 .

Per the our lines of operation, which encompass the mind, body, spirit,
and family of each of our wounded warriors, t h i s new pol i cy provides a
tool with whic h WWBn - E staff can supervise the prope r medication
accountabil i ty and dosage of each Marine and Sa ilor. The directive
focuses on three main areas:



                                            5




                                                       113
Subj:    ASSESSMENT OF DOD WOUNDED WARRIOR   ~~TTERS -   CAMP LEJEUNE (PROJECT
         NO. D2010-DOOSP0-0209.002)

        Medication inventory,
        Pain management, and
        Identification of and assistance to high risk patients.

The i ntent of this program is to create a structured, individualized
medication accountability process that provides an effective tool for
monitoring medication use . The end state is a patient population that is
taking medication as prescribed and is educated on maintaining their own
personal medication accountability. This document explains the processes
a nd procedures by which the leaders of WWBn-E will support and educate the
Marines and Sai lors under their charge.

To ensure our Marines aren• t "doctor shopping,'·' all WWBn-E patients with
chronic pain issues have their pain managed by either the pain clinic a t
the Naval Hospital or by the WWBn -E physician . The pain clinic helps
titrate medications for unstable patients. Once stable the WWBn-E
physician becomes their exclusive narcotic prescriber . As stated in
Battalion Order 6000.1B: "No WWBn-B patients who are prescribed narcotics
or sedatives will be permitted to go to a pain management provider or
clinic in the civilian community unless authorized by the unit or
detachment PCM." If narcotics are procured outside the network, they are
in violation of battalion directive and subject to administrative or
disciplinary action.

7. Recommendation C. 3.1.c. Establish procedures for the disposal of
prescription medications that are no longer needed by the Wounded Warrior

Wounded Warrior Battalion-East response: Concur with comment.

In May 2011, we were advised that under current Federal law, only patients
(recipients of these medicat ions) can dispose of their medications. Under
no circumstances should a provider, the pharmacy, or other hospital
personnel accept the return of medications or drugs from a patient. The
only legal and proper way to do this currently is to have the patient give
their medications to a Federal law enforcement officer . On Camp Lejeune,
those working under the Provost Marshal are considered Federal law
enforcement officers. Therefore, at the time of the IG Team's visit, the
only authorized prescription medical disposal program that existed aboard
Camp Lejeune was a quarterly base wide medical turn- in coordinated at the
Post Exchange (PX) by the Base Provost Marshal in coordination with local
and federal law enforcement. Since that time, the battalion coordinated a
separate turn-in of prescription medicine at the WWBn -E Barracks. The
eve.n t was conducted by the Base Provost Marshal in November 2011 with
minimal results.

8.   The following additional comments/recommendations are provided:

Subject: Wounded Warrior Battalion East Sites (p . 4).
The sites identified were correct at the time of the v isit, but the
following reflect permanent changes as of December 2011:

        Delete: National Naval Medical Center, MD AND rial ter Reed Army
        Medical Center, DC; Add: Walter Reed National Military Medical
        Center, Bethesda, MD



                                       6




                                                 114
115
Naval Hospital Camp Lejeune Comments




                                 DEPARTMENT OF THE NAVY
                                                IIAVAliiOSPIIAl
                                             lclO BREWSTER BLVD
                                 GAMP I EJ£011~. NO~ Til CMOLIIiA111$4l·1SJO
                                                                               INflliJL.'fffCflR l O

                                                                                5041
                                                                                00
                                                                                a     E'eb 12

      F'rom:   Commanding Officer, Naval Hospital, Camp Lejeune
      'fo:     Commander, Navy Medicine East.

      Subj:    ASS~SSM8NT   OF DOD WOUN08D WARRIOR MATT8RS

      Ref:     (a) eKr-1 Acti on ElON93001313-MOIG 'l'asked of 12 Jan 12
               (b) CO, NAVHOSPCAMLE:J ltr 5041 00 of 17 Jan 12

      l~ncl:   (1) CDR NME l t r 5320 Ser 09/120059 of 30 Jan 12
               (2) NAVHOSPCAMLEJNINST 6320.55C

      1.  Pee reference (a) detailed narrative recommendations are
      provided as requested and additional information is provided t o
      reference (b) :

          a. Recommendation 0.1.2: Navy Medicine ~ast (NME) has
      initiated a Manpower study regarding Wounded warrior Specialty
      care and plans to have it completed no later than April 2012. A
      letter from NME is attached as enclosure (1).

         b. Recommendation D. 4. 4. a: Regardi11g the Naval Hospital
     Camp Lejeune InsLruction 6710.51\ : The pharmacy is leading a
     multidisciplinary team involving all aspects of. our healthcare
     team to evaluate the revisions that are needed Lo the current
     Naval Hospital Instruction providing guidelines for Controlled
     Medication Utilization. The intent is to ensure Command
     guidance is given to providers and supporting staff in regards
     to narcotic and controlled medication prescribing and usage,
     prevenLing potentjal diversion or ovexuse, and providing stricL
     guidelines for poly-pharmacy patient s.

     Since a large majority of controlled medication prescribing is
     related to pain patients, a focus will be on this population
     which includes the Wounded Wa.rriors. Items open to revision
     1~ill include: patients seeing 11\o;re than one provider for pain,
     pain contracts not enforced, consequences of pain contract
     violations, obligations of patient care for the Emergency
     department provider, and overall internal communication for
     providers treating pain patients. Establishing commonalities of
     controlled medication prescribing for Naval Hospital Can~
     Lejeune could eliminate or minimize potentially unwanted
     outcomes to include addiction or illegal selling of controlled
     medications.




                                                                      116
117
118
